<html>
<title> - UPDATE ON NHTSA AND AUTOMAKER EFFORTS TO REPAIR DEFECTIVE TAKATA AIR BAG INFLATORS</title>
<body><pre>[Senate Hearing 115-766]
[From the U.S. Government Publishing Office]


                                                   S. Hrg. 115-766

                     UPDATE ON NHTSA AND AUTOMAKER
                   EFFORTS TO REPAIR DEFECTIVE TAKATA
                           AIR BAG INFLATORS

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON CONSUMER PROTECTION,
                       PRODUCT SAFETY, INSURANCE,
                           AND DATA SECURITY

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 20, 2018

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                Available online: http://www.govinfo.gov
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-882 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
     
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
JAMES INHOFE, Oklahoma               GARY PETERS, Michigan
MIKE LEE, Utah                       TAMMY BALDWIN, Wisconsin
RON JOHNSON, Wisconsin               TAMMY DUCKWORTH, Illinois
SHELLEY MOORE CAPITO, West Virginia  MAGGIE HASSAN, New Hampshire
CORY GARDNER, Colorado               CATHERINE CORTEZ MASTO, Nevada
TODD YOUNG, Indiana                  JON TESTER, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 
                                 ------                                

  SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, INSURANCE, AND 
                             DATA SECURITY

JERRY MORAN, Kansas, Chairman        RICHARD BLUMENTHAL, Connecticut, 
ROY BLUNT, Missouri                      Ranking
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
JAMES INHOFE, Oklahoma               TAMMY DUCKWORTH, Illinois
MIKE LEE, Utah                       MAGGIE HASSAN, New Hampshire
SHELLEY MOORE CAPITO, West Virginia  CATHERINE CORTEZ MASTO, Nevada
TODD YOUNG, Indiana
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 20, 2018...................................     1
Statement of Senator Moran.......................................     1
    Prepared statement...........................................     2
Statement of Senator Blumenthal..................................     3
    Staff report dated March 28 entitled ``Automaker Report Card: 
      Loaner Car Policies for Consumers Affected by the Takata 
      Airbag Recall''............................................     4
    Letter dated March 19, 2018 to Hon. John Thune and Hon. Bill 
      Nelson from Safety Advocates...............................    40
Statement of Senator Inhofe......................................    23
Statement of Senator Nelson......................................    27
    Prepared statement of Alexander C. Brangman, Father of Jewel 
      Brangman...................................................    28
    Prepared statement...........................................    29
Statement of Senator Markey......................................    32
Statement of Senator Klobuchar...................................    34
Statement of Senator Cortez Masto................................    36
Statement of Senator Hassan......................................    38

                               Witnesses

Heidi King, Deputy Administrator, National Highway Traffic Safety 
  Administration, U.S. Department of Transportation..............    20
    Prepared statement...........................................    22
John D. Buretta, Independent Monitor, TK Holdings, Inc. and the 
  Coordinated Remedy Program.....................................    43
    Prepared statement...........................................    45
David Kelly, Project Director, Independent Testing Coalition.....    46
    Prepared statement...........................................    47
Joseph Perkins, Senior Vice President and Chief Financial 
  Officer, Key Safety Systems, Inc...............................    48
    Prepared statement...........................................    50
Rick Schostek, Executive Vice President, Honda North America, 
  Inc............................................................    51
    Prepared statement...........................................    53
Desi Ujkashevic, Global Director, Automotive Safety Office, Ford 
  Motor Company..................................................    55
    Prepared statement...........................................    56

                                Appendix

Response to written questions submitted to Heidi King by:
    Hon. Todd Young..............................................    65
    Hon. Bill Nelson.............................................    65
    Hon. Richard Blumenthal......................................    68
    Hon. Maggie Hassan...........................................    69
Response to written questions submitted to John D. Buretta by:
    Hon. Todd Young..............................................    70
    Hon. Bill Nelson.............................................    71
    Hon. Richard Blumenthal......................................    72
    Hon. Maggie Hassan...........................................    72
Response to written questions submitted to Joseph Perkins by:
    Hon. Bill Nelson.............................................    73
    Hon. Richard Blumenthal......................................    73
    Hon. Maggie Hassan...........................................    73
Response to written questions submitted to Rick Schostek by:
    Hon. Todd Young..............................................    74
    Hon. Bill Nelson.............................................    75
    Hon. Richard Blumenthal......................................    76
    Hon. Maggie Hassan...........................................    77
Response to written questions submitted to Desi Ujkashevic by:
    Hon. Todd Young..............................................    80
    Hon. Bill Nelson.............................................    81
    Hon. Richard Blumenthal......................................    81
    Hon. Maggie Hassan...........................................    82

 
                     UPDATE ON NHTSA AND AUTOMAKER
                   EFFORTS TO REPAIR DEFECTIVE TAKATA
                           AIR BAG INFLATORS

                              ----------                              


                        TUESDAY, MARCH 20, 2018

                               U.S. Senate,
      Subcommittee on Consumer Protection, Product 
              Safety, Insurance, and Data Security,
        Committee on Commerce, Science, and Transportation,
                                                   Washington, DC.J
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Jerry Moran, 
Chairman of the Subcommittee, presiding.
    Present: Senators Moran [presiding], Fischer, Inhofe, 
Nelson, Blumenthal, Klobuchar, Markey, Hassan, and Cortez 
Masto.

            OPENING STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Good afternoon.
    The hearing will come to order.
    I would announce, as we begin, there is a vote scheduled 
for 4:15 p.m. So for the witnesses, at least in the second 
panel, there is a cutoff time. I do not anticipate, I cannot 
imagine the circumstance in which we recess this hearing for a 
vote on the Senate floor and come back. So this hearing will be 
concluded by the time we all need to vote.
    With that, let me present an opening statement.
    Again, welcome all of you to our Consumer Protection 
subcommittee's hearing on the Takata air bag recalls. It is the 
largest, and most complex, series of automobile recalls in 
history.
    We are here today because of a simple, but solemn, fact 
that the defective Takata air bag problem has resulted in the 
tragic deaths of 15 people and have injured well over 200 more 
in the United States alone.
    Vehicle safety is a core mission of this Subcommittee, and 
a great deal has transpired in the Takata recall process since 
the Commerce Committee last convened a public hearing on this 
matter in June 2015.
    In fact, 10 years have passed since the initial recall of 
some of the Takata air bag inflators. Thankfully, we now 
understand the underlying cause of the defect. As vehicles age, 
the threat increases.
    We have also learned that Takata misled both the Government 
and the vehicle manufacturers. As a result, Takata agreed to a 
record $200 million civil penalty and a $1 billion criminal 
penalty. We are now making progress to respond to more recalls.
    Congress, for its part, passed a number of recall reforms 
included in the FAST Act of 2015 in response to the Takata 
recalls, and others, at the time.
    These provisions sought to improve consumer awareness by 
identifying part numbers in safety defect notices, requiring 
dealers to notify consumers of open recalls during service 
appointments, and improving NHTSA's website. They also tripled 
civil penalties for auto safety violations at a cap of $105 
million.
    I am interested to hear today what impact those reforms 
have had on the overall Takata recall effort.
    To appreciate the challenges involved in this recall 
process, one needs only to reference the sheer scope of it: 50 
million air bag inflators in 37 million vehicles under recall 
by 19 manufacturers; numbers that are anticipated to continue 
to grow in a process that may play out for another 10 or 15 
years. It is imperative that these recalled vehicles are 
repaired.
    Each of our witnesses today are here to provide insight 
into this process. We will be asking them, not only for an 
update on the recall and remedy efforts for Takata air bag 
inflators, but also their plans to continue the progress thus 
far made toward full completion.
    I am generally encouraged by what I have heard in recent 
months regarding the coordination and data sharing between 
NHTSA, and automakers, and other stakeholders, but clearly the 
results are mixed and work remains to be done.
    Specifically, I want to learn more about the innovative 
approaches being used to reach the millions of consumers 
affected by these recalls. Every consumer is different and we 
must identify the methods that are most effective in reaching 
each consumer to ensure their safety and that of their 
families.
    I am pleased to welcome Heidi King, the Deputy 
Administrator of NHTSA. She is the agency's highest ranking 
official and her first testimony before this Committee. I will 
pause to smile and say welcome. We look forward to hearing your 
testimony.
    I encourage everyone who is watching this hearing today to 
pay attention to recall notices on your vehicles, and to call 
the closest dealership for repair. You can also look up whether 
your vehicle is subject to a recall at www.nhtsa.gov.
    Most importantly, I wish to offer my sincere condolences to 
those who have lost loved ones because of the defective Takata 
air bags, including some who are in our audience today.
    Once again, thank you all for being here.
    With that, I now turn to the Ranking Member, the Senator 
from Connecticut, Senator Blumenthal, for his opening remarks.
    [The prepared statement of Senator Moran follows:]

    Prepared Statement of Hon. Jerry Moran, U.S. Senator from Kansas
    Good afternoon, and welcome to today's Consumer Protection 
Subcommittee hearing on the Takata air bag recalls, the largest and 
most complex series auto recalls in history. We are here today because 
of a simple but solemn fact: defective Takata air bags have resulted in 
the tragic deaths of 15 people, and have injured well over 200 more in 
the United States alone.
    Vehicle safety is a core mission of this Subcommittee, and a great 
deal has transpired in the Takata recalls process since the Commerce 
Committee last convened a public hearing on this matter in June of 
2015.
    In fact, ten years have passed since the initial recall of some 
Takata air bag inflators. Thankfully, we now understand the underlying 
cause of the defect. As vehicles age, the threat increases. We have 
also learned that Takata misled both the government and the vehicle 
manufacturers. As a result, Takata agreed to a record $200 million 
civil penalty and a $1 billion criminal penalty. We are just now making 
progress to respond to these alarming recalls.
    Congress, for its part, passed a number of recall reforms included 
in the FAST Act of 2015 in response to the Takata recalls and others 
around that time.
    These provisions sought to improve consumer awareness by 
identifying part numbers in safety defect notices, requiring dealers to 
notify consumers of open recalls during service appointments, and 
improving NHTSA's website. They also tripled civil penalties for auto 
safety violations to a cap of $105 million. I am interested to hear 
today what impact those reforms have had on the overall Takata recall 
effort.
    To appreciate the challenges involved in this recall process one 
need only to reference the sheer scope of it: 50 million air bag 
inflators in 37 million vehicles under recall by 19 manufacturers, 
numbers that are anticipated to continue to grow in a process that may 
play out for another 10 to 15 years.
    It is imperative that all these recalled vehicles are repaired. 
Each of our witnesses today is here to provide insight into this 
process. We will be asking them not only for an update on the recall 
and remedy efforts for Takata air bag inflators, but also their plans 
to continue the progress made thus far toward full completion.
    I am generally encouraged by what I have heard in recent months 
regarding the coordination and data-sharing between NHTSA, the 
automakers and other stakeholders, but clearly the results are mixed 
and there is much work left to be done.
    Specifically, I am eager to learn more about the innovative 
approaches being used to reach the millions of consumers affected by 
these recalls. Every consumer is different and we must identify which 
methods are most effective in reaching each consumer to ensure their 
safety and that of their families.
    I am pleased to welcome Heidi King, the Deputy Administrator at 
NHTSA and the agency's highest ranking official, to her first testimony 
before this Committee. Later on, we will be joined by a second panel of 
stakeholders who are also intimately involved in this recall effort.
    I encourage everyone watching this hearing today to pay attention 
to recall notices on your vehicle and call the closest dealership for a 
repair. You can look up whether your vehicle is subject to open recall 
at www.NHTSA.gov.
    Most importantly, I wish to offer my sincere condolences to those 
who have lost loved ones because of defective Takata air bags, 
including some in the audience today.
    Once again, thank you all for being here today.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman, and thank you for 
having this hearing, which is as timely as our previous 
hearings have been. In fact, this one is our third on the 
Takata air bag recall.
    The plain, simple truth is that the Takata air bag recall 
is the largest, most complex in U.S. history. This recall also 
has been plagued by delays; they are deadly delays.
    The number of fatalities, since our last hearing, has 
doubled. Those are deaths on the road directly attributable to 
defective air bags, and there are currently 50 million 
defective Takata air bag inflators in an estimated 37 million 
vehicles. That is 50 million defective Takata air bags in 37 
million vehicles. These defective Takata air bag inflators 
continue to cause deaths and pose dangers to Americans. A lot 
of them are teenagers who may have no idea that their vehicle 
has one of these defective inflators. All of these deaths are 
preventable.
    Only about half of the vehicles with defective Takata air 
bags have been repaired.
    Those facts are staggering in an industry that has an 
obligation to do better. And I believe that, unfortunately, 
NHTSA, Ford, and Takata all are aware of the need to do better.
    Today, I ask to be entered into the record a report that my 
office has done on loaner cars, if there is no objection.
    Senator Moran. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

    Senator Blumenthal. This delay highlights that loaner cars 
must be available to owners of vehicles with defective Takata 
air bags. They should have ``Do Not Drive,'' instructions that 
automakers should be providing, and they should be making 
available loaner cars.
    The report indicates--and I have done it with my colleague, 
Senator Markey--that loaner cars are not made available by a 
number of the automobile manufacturers and dealers. The report, 
in fact, found that most automakers do not provide these free 
loaner cars, but some do. Six, in fact, do including Honda, 
which demonstrates that it is far from unreasonable to expect 
that they do so uniformly.
    We can address some of these loopholes through legislation. 
For example, used car dealers are not required to fix deadly 
defects before selling a car. We have proposed legislation to 
correct that issue and gap in the present law. I hope that we 
can make those kinds of reforms and others.
    The other lesson here is that even the comparatively simple 
technology of air bags has been plagued with deadly problems. 
To take autonomous vehicles, where we have seen just in the 
last few days an unfortunate, really tragic death, we need to 
be very careful about how we move forward with the AV START 
Act.
    I have suggested ways that we can strengthen it. That 
tragic incident makes clear that the autonomous vehicle 
technology has a long way to go before it is truly safe for the 
passengers, pedestrians, and drivers who share American roads.
    My hope is that we will take a lesson from the experience 
with air bags and their defects with the more complex 
technology of autonomous driving vehicles. And look carefully, 
prepare meticulously, take care of safety before we leap into 
an unknown future technology.
    Thank you, Mr. Chairman.
    Senator Moran. Thank you, Senator Blumenthal.
    We now turn to our first panel, which consists of Ms. Heidi 
King, who is the Deputy Administrator of the National Highway 
Traffic Safety Administration.
    Welcome once again, and we look forward to your testimony.

         STATEMENT OF HEIDI KING, DEPUTY ADMINISTRATOR,

        NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION,

               U.S. DEPARTMENT OF TRANSPORTATION

    Ms. King. Thank you very much.
    Good afternoon, Chairman Moran, Ranking Member Blumenthal, 
and members of the Subcommittee.
    First, I would like to express that my heart does go out to 
the victims and the families of victims that have been 
involved, not only in Takata air bags, but in all auto 
collisions. I know that everyone in this room shares the 
mission of improving safety on our roadways.
    Our conversation today focuses on the recall of the deadly 
Takata air bags and could not occur at a more important time. 
The unprecedented challenge confronts all of us. Each of us in 
this room shares that goal of protecting public safety.
    Manufacturers have made progress in reaching consumers and 
in persuading them to bring their vehicles in for a free 
repair, but progress is uneven. Overall completion rates are 
not where we want them to be.
    The challenge is unprecedented, but there are positive 
signs. NHTSA, and the Independent Monitor established under the 
Consent Order, have successfully encouraged vehicle 
manufacturers to adopt innovative outreach best practices--
including texting, social media, door-to-door canvassing, and 
other approaches--that have proven effective with some 
consumers who were unresponsive to traditional outreach 
methods.
    NHTSA's Coordinated Remedy Order has targeted replacement 
inflators to those consumers with the highest risk, so that 
inflators that pose the greatest danger get repaired first.
    The threat, however, is not static. As time passes, 
continued exposure to heat and to humidity will increase the 
risk of injury or death to those friends and neighbors with 
old, dangerous air bags.
    Everyone is encouraged to visit NHTSA.gov to check and see 
whether their vehicle has an open recall, so they can bring 
their vehicle to their local dealer for a free repair. They can 
also call 888-327-4236. I would encourage us not only to check 
our own vehicles, but check on our friends, our family, our 
neighbors, and our colleagues. We all need to get the word out.
    I ask each of you to support our shared goal of public 
safety, and to help raise consumer awareness of how important 
it is that vehicle owners check NHTSA.gov to learn of open 
recalls, to call their dealership, and complete their free air 
bag replacement.
    As members of this Subcommittee know, defective Takata air 
bags pose a significant threat to safety. Currently, the Takata 
recall involves 19 vehicle manufacturers and has covered 
approximately 50 million Takata air bag inflators in an 
estimated 37 million vehicles in the United States alone. To 
date, over 21 million defective air bags have been repaired.
    The recall will continue to be deployed in phases, which 
means that more vehicles will be included in the recall in the 
next couple of years. The program prioritizes and phases-in the 
recalls, not only to accelerate the repairs, but to ensure that 
the highest risk vehicles are fixed first.
    Prioritizing repairs does mean that some vehicle owners 
might have to wait for their replacement air bags and that is 
deeply frustrating. But it also means that parts are available 
immediately to fix vehicles that pose a greater risk.
    While overseeing the historic recall of 50 million air bags 
and inflators across the United States, NHTSA has continued to 
investigate Takata air bags, including the industry testing of 
parts, and is closely monitoring the vehicle manufacturers' 
recall efforts. This continued vigilance allows NHTSA to make 
sure we are focusing on those vehicles that pose the highest 
risk to safety.
    A recent example of NHTSA's continued vigilance is the ``Do 
Not Drive'' recall by two manufacturers. This ``Do Not Drive'' 
recall followed a tragic death resulting from improper 
deployment of a recalled air bag.
    The investigation revealed that there was a previously 
unidentified issue that called into question whether there was 
additional risk associated with a group of air bags. In 
consultation with NHTSA, the manufacturers escalated the 
recall.
    At this critical stage, we are considering novel ways to 
reach consumers and improve response rates. We know that 
consumers may not be aware of the risks, and we appreciate your 
help in raising awareness. Air bag replacement is free. Every 
consumer should check NHTSA.gov to learn whether their car, 
truck, or van is subject to the recall.
    Finally, Senators, I would like to address a tragic event 
that occurred earlier this week in Tempe, Arizona.
    Consistent with NHTSA's vigilant oversight and authority 
over the safety of all motor vehicles and equipment, including 
various advanced and automated technologies, NHTSA has 
dispatched its Special Crash Investigations team to Tempe, 
Arizona.
    NHTSA is also in contact with Uber, with Volvo, with 
Federal, State, and local authorities regarding the incident. 
The agency will review the information and proceed as 
warranted.
    As this is an open investigation, I am constrained in what 
I can share at this time, but I assure you--I say again--I 
assure you that NHTSA, and the Department of Transportation, 
prioritize safety above all else.
    Thank you, again, for inviting me to be with you here today 
to and raise awareness among the public of this very serious 
threat to roadway safety--the Takata air bag recall.
    I look forward to your questions.
    Thank you.
    [The prepared statement of Ms. King follows:]

        Prepared Statement of Heidi King, Deputy Administrator, 
             National Highway Traffic Safety Administration
    Good afternoon Chairman Moran, Ranking Member Blumenthal, and 
members of the Subcommittee.
    Our conversation today on the recall of the deadly Takata air bags 
could not occur at a more important time. This unprecedented challenge 
confronts all of us. Each of us in this room share the goal of 
protecting public safety.
    Manufacturers have made progress in reaching consumers and 
persuading them to bring their vehicles in for a free repair, but 
progress is uneven and overall completion rates are not where we want 
them to be.
    The challenge is unprecedented, but there are positive signs. NHTSA 
and the Independent Monitor established under the Consent Order have 
successfully encouraged vehicle manufacturers to adopt innovative 
outreach best practices--including texting, social media, and door-to-
door canvassing--that have proven effective with some consumers who 
were unresponsive to traditional outreach efforts.
    NHTSA's Coordinated Remedy Order has targeted replacement inflators 
to those consumers with the highest risk so that inflators that pose 
the greatest danger get repaired first.
    The threat is not static. As time passes, continued exposure to 
heat and humidity will increase the risk of injury or death to those 
friends and neighbors driving cars with the old, dangerous air bags.
    Everyone is encouraged to visit NHTSA.gov and check to see if they 
have an open recall so they can bring their vehicle to their local 
dealer for a free repair. They can also call 888-327-4236.
    I ask each of you to support our shared goal of public safety, and 
help raise consumer awareness of how important it is that vehicle 
owners check NHTSA.gov to learn of open recalls, call their dealership, 
and complete their free air bag replacement.
                               * * * * *
    As members of this Subcommittee know, defective Takata air bags 
pose a significant threat to safety. Currently, the Takata recall 
involves 19 vehicle manufacturers and approximately 50 million Takata 
air bag inflators in an estimated 37 million vehicles in the United 
States alone. To date, over 21 million defective air bags have been 
repaired.
    The recall will continue to be deployed in phases, which means that 
more vehicles will be included in the recall in the next couple of 
years. The program prioritizes and phases in the recalls to not only 
accelerate the repairs, but to ensure that the highest-risk vehicles 
are fixed first.
    Prioritizing repairs does mean some vehicle owners might have to 
wait for replacement air bags. That is deeply frustrating. But it also 
means that parts are available immediately to fix vehicles that pose a 
greater risk.
    While overseeing the historic recall of 50 million air bag 
inflators across the United States, NHTSA has continued to investigate 
Takata air bags, including industry testing of parts, and is closely 
monitoring the vehicle manufacturers' recall efforts. This continued 
vigilance allows NHTSA to make sure we are focusing on those vehicles 
that pose the highest risk to safety.
    A recent example of NHTSA's continued vigilance is the ``do not 
drive'' recall by two manufacturers. This ``do not drive'' recall 
followed a tragic death resulting from improper deployment of a 
recalled air bag. The investigation revealed that there was a 
previously unidentified issue that called into question whether there 
was additional risk associated with a group of air bags. In 
consultation with NHTSA, the manufacturers escalated the recall.
    At this critical stage, we are considering novel ways to reach 
consumers and improve response rates. We know that consumers may not be 
aware of the risks and we appreciate your help in raising awareness. 
Air bag replacement is free, and every consumer should check NHTSA.gov 
to learn whether their car, truck, or van is subject to the recall.
    Thank you again for inviting me to be with you today to raise 
awareness among the public of this very serious threat to roadway 
safety. I look forward to your questions.

    Senator Moran. Thank you, very much.
    Let me, first, call upon the Senator from Oklahoma. 
Questions, Senator?

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Yes, I do. I would be glad to wait until 
you conclude with your questions.
    Senator Moran. I am happy to defer to you.
    Senator Inhofe. All right. I appreciate it very much.
    Quite frankly, I am going to address something that is in 
the jurisdiction. However, it does not have to do with the 
assigned subject that you have. Under the rules, I think that 
is my ability.
    First of all, I want to thank you, Ms. King. You have 
worked with the Committee that I have chaired in the past, and 
it has been very successful. I think, frankly, we accomplished 
more during the last probably 4 years than any of the rest of 
the committees have in terms of the major pieces of legislation 
that you have been involved in. I am talking about things like 
the Chemicals Act, the FAST Act, the Safe Drinking Water Act, 
and the rest of them.
    Now since 2008, the EPA and DOT have taken an increasingly 
heavy hand in regulating the automotive industry through more 
stringent greenhouse gas and Corporate Average Fuel Economies; 
that is, the CAFE standards.
    Just hours before President Trump's Inauguration, the EPA 
issued a final determination effectively locking in its portion 
of the 2012 standards through 2025. Obama's EPA acted 
unilaterally, instead of working together with the National 
Highway Traffic Safety Administration and others, to reexamine 
the feasibility of the 2012 standards after five years in a 
mid-term evaluation, as agreed. That was agreed to at that 
time.
    A little over a year ago under President Trump, the EPA and 
the National Highway Traffic Safety Administration announced 
their joint intention to reconsider the Obama Administration's 
determination and reopen the midterm evaluation process.
    Now, my question to you, is it true that the National 
Highway Traffic Safety Administration is currently conducting a 
midterm evaluation to determine if the 2012 requirement to 
achieve an average fuel economy standard at 50 miles a gallon 
for light duty vehicles, which would include trucks, SUVs, and 
minivans, by 2024? Do you agree that that is too aggressive?
    Ms. King. That the midterm evaluation is too aggressive?
    Senator Inhofe. [Nonverbal response.]
    Ms. King. We are working on an analysis to propose a rule 
on, or near, April 1 that authorities that NHTSA operates under 
only allow us to issue fuel economy standards for periods of 5 
years.
    So we have been, for quite some time now, anticipating 
proposing the next 5 year period and we intend to do so. We are 
working toward that now with the expectation of publishing in 
April.
    We are working closely with our colleagues at EPA on the 
midterm evaluation and to make sure that the Federal family is 
aligned in the path forward.
    Senator Inhofe. That is good.
    Now, as you can appreciate, it is particularly important 
that all stakeholders are at the table and engaging in dialogue 
to demonstrate that this Administration is working 
collaboratively on this evaluation, unlike what happened in the 
last Administration.
    So the question I would have is, would you commit to me, 
and to this committee, that you will engage with all interested 
public and private stakeholders as you work on the midterm 
evaluation?
    Ms. King. It is absolutely imperative on something so 
important to all of us in the United States that we be open to 
all stakeholder views. We have been hearing from stakeholders. 
We will continue to do so.
    We look forward to a very robust and transparent public 
comment process on the proposed rule. And we will, as has been 
NHTSA practice in the past, provide information supporting the 
rulemaking on our website, so there is full transparency about 
any modeling or technical information to support a vigorous 
dialogue.
    Senator Inhofe. And I appreciate that very much.
    My last question: today's trucks and SUVs make up two-
thirds of the vehicles sold, yet these vehicles do not help 
automakers meet current DOT and EPA regulations of reaching 50 
miles a gallon fuel economy by 2025.
    As such, auto manufacturers are making more and more 
electrical vehicles and other vehicles American consumers 
really do not want at steep losses to try to comply with these 
rules. Meanwhile, the average age of a vehicle on the road 
today is 11 years and new cars are getting more and more 
expensive discouraging consumers from buying new vehicles.
    Now, Congress created the Corporate Average Fuel Economy in 
1975 because we had a fuel shortage at that time. We no longer 
have a fuel shortage, but that did not stop the Obama 
Administration from ensuring standards kept increasing beyond 
the technical feasibility of technology.
    In the 1975 law, Congress specifically required that the 
Administrations take into account, this is out of the law, 
quote, ``economic practicality,'' which is, obviously, cost.
    Is not one of the fastest ways to get cleaner and safer 
vehicles on the road to encourage manufacturers to make more 
affordable vehicles that consumers want to buy?
    So my last question would be, would you commit to me, since 
it is in the law, that affordability will be a top priority for 
you as you finalize the midterm evaluations?
    Ms. King. Of course, NHTSA will consider it and will 
propose based on all of the statutory factors, including 
economic practicability. That is right.
    Senator Inhofe. That is correct. Thank you very much, I 
appreciate this.
    Ms. King. Thank you.
    Senator Inhofe. You are welcome.
    Thank you, Mr. Chairman. It is very nice of you.
    Senator Moran. Thank you, Senator Inhofe.
    The Senator from Connecticut, Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    And thank you very much for being here this morning and for 
your good work in your present Acting capacity in a position 
that is critically important to safety on our roads and 
elsewhere in our transportation system.
    Let me ask you, what percent of the vehicles, that so far 
have been unrepaired, would you say remain with these defective 
air bags because of a lack of supplies of new air bags?
    Ms. King. That is a very good question. I would be happy to 
see if we have that information to provide. We have not 
explicitly tracked that.
    We have been focused very much on increasing response 
rates, making sure consumers are aware, and that we prioritize 
the most dangerous air bags for replacement first. So driving 
replacement rates has been our focus.
    Senator Blumenthal. And how do you determine which are the 
most dangerous?
    Ms. King. Through the Coordinated Remedy Order. The 
Coordinated Remedy Order that was issued 2 years ago would 
define priority groups, taking into account the factors that 
have been identified as the key areas of risk, including the 
age of the vehicle, which indicates the time of that air bag's 
exposure to environmental elements; environmental humidity; and 
exposure to heat, and in particular, heat cycling.
    Senator Blumenthal. When repair parts, replacements are not 
available, would you not agree that the automaker has a 
responsibility to provide a loaner?
    Ms. King. The automakers are doing their----
    Actually, I would say many automakers are, in fact, as we 
saw in the loaner report, already providing loaners. I realize 
some automakers may not have a policy, but the individual 
dealerships might. I think that is a great practice. We have 
heard that the consumers----
    Senator Blumenthal. It is a great practice.
    Ms. King. Yes.
    Senator Blumenthal. But my question was, and it is not 
meant to be adversarial.
    Ms. King. Understood.
    Senator Blumenthal. Would you not agree that they have an 
obligation to do what, for example, Honda has done in providing 
loaner vehicles?
    Ms. King. NHTSA encourages all of the auto manufacturers to 
take whatever steps they can to reduce the barriers to 
consumers having a timely and safe replacement of their air 
bag. Yes.
    Senator Blumenthal. It is ultimately their responsibility 
to put a safe vehicle in consumers' hands.
    Ms. King. It is their responsibility to meet the terms of 
the Coordinated Remedy Order and to see the vehicles safe for 
consumers again. Yes.
    Senator Blumenthal. I want to ask a question about the 
investigation that you mentioned into the autonomous vehicle 
tragedy that occurred.
    Do you have any preliminary views on what the cause was?
    Ms. King. I do not have preliminary views. As you may be 
aware, I have a background in law enforcement, and what I have 
always found is that in those early hours after an accident, 
the very distressing time when we are dealing with the tragedy, 
facts can change and misinformation can be available.
    So I take very seriously the responsibility leading NHTSA 
to make sure that the investigation is allowed to proceed 
responsibly and that I withhold judgment until such time as the 
investigation is ready to share information.
    Senator Blumenthal. In 2016, as you may be aware, there 
were 1.18 fatalities for every 100 million miles driven.
    To date, self-driving cars have logged a lot fewer than 100 
million miles. Waymo reported logging 4 million miles and Uber 
has just reached 2 million miles with its autonomous vehicle. 
At this rate, that is one fatality for 6 million miles.
    Now, that comparison may be unrepresentative, but is NHTSA 
collecting the kind of information that is necessary to assess 
whether autonomous vehicles are at least as safe as human 
driven vehicles? Are you collecting that data right now?
    Ms. King. Vehicle safety information is collected by local 
government, State governments, and also by the Federal 
Government.
    We do work closely with our State members, both in sharing 
information and making sure we are all remaining as current as 
possible, both on incidents and in aggregate data.
    Senator Blumenthal. Would you say self-driving vehicles are 
safer than human driven vehicles?
    Ms. King. At this point, I would not know how to define 
self-driving vehicles, Ranking Member Blumenthal.
    One of the challenges we see at the National Highway 
Traffic Safety Administration is people use the terms in 
different ways.
    So, for example, it is not clear to me which technologies 
have been in recent use in Tempe, Arizona. So that is one of 
the areas of confusion that we see the need to clear up.
    Many of the vehicles we see on the roads today for sale to 
consumers have, what we would call, Level 1 features, driver's 
assistance features, lane keeping, or emergency braking 
systems.
    There are other advanced systems, but we may use the terms 
differently, SAE Levels 3, 4, 5, self-driving, automated 
driving system.
    Senator Blumenthal. One last question.
    Ms. King. Of course.
    Senator Blumenthal. Will you agree with me, I would hope 
that you would, that the tragic incident in Arizona is a red 
flag for the Congress, as well as NHTSA, in moving too fast, or 
precipitously, or incautiously with autonomous driven vehicles?
    Ms. King. I am confident that all of us share the goal of 
public safety on our roadways, and all of us are focused on 
everything we can do to that effect.
    I await the details of the investigation and the findings 
regarding the accident before making judgment on any particular 
event. But I look forward to working with you. I look forward 
to solving the problem of various issues on our roadways.
    Senator Blumenthal. Thank you very much.
    Ms. King. Thank you.
    Senator Moran. We are pleased to have joining us the 
Ranking Member of the Full Committee, Senator Nelson, and I 
would recognize him now.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    I want to talk about the lack of progress on Takata air 
bags. And yet, I want you to understand that I have just come 
from a meeting with the parents of the three sons that were 
beheaded in Syria, and the parents of the daughter who was 
repeatedly raped and then killed by Abu Bakr al-Baghdadi. So 
you can understand that I am not in a particularly good mood.
    It was all the way back in 2014 when we had our first 
hearing on defective Takata air bags. And when you fast forward 
to today--three and a half years later--we are still dealing 
with the big problem of getting vehicles with these defective 
and deadly air bags fixed.
    And so, we asked in the Committee that all 19 automakers 
that have been affected by the Takata recalls update us on the 
most recent recall completion rates and the steps they are 
taking to improve them. And the responses to the request show 
that there is still a very wide variance in the pace of these 
recalls.
    For example, among the five automakers with the highest 
number of vehicles recalled due to Takata air bags, listen to 
this, Honda has repaired 70 percent of these recalled vehicles 
nationwide as of last month; Fiat Chrysler's completion is 41 
percent; Toyota is at 61 percent.
    Ford has only fixed about 22 percent of vehicles under 
recall. Ford's completion rate is so low because NHTSA allowed 
the automaker to delay repairs on more than one million 
recalled vehicles.
    Last, BMW, the automaker with the fifth highest number of 
recalled air bags, failed to provide their most recent 
completion rates.
    Is this a responsible automobile industry?
    Now, Honda has been at this longer than all the others, 
which may explain why their numbers are higher. But overall, 
these recall completion rates are disappointing, unacceptable, 
and remain a cause for great concern.
    Mr. Buretta, the Independent Monitor, put out a lengthy 
report last year outlining new ideas and strategies to make the 
recalls more effective.
    Things like mobile service units that can come to consumers 
on their schedule and fix defective air bags at their homes or 
businesses.
    Or incentivizing dealers to offer extended service hours so 
the person who works all day--and has to come home, put the 
kids to bed--can get their car in and get it repaired without 
taking time off.
    Do we really want to help these consumers get the recalls 
done?
    Or what about just a coordinated outreach strategy?
    You would think NHTSA would have picked that up and run 
with it. But unfortunately, NHTSA seems to be playing a game of 
regulatory whack-a-mole and twiddling its thumbs when it comes 
to actually enforcing the coordinated recall approach.
    And all this is happening while drivers in my state, which 
has been hit significantly with these exploding Takata air 
bags--and indeed across the country--wonder about the safety of 
their vehicles and are left in limbo.
    I hope that we are going to finally hear about a forceful 
regulatory approach.
    I want to recognize Mr. Alexander Brangman, who has 
traveled all the way from San Diego. He is in the third row 
right back there. Mr. Brangman lost his daughter, Jewel, when a 
Takata air bag exploded in her Honda in September 2014.
    Mr. Chairman, I want to request that his statement be 
entered into the record.
    Senator Moran. Without objection.
    [The information referred to follows:]

              Prepared Statement of Alexander C. Brangman
    Good afternoon, I am Alexander Brangman, father of Takata airbag 
fatality and victim, Jewel Brangman.
    I would like to thank Chairman Moran, and fellow members of this 
Committee for the opportunity to submit a statement to you today on 
behalf of Takata victims and their families and the American public, 
regarding, the critical and life-threatening issue, of the Takata 
airbag recall.
    Today's hearing is extremely important and I'm thankful to the 
committee for its leadership and time in evaluating and addressing this 
ongoing, grave threat to public safety.
    I represent the worst-case scenario of incompetence, poor ethics 
and greed. My daughter came into this world with a birth certificate 
and she left with a death certificate, at the age of 26 years, 11 
months, 9 hours and 15 minutes . . . due to extreme negligence and 
unethical conduct, of systemic corporate behavior that puts profits 
over lives.
    One would never think, that when you put all the effort into 
raising a child to the level of extraordinary accomplishments that my 
Jewel rose to: from high school Academic All-American, State Champion & 
Pre-Olympic gymnast; to double major college graduate; to Master's 
Degree in communication media arts and journalism; and then about to 
embark on her Ph.D. at Stanford University, in family therapy . . . 
that something that was preventable could impede her progress and 
dreams, to try to make our society a better place for us all. A 
mechanism that is supposed to save lives is not supposed to be the 
reason for taking lives.
    The unnecessary practice of putting profits over lives must stop. A 
call of action, nationally, needs to be taken, laws need to be enacted 
and a competent system needs to be put in place. It needs to be 
expedited and taken seriously because too many lives are in perilous 
danger.
    Albert Einstein once said, ``We cannot solve our problems with the 
same thinking we used when we created them.'' In this same light, if we 
continue to protect the perpetrators of such nefarious and incorrigible 
actions, more lives will be taken, more families shattered, and more 
hearts will be broken.
    We need leadership and accountability from our legislators, 
regulators and partners, not culprits like Takata, who continue to 
disregard industry standards by using unstable ammonium nitrate in 
their airbags; not culprits like Ford and GM, who seek 2 and 3 
exemptions from the recall in the continuance of profits over lives and 
public safety.
    Unfortunately, this is not the first time such despicable behavior 
has led to an extreme loss of life, where corporations have calculated 
profits over lives, as evidenced by the Pinto, Firestone, GM ignition 
switch and Toyota SUA cases. However, this esteemed committee has the 
opportunity to lead by example.
    I urge the committee and participants to enact stricter standards 
for recall completion rates that are unacceptable and severely lagging; 
to prohibit the use of ammonium nitrate in airbags; to fix our flawed 
recall system that puts used car owners at a disadvantage in receiving 
recall notices, to prohibit the sale of used vehicles with open safety 
recalls; to require all automakers to provide loaner vehicles and tows; 
to require the use of mobile repair units, just to name a few.
    My purpose now, is to bring awareness to those who are not aware of 
the seriousness of this issue, to honor my daughter, save lives and 
advocate for the necessary changes that will efficiently and 
effectively remove these deadly airbags that endanger the lives of our 
children, loved ones and fellow Americans on a daily basis.
    Thank you for your time and attention in considering this statement 
and the serious issue at hand. Please do not hesitate to reach out to 
me if I can be of any further assistance in helping to save lives.

    Senator Nelson. I think his presence here today is a stark 
reminder of the human cost of these defective air bags and a 
reminder to all of the witnesses here, especially NHTSA, that 
we need to pick up the pace on these recalls.
    I will close by saying that the first time that this came 
to my attention was in my hometown of Orlando. The police had 
come to an intersection to investigate what was to be a normal 
fender bender, and they found the driver of the car with a slit 
throat. They started to work the case as a homicide. And then, 
of course, discovered it was the exploding Takata air bag.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Thank you, Mr. Chairman.
    In November 2014, this Committee held our first hearing on 
defective Takata air bags.
    Fast forward to today--some three and a half years later--and we're 
still dealing with the big problem of getting vehicles with these 
defective and deadly air bags fixed.
    To try to get a better read on where things stand right now, I 
asked all nineteen automakers affected by the Takata recalls to update 
us on their most recent recall completion rates and steps they're 
taking to improve them.
    And the responses to my request show that there is still a wide--
and concerning--variance in the pace of these recalls. For example, 
among the five automakers with the highest number of vehicles recalled 
due to Takata air bags:
    Honda has repaired seventy percent of these recalled vehicles 
nationwide as of early March;
    Fiat Chrysler's completion rate is forty-one percent; and,
    Toyota is at approximately sixty-one percent.
    Ford, on the other hand, has only fixed about twenty-two percent of 
vehicles under recall. Ford's completion rate is so low because NHTSA 
allowed the automaker to delay repairs on more than one million 
recalled vehicles.
    Lastly, BMW, the automaker with the fifth highest number of 
recalled Takata air bags, failed to provide their most recent 
completion rates.
    Now, Honda has been at this longer than all the other automakers, 
which may explain why their numbers are higher. But overall, these 
recall completion rates are disappointing and remain a cause for real 
concern.
    Mr. Buretta, the independent monitor, put out a lengthy report late 
last year outlining new ideas and strategies to make these recalls more 
effective.
    Things like mobile service units that can come to consumers on 
their schedule and fix defective air bags at their homes or businesses.
    Or incentivizing dealers to offer extended service hours, so the 
person who works all day and then has to come home and put the kids to 
bed can bring the car in and get it repaired without taking time off.
    Or even just a better coordinated outreach strategy.
    You would think NHTSA would have picked that up and run with it.
    Unfortunately, NHTSA still seems to be playing a game of regulatory 
whack-a-mole and twiddling its thumbs when it comes to actually 
enforcing the coordinated recall approach and benchmarks for 
automakers.
    All this is happening while drivers in Florida and across the 
country, who wonder about the safety of their vehicles, are left in 
limbo.
    I hope that we finally hear today about a forceful regulatory 
approach that will get us to the end of what has been a long and 
frustrating road for the American driving public.
    Finally, I would like to recognize Mr. Alexander Brangman who 
traveled from San Diego to be at this hearing today.
    Mr. Brangman lost his daughter, Jewel, when a Takata air bag 
exploded in her Honda in September 2014. Mr. Chairman, I request that 
his statement by entered into the record
    I think his presence here today is a stark reminder of the human 
cost of these defective air bags and a reminder to all of the witnesses 
here--especially NHTSA--that we need to pick up the pace on these 
recalls before anyone else loses a loved one.

    Senator Moran. Thank you, Senator Nelson.
    Ms. King, you testified that NHTSA and the Independent 
Monitor have successfully encouraged vehicle manufacturers to 
adopt innovative outreach best practices to connect to 
consumers who have been unresponsive to traditional outreach 
efforts.
    Have all the manufacturers adopted those practices? And if 
not, does NHTSA intend to take any actions to ensure that they 
do?
    Ms. King. As you know, Chairman, each manufacturer has a 
different clientele and different types of drivers, and they 
may need to choose approaches that work best for their drivers.
    For example, as you and I know, the owner of a Tesla may be 
using that vehicle in a different way than the owner of a 
pickup truck.
    I would say I am not aware of each and every manufacturer 
using exactly the same approaches, but we encourage 
manufacturers, in fact, we press manufacturers to use the 
approaches that work best for their drivers.
    This hearing is very helpful for us to get the word out. We 
find that making sure that the awareness and the discussion is 
ongoing, and that consumers are aware of the urgency of the 
problem will only help to improve recall rates, the completion 
rates.
    Senator Moran. Well, the manufacturers are clearly aware of 
the best practices proposal or agreement that comes from you 
and the Monitor. True? That is well-known?
    Ms. King. Yes, yes. In fact, the Monitor completed a report 
in November with some market research showing what some of the 
barriers are and we have that posted on our website at 
NHTSA.gov. Those best practices are shared in quarterly 
meetings hosted by the Monitor at which the manufacturers share 
what is working and what is not.
    Senator Moran. You have heard two of my colleagues who have 
asked you questions to this point complain, discouraged by the 
slowness of the process.
    What would your recommendation be that would increase the 
timeliness of recalls and replacement or repair?
    Ms. King. What we are seeing now, although I would not call 
anything we are seeing good news, I would say it is heartening 
news, and it is encouraging news to see evidence that the 
Coordinated Remedy Order is, in fact, working.
    Just in the most recent year's worth of data, we saw in 
that year alone, the 12-month period, 68 percent more air bags 
replaced. We saw just in the past 6 months, 22 percent more 
replaced. So, of the 22 million or so air bag replacements, 8.4 
million of those were just in the past year.
    What we have is an increase in the rate of air bag 
replacements. That indicates to us that the outreach efforts 
are working. It indicates to us that the supply is working, 
that the prioritization is working. But we are not done. That 
is not good enough. We have to do better.
    We still have more air bags, as Ranking Member Blumenthal 
identified, in the field and particularly in those hot, humid 
climates.
    So while we are encouraged by the progress, we need to do 
more.
    Senator Moran. When you say, ``We need to do more,'' how 
would you define ``doing more''? What would ``doing more'' be? 
What would we see?
    Ms. King. At the National Highway Traffic Safety 
Administration, what we are trying to do is to raise consumer 
awareness. We have a multipronged approach. There are 
consumers. There is also working, of course, with the auto 
manufacturers and with the suppliers of the equipment.
    With consumers, we are trying to improve consumer awareness 
through novel outreach approaches. For instance, after the ``Do 
Not Drive'' recall, I immediately went onto the radio and did a 
national radio tour on morning talk show programs to raise 
awareness.
    We have materials we have developed as slide shows at 
Departments of Motor Vehicles. So while consumers and drivers 
are at the DMV, they are alerted to the risks.
    We have also a program, a novel program, piloted in the 
State of Maryland, when a vehicle is being registered, they 
will be alerted.
    In addition, we have, of course, our website. We have our 
phone line and we continue to try and get the word out on the 
importance of the recall. That is the consumer piece.
    We also work with manufacturers. We are always vigilant to 
understand whether or not they are leaning in, whether or not 
they are doing what they say they are doing, whether they are 
making progress toward the ambitious goals in the Coordinated 
Remedy Order.
    We are, furthermore, working with the Monitor to understand 
the issues in the supply.
    Those three pieces--working with consumers, with auto 
manufacturers, and also with replacement part suppliers--are 
critical pieces of the program.
    Senator Moran. Do you have data that would suggest the 
percentage or the nature of the consumer, whether he or she is 
aware of the recall, but does not act upon, even though aware 
versus the consumer who is not aware? Is there a problem with 
both and where does that problem mostly lie?
    Ms. King. There is some work that is available in the 
Monitor's report. There is some other work that may be with the 
auto manufacturers. At NHTSA, we have not performed market 
research to that effect.
    I will say anecdotally, living here in the District of 
Columbia, I find even among my professional friends that they 
may be aware of the recall. They may even be aware there is a 
part available for them, but they may not realize the 
seriousness.
    Some of the market research shows that people do not 
realize that the replacement is free or that it can be 
scheduled and not take too much time.
    So, I think, again, not to say consumers are the only piece 
of the puzzle. Certainly, manufacturers have a role in 
educating and stimulating that vehicle owners would come in for 
their repairs, but that is where I say we all need to lean in, 
raise awareness, and see the replacement rates improved.
    Senator Moran. Ms. King, let me ask a final question, at 
least in this round.
    Do you believe that the prioritization under the 
Coordinated Remedy is appropriate? That the way to do this is 
to prioritize?
    Ms. King. That is where the science and the data have taken 
us. Yes.
    Senator Moran. Thank you.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, and thank you, 
Ranking Member Blumenthal, for this incredibly important 
hearing.
    As of the third quarter of 2017, less than one-half of the 
50 million defective Takata air bags currently under recall 
have been repaired. An additional 19 to 24 million additional 
air bags are scheduled to be added to the recall as they reach 
a state of instability. That is just unacceptable.
    Simply put, we have far too many Takata air bags on the 
roads years after national recalls began. For completion rates 
to improve, consumers need to be aware that their car has a 
dangerous, defective Takata air bag.
    That is why I am concerned that NHTSA has failed to 
complete a rulemaking requiring automakers to notify consumers 
of recalls by way of electronic means including e-mail, social 
media, or targeted online campaigns.
    While I appreciate that many automakers are voluntarily 
contacting consumers by way of electronic means, NHTSA must 
comprehensively review how best to engage consumers 
electronically and then implement standards.
    Deputy Administrator King, when will that rulemaking be 
completed? The law required NHTSA to complete it by August 
2016. Why has it not been completed to date?
    Ms. King. Senator Markey, we have proposed the rulemaking. 
We are reviewing the numerous comments received on that 
rulemaking.
    Senator Markey. The proposed rulemaking was issued in 
August 2016. It is March 2018. When are you going to complete 
this rule?
    Ms. King. Meanwhile, we have on our website installed a 
tool that allows consumers to receive notifications, yes.
    Senator Markey. Right. When are you going to complete the 
rulemaking? When is the final rulemaking going to be issued? 
What is your target date right now?
    Ms. King. It is on a regulatory agenda as in-progress and 
we look forward to having that rulemaking.
    Senator Markey. What does ``in-progress'' mean? When are 
you going to finish it?
    Ms. King. We are reviewing comments now, Senator. I would 
look forward to discussing that further with you, but we are 
doing our best. As you know, it is not a simple issue. Many 
people----
    Senator Markey. Right.
    Ms. King.--do not receive all of their e-mail. So we did 
receive diverse comments on this subject matter. We take the 
public comments on each and every rulemaking very seriously. We 
review all of the public comments.
    Senator Markey. Look, we need a standard which is set as 
part of a permanent rulemaking. When are you going to finish 
it?
    Ms. King. We look forward to advancing the rulemaking when 
we finish the comments.
    Senator Markey. Are you going to finish it this year? Will 
you finish it this year?
    Ms. King. We prioritize reaching out to consumers, which 
may or may not be the ones receiving electronic----
    Senator Markey. It is unacceptable. It is just 
unacceptable. Finish the rulemaking. Make it permanent. Send 
clear signals. Let me go to some of the other rulemaking.
    Ms. King. I hear you and I thank you.
    Senator Markey. Let me go to some of the other rulemakings 
here.
    The tire pressure monitoring regulations, which Congress 
required NHTSA to initiate by December 2016, what is the status 
of that rulemaking?
    Ms. King. We are making progress on that rulemaking. As I 
know you are aware, we have research to complete before we 
issue the rulemaking. To complete a proper and appropriate 
rulemaking, we do have to do the research before proposing and 
finalizing.
    Senator Markey. What is your target?
    Ms. King. I can send that information to you separate 
from----
    Senator Markey. No, you are the administrator.
    Ms. King. OK.
    Senator Markey. What is the target?
    Ms. King. If you do not mind my taking the time from your 
clock----
    Senator Markey. What is the target?
    Ms. King. So I have a list of rulemakings with me with the 
estimated dates from the regulatory agenda. I would be happy to 
send that to you separately.
    Senator Markey. OK. Let me move onto the next one.
    Ms. King. OK.
    Senator Markey. Crash avoidance technologies on vehicle 
labels, which Congress required NHTSA to implement by December 
2016.
    What is your target for completing that?
    Ms. King. Again, I would be happy to review the regulatory 
agenda or have my staff meet with your staff. As you know, we 
have a number of rulemakings in progress. We are required to, 
under the Administrative Procedure Act, follow procedures, take 
public comment, and do adequate research before finalizing our 
rulemaking.
    Senator Markey. Right.
    Ms. King. I appreciate your support for this.
    Senator Markey. But you also have a congressional mandate 
that you complete that rulemaking by the end of 2016.
    Let me go to rear seatbelt reminders, which Congress 
directed NHTSA to require in all new motor vehicles by October 
2015. When are you going to complete that one?
    Ms. King. Senator Markey, again, I would be very pleased to 
work through our regulatory agenda with you. I appreciate your 
support for all of the public safety regulations we are working 
on.
    Senator Markey. Well, I was going to go through retention 
of safety records by manufacturers. That was due in June 2017. 
Side impact requirements for child restraint systems were due 
October 2014; that is side impact requirements for child 
restraint systems.
    Standards that improve the anchors and tethers needed to 
secure child seats. That was due October 2015. The list goes 
on, and on, and on.
    The agency has to do its work. Finish these rulemakings. 
Send a clear signal to the industry as to what is required. 
They win. Justice delayed is justice denied. The longer this 
goes on, the more endangered the public is.
    I would say, as well, that one of the lessons, I think, we 
learned from the death in the automated vehicle case yesterday 
is that if these new technologies, Mr. Chairman, are going to 
reap their purported safety efficiencies and environmental 
benefits, then we have to have robust safety, cyber security, 
and privacy rules that are put in place before these vehicles 
are traveling the streets of our country. Otherwise, we are 
going to relearn this lesson over and over again.
    Thank you, Mr. Chairman.
    Senator Moran. Senator Markey, thank you.
    Senator Markey. Thank you.
    Senator Moran. Senator Klobuchar is recognized.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you, Ms. King. Thank you.
    We had a woman who got blinded in one eye, left permanently 
blind, Ms. Shashi Chopra, a woman from North Oaks, Minnesota. A 
Takata air bag exploded just right in her neighborhood. They 
were not even going that quickly. Actually, it is both eyes 
when I met her.
    In her case, they did not even know about the issue for 
about a year, and they were not notified, and it was just a 
really sad story.
    First of all, my first question is one of the things I got 
obsessed with, when we had the ignition lock case, was that 
there were all these dots across the country showing a problem, 
but it was very difficult to put it all together. And that is 
the ability to spot trends and problems with things like air 
bags, or ignition locks and ignition keys.
    NHTSA receives tens of thousands of complaints annually. 
You have to try to identify these common threads.
    Do you have the necessary technology to perform these 
complex functions and what additional resources would help you 
to do that?
    Ms. King. Thank you, Senator, for asking and I am also 
distressed sometimes by the complexity. NHTSA, as you know, 
receives more than 6,000 vehicle safety complaints each and 
every month.
    I am pleased to say that as a former Risk Manager, I come 
to NHTSA having seen the work to restructure the program by 
which those complaints are received by NHTSA and assessed.
    There are now both improvements in progress in the I.T. 
system, but also a restructuring of how we process them so that 
each and every complaint is screened, and there is an 
assessment against the existing data bases to see whether or 
not there are other issues that could be connected.
    We have not only the opportunity to do that screening to 
contact the manufacturers, but also to see whether or not they 
have additional data. Where necessary, we launch an 
investigation. We have weekly governance meetings that I 
attend.
    So our processes have improved greatly. That does not mean 
we think we are done.
    We are relaunching a group called the Safety Systems Team, 
which is a group of experts in risk management processes to 
assess our implementation of that restructuring and see whether 
or not we are implementing as best as we possibly can, and how 
can we be even better.
    We are keenly aware of the risks that have been out there 
and we are keenly aware of the responsibilities. We have made 
progress, and will continue to always try to be better.
    Senator Klobuchar. OK, thanks.
    Now, this is a kind of in-the-weeds question.
    Ms. King. OK.
    Senator Klobuchar. Under the Consent Order, Takata was 
ordered to phaseout its ammonium nitrate inflator production. 
And Takata also agreed to test its desiccated ammonium nitrate 
inflators, and if the company cannot demonstrate they are safe 
by December 31, 2019, NHTSA can require Takata to issue 
recalls.
    How will NHTSA verify that the desiccated inflators are 
safe?
    Ms. King. It is an important question, not in the weeds at 
all, I think, for those of us who work in auto safety.
    There are experts, outside engineering and consulting 
firms, that are doing that work. NHTSA has employed its own 
expert engineering consultant to review those reports and 
advise when that work is done.
    We all rely on third-party experts in the subject matter so 
that we can get the best possible information to make a 
decision.
    Ms. Klobuchar. How is NHTSA preparing to address a possible 
recall of these inflators? Are you prepared for that?
    Ms. King. We will be continuing to implement the 
Coordinated Remedy Order which, as I mentioned earlier, as I 
testified, we are seeing signs that it is working. We will 
continue, however, to identify whether there are learnings we 
need to incorporate.
    So if there is a need to continue activities, we will learn 
from our earlier recall activities.
    Senator Klobuchar. The Takata recall has made clear that 
NHTSA is extremely dependent on automobile companies for the 
data it needs to tell whether an equipment failure is isolated, 
kind of what we talked about before. While you try to put 
together the dots, you also depend on this manufacturer data.
    Since the recall, the Takata recall, has NHTSA made changes 
to the way it handles self-reported data from manufacturers?
    Ms. King. I actually do not know specifically which issues 
you may be referring to there, but I will say, we depend very, 
very heavily on consumer drivers, law enforcement, and others 
who report directly to NHTSA at our website NHTSA.gov.
    I would encourage anyone who has an issue, or a suspected 
safety defect with their automobile, their truck, or their 
other vehicle, or equipment, to notify us.
    They can also call us at 888-327-4236. That starts the 
process. We also receive, of course, early warning data. We 
will ask questions of the manufacturers, but we can also compel 
information.
    Senator Klobuchar. Thank you.
    Is there a protocol for how you initiate an investigation, 
if you get a bunch of complaints, multiple complaints? How long 
does it take?
    That is my last question, Mr. Chairman.
    Ms. King. How long it takes, going in reverse order, 
depends on the complexity of the material. The protocols depend 
on a risk ranking. We have a well-defined risk program. When we 
narrow down what the problem is, identify frequency and 
severity, we have a risk matrix that allows us to prioritize, 
and decide, and move forward.
    Senator Klobuchar. Thank you.
    Ms. King. Thank you.
    Senator Moran. Thank you, Senator Klobuchar.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chairman. I so 
appreciate both you, and the Ranking Member, holding this 
hearing.
    Like others on this Committee, unfortunately, this is also 
personal to us in Nevada, in Las Vegas. Unfortunately, an 18-
year-old by the name of Karina Dorado needed a car to get to 
and from her customer service call center job.
    According to her family's attorney, her father bought a 
2002 Honda Accord for her in March 2016. What they did not know 
was the car's history, including that it had been wrecked in 
Phoenix and declared a total loss by an insurance company in 
2015. Unfortunately, this automobile had the air bag inflator 
from a 2001 Honda, which was covered by the recall, but was 
never properly replaced. Now, Karina has a punctured trachea 
and other neck injuries.
    And so, like many on this Committee, I have concerns about 
how fast this process is moving. What I am hearing is not quite 
when it comes to recalling and making sure that individuals in 
our communities, that have these vehicles, are aware that there 
is a concern for their safety when they drive these vehicles. 
And they are bringing them in appropriately for the recall and 
the replacement.
    I have a couple of questions. I understand that there are 
Zones A, B, and C for the recall.
    Is that correct?
    Ms. King. Yes.
    Senator Cortez Masto. Those Zones, can you tell me how they 
are identified? Are they identified by highest risk to the 
consumer? Zone A would be the highest risk, so anybody in the 
states that accommodate Zone A would get a replacement before 
anybody in, say, Zone B or C?
    Is that correct?
    Ms. King. It is, I will say, approximately correct.
    The Zones, A being the one that has the greatest heat and 
humidity, which combined with time creates the degradation that 
results in the risk. That has been built-in to the priority 
groups that are in the Coordinated Remedy Order for schedule. 
So they are built-in to setting the priorities with the 
ambitious goals for the manufacturers to replace all of the air 
bags. Yes.
    Senator Cortez Masto. And when you talk about priorities, 
so I if I am in a lower priority category, and I find out I 
have a vehicle that has the Takata air bag that needs to be 
replaced, and I go to the manufacturer to get it replaced, 
there is a potential that I cannot get it replaced because I am 
not in that priority and so, I have to wait? And how long would 
I have to wait?
    Ms. King. One of the features of this recall is that the 
risk emerges over time. So the air bags over time with exposure 
to heat and humidity, the risk will emerge.
    In order to focus on the highest risks first, to replace 
the highest risk air bags now, those air bag that have not been 
subject to the heat, humidity, and length of time are scheduled 
for later replacement before the risk emerges.
    Senator Cortez Masto. And I have heard that because of this 
phased-in approach and the need to get, like you said, the 
replacements to the most vulnerable drivers that there is a 
possible limit on replacement parts. And so, there could be a 
potential that when you do need that replacement part, there is 
not going to be the part available.
    Is that true? That if you are lower down on the phased-in 
approach and you are not a high risk, that those parts are not 
available for you?
    Ms. King. When a consumer is contacted about their 
replacement parts, they are being invited in to have their 
replacement air bag installed, that part should be available. 
If any of your constituents, any friends and neighbors say that 
is not the case, they should contact us. They should contact 
the manufacturer.
    The manufacturers are making available parts that are 
adequate for each recalled group.
    Senator Cortez Masto. And so, let me ask you this. If I 
have a 16-year-old daughter who actually has one of these 
vehicles, but she is in Zone C, she is going to have to wait to 
get a replacement part? And we are just going to assume that 
the science is there that there is no concerns to her safety 
based on what you have identified as Zones A, B, and C and her 
priority?
    Ms. King. So, again, the risk emerges with time, 
temperature, heat, and humidity. So there may be, in fact, some 
inflators that are planned to be scheduled for replacement in 
later periods in time. In fact, we expect to expand.
    We have scheduled expansion of the recall to include 20 
million more in order to pull from the marketplace, to pull 
from vehicles those air bags with the inflators that are 
expected to degrade over time.
    Senator Cortez Masto. And I appreciate that. I am running 
out of time here, but I have concerns about anybody who has a 
child or anybody who is driving these vehicles and they cannot 
get a replacement immediately.
    I mean, you are already talking about the fact that we 
cannot even identify people to make sure that they come in and 
get the recalls. Now, maybe somebody is identified, but now you 
are going to tell them that, ``You have to wait.'' I think that 
is ridiculous, number one.
    Number two, the challenge I do hear from you is identifying 
these vehicles. Right? And getting the information to the 
drivers of those vehicles so that they are aware that there is 
a danger and they have to get a recall.
    Is that what I am hearing is happening right now?
    Ms. King. The vehicles are identified, but not all of the 
owners have understood that there is a free replacement 
available, and that it is urgent, and they should go ahead and 
take action on the recall notice when they receive it.
    In addition, there may be some confusion, things like the 
class action lawsuit would send out mailers. People think that 
they need to go to the dealership now.
    I will say, when a consumer is contacted, invited to come 
in and replace their air bag, they should do so as quickly as 
possible. Not everyone understands the risks and they do not 
always take action as quickly as they should. But the vehicles 
are identified.
    Senator Cortez Masto. Thank you. I know my time is running 
out and I will just submit the rest of my questions for the 
record for Ms. King.
    Thank you.
    Senator Moran. Thank you for your cooperation.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you very much, Mr. Chair.
    And welcome, Ms. King. It is good to see you.
    As I know you have been discussing, and as I know you are 
aware, this recall represents one of the largest and most 
complicated in the history of the United States.
    People in my State of New Hampshire are concerned that 
information about the latest recalls and safety guidelines 
could be more easily accessible.
    The information needs to be provided in a clear and 
understandable format so that consumers can be empowered to 
respond appropriately.
    How does NHTSA work to pass information to states and local 
governments to ensure that states and localities have the 
resources and latest information to help keep them informed?
    Ms. King. Thank you for your question, Senator.
    First of all, it is important to recognize that the first 
responsibility for informing consumers and implementing the 
recall is with the auto manufacturers, and they are trying many 
innovative and novel ways to do so. We all would look forward 
to hearing from you on how best to reach your constituents.
    Second, at NHTSA, in our efforts to raise consumer 
awareness, we are developing programs in Departments of Motor 
Vehicles. I have done a radio tour. I do not recall whether or 
not your state was part of the national radio tour.
    We are very much open to ideas on how to reach people. So 
we would look forward to hearing form you. You know your 
constituents better than we do and we would love to learn how 
to help.
    Senator Hassan. Well, I would appreciate that partnership 
and look forward to talking with you about it. That kind of 
brings me to my second question.
    Because I represent New Hampshire, obviously a northern 
state, a colder state, right now under a whole lot of snow. And 
it is my understanding that the recall prioritizes vehicles in 
warmer and more humid states as the high priorities, while 
vehicle located in colder states are lower ones simply because 
of what triggers the air bags to explode.
    So the problem with the approach or prioritizing warmer 
states over colder states is that cars move and they change 
location. And as they change location, the temperatures that 
they are in change, and that may put drivers at-risk.
    Many people in my state of New Hampshire spend their 
winters down in Florida or other warmer climates, and they 
drive their cars down there, and they spend several months in 
the warmer climate, and then they come back home.
    So what is being done to raise awareness to consumers that 
their vehicle may need attention a lot sooner than they 
initially thought?
    Does NHTSA maintain a database of how many recalls are 
needed in each state?
    Ms. King. Thank you very much for asking that question. It 
is an important one.
    First, I would like to say the priority groups and the 
assignment of individual vehicles to priority groups takes into 
account whether a vehicle was ever registered in a warmer 
state.
    Senator Hassan. OK.
    Ms. King. So a vehicle that maybe at some point was 
registered in Florida would be recognized as a vehicle from a 
warmer and more humid place.
    Senator Hassan. But vehicles, the inverse vehicles that are 
registered in New Hampshire, but driven down to Florida, unless 
we do a lot of work even in outreach, for instance, to say, 
``Are you a snowbird?'' which a good way to get peoples' 
attention might be helpful.
    Ms. King. That is right. We have not identified that the 
risk is elevated quickly. If there is intermittent or periodic 
exposure to temperatures, it is with the long exposure across 
time to high humidity, and heat, and temperature cycling.
    Senator Hassan. OK.
    Ms. King. So I will say that the snowbird phenomenon, there 
is not evidence suggesting that that would be a higher priority 
group. But that being said, a consumer can and should contact 
their dealership; they may have replacement parts. There may be 
parts available even though they are not scheduled yet.
    Senator Hassan. OK.
    Ms. King. So I would encourage them to work with their 
dealership and their manufacturer.
    Senator Hassan. Well, thank you. That is very helpful. I 
will look forward to working with you on that.
    We had other questions for the other panelists earlier that 
we will submit for the record.
    Thank you very much, Mr. Chair.
    Ms. King. Thank you.
    Senator Moran. Ms. King, I always give the witnesses an 
opportunity to tell us anything that they would like to add. We 
are going to conclude this panel and dismiss you, and we will 
have a second panel momentarily.
    But is there anything you want to make sure that is put in 
the record that you were unable to have the opportunity to say?
    Ms. King. Only that I thank each of the Senators very much 
for the support on this issue. It is very important. We have 
more challenges ahead as we improve response rates, consumer 
awareness is key, continued vigilance is key. And I look 
forward to working with you.
    Thank you.
    Senator Blumenthal. Mr. Chairman.
    Senator Moran. Senator Blumenthal.
    Senator Blumenthal. I am going to send some questions to 
you in writing, since we have a deadline of 4:15 for a vote.
    Ms. King. Thank you.
    Senator Blumenthal. I am not going to take the time now to 
ask for a second round. I also have a letter from Safety 
Advocates, which I would ask be put in the hearing record.
    Senator Moran. Without objection.
    [The information referred to follows:]

                                                     March 19, 2018

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.
  
  

Hon. Jerry Moran, Chairman,
Hon. Richard Blumenthal, Ranking Member,
Subcommittee on Consumer Protection, Product Safety, Insurance, and 
Data Security,
United States Senate,
Washington, DC.

Dear Chairman Thune, Ranking Member Nelson, Chairman Moran and Ranking 
            Member Blumenthal:

    We are writing to convey our support and gratitude for your 
leadership in convening tomorrow's hearing, ``Update on NHTSA and 
Automaker Efforts to Repair Defective Takata Air Bag Inflators.'' The 
growing death toll on our Nation's highways and the record number of 
vehicle recalls due to serious safety defects combined with lackluster 
agency oversight and insufficient industry responses deserve the 
attention and focus this hearing will provide. As you continue to 
examine safety problems and remedial actions related to defective 
Takata airbags, we urge you to also recognize that consumers will 
likely be victims once again of industry misconduct and government 
missteps with the mass deployment of experimental autonomous vehicles 
(AVs) unless Congress acts. The unfortunate news that a pedestrian was 
killed late Sunday in a crash with an Uber being driven in autonomous 
mode should serve as a startling reminder that there are real world 
consequences to prematurely deploying AV technology. We urge you to 
take heed of this fatal incident during tomorrow's hearing and request 
that you delay consideration of the AV START Act (S. 1885) until the 
National Transportation Safety Board (NTSB) has completed its 
investigations of this recent Uber crash in Tempe, AZ that killed a 
pedestrian as well as the California crash involving a Tesla and a 
parked fire truck this past January. The NTSB may have findings and 
recommendations that should be incorporated into the legislation in 
addition to our proposals for legislative improvements. We respectfully 
ask that this letter be submitted into the hearing record.
    In 2016, approximately 925 recalls involving more than 53 million 
vehicles were issued--the largest number in history. This includes 
deadly defects such as exploding Takata airbags, which have killed at 
least 20 people worldwide and faulty General Motor (GM) ignition 
switches that have claimed the lives of over 120 more victims. 
Unfortunately, these are not the only high profile examples of serious 
problems and cover-ups. Yet, the National Highway Traffic Safety 
Administration (NHTSA) still lacks crucial authorities and resources to 
serve as an effective ``cop on the beat.'' Furthermore, NHTSA's budget 
is woefully underfunded and the agency is in desperate need of both a 
more robust budget and staff. The agency should be provided with 
imminent hazard authority to immediately intervene against widespread 
safety defects. The agency should also be given enhanced penalty 
authority including removing the cap on civil penalties and adding 
criminal penalties to ensure manufacturers do not willfully put 
defective cars into the marketplace. Additionally, there is no 
requirement that used cars under open recall for a defect be remedied 
before being sold. With 38.5 million used cars sold in 2016, this is a 
huge and terrifying loophole that should be closed similar to 
congressional action related to rental cars.
    We should not allow history to repeat itself especially one replete 
with industry malfeasance affecting millions of consumers and 
needlessly causing deaths and injuries. Now the same industry is asking 
the public and the government to ``trust them'' as they develop and 
deploy new driverless car technology. Alarmingly, the U.S. Department 
of Transportation (U.S. DOT) has been complicit in this approach. By 
issuing only ``voluntary guidelines,'' which are grossly inadequate and 
lack any sort of enforcement mechanism, the U.S. DOT has shirked its 
safety mission and regulatory duty. The stage is now set for what will 
essentially be beta-testing on public roads with families as unwitting 
crash test dummies.
    It is for these reasons that it is critically important that 
improvements be made to the AV START Act. While some changes were made 
during the Committee markup, the bill still lacks essential safeguards 
that will assure sufficient government oversight, industry 
accountability and public safety. This legislation will set AV policy 
for decades to come. As such, it is imperative that strong protections 
for consumers and the public be included. We strongly urge the 
Committee to make the following modifications to the bill.
    The size and scope of exemptions from Federal safety standards must 
be narrowed. The AV START Act would allow for potentially millions of 
unproven AVs to be exempt from current Federal motor vehicle safety 
standards (FMVSS) and sold to the public. The number of AVs that will 
be permitted to be exempt from FMVSS should be reduced and the time 
period between exemption ``tiers'' should be extended from 12 to 24 
months to allow for adequate time to assess the real-world impact on 
the road safety performance of exempt vehicles. Further, any exemption 
from FMVSS that would diminish the current level of occupant protection 
should be prohibited. Moreover, the AV START Act would allow 
manufacturers to circumvent the exemption process and ``turn off'' 
vehicle systems such as the steering wheel and brakes without review 
and approval by NHTSA. This provision gives unfettered discretion to 
the industry to unilaterally make safety systems inoperable and should 
be eliminated.
    Minimum performance requirements must be set to address critical 
issues with AVs. Significant safety vulnerabilities need to be 
addressed through basic safety rules, and the AV START Act should 
direct NHTSA to issue the following standards.

        Cybersecurity: Given the recent record of high-profile 
        cyberattacks, protections must be put in place to curb 
        potentially catastrophic hacks of AVs. A plan, as currently 
        required by the bill, is insufficient and should be replaced 
        with a directed rulemaking to be completed within three years.

        Electronics: Motor vehicles and motor vehicle equipment are 
        powered and run by highly complex electronic systems and will 
        become even more so with the introduction of autonomous driving 
        systems. As the Federal Aviation Administration (FAA) has 
        carried out for aircraft, NHTSA must require minimum 
        electronics standards for all cars. This will be essential to 
        ensure that the electronics that power and operate safety and 
        autonomous driving systems function properly.

        Driver Distraction and Engagement: In Level 2 and Level 3 
        vehicles that require a human to take control back from the AV 
        system, the driver must be kept engaged. This need was 
        underscored by the NTSB investigation into the fatal 2016 crash 
        of a Tesla Model S, which found that the Autopilot system 
        facilitated the driver's inattention and overreliance on the 
        system. NHTSA must be directed to establish a minimum 
        performance standard to address this problem.

        Vision Test: AVs will need to be able to properly detect and 
        respond to other vehicles, roadway infrastructure, pedestrians, 
        bicyclists, law enforcement, and other common encounters during 
        any given trip. NHTSA should require that AVs pass a ``vision 
        test'' to guarantee that it can sufficiently ``see'' and react 
        to its surroundings.

    Consumers need basic safety information about AVs. As driverless 
cars are sold to the public, it is necessary that consumers know what 
they can, and cannot, do. Further, consumers must know from which 
vehicle safety standards their vehicle may be exempt. While the bill 
includes a rulemaking for consumer information at the point of sale and 
in the owner's manual, the final rule may not be issued for years. 
Consumers should immediately have access to basic safety information. 
Additionally, Level 2 vehicles must be included in the consumer 
information and safety evaluation report (SER) provisions, and the SERs 
should require documentation of manufacturers' assertions, not just 
descriptions, to ensure that NHTSA has enough information to accurately 
assess the technology. NHTSA should also be directed to establish a 
website that the public can use to find out safety information about 
AVs. And, all crashes involving an AV should be reported to NHTSA and 
that data should be made publicly available.
    The varying needs of disabilities communities must be addressed. 
Though AVs are often touted as a panacea for mobility issues facing 
disability communities, they are certainly not a one-size fits all 
solution. Specifically, there is nothing in the AV START Act that would 
remove barriers to wheelchair users such as cost or vehicle design. The 
way that most vehicles are currently designed do not allow for the 
integration of a ramp or lift system or for a wheelchair to be properly 
or safely stored. Simply removing a driver or installing an automated 
system will not overcome these factors that inhibit mobility. Moreover, 
in the event of a crash or malfunction, people with certain 
disabilities may be particularly vulnerable.
    States should not be preempted from acting to protect their 
citizens. The bill would preclude states from undertaking regulatory 
action even though the Federal Government has not yet done so. This is 
an unprecedented approach to preemption that should be rejected. Until 
U.S. DOT issues standards and regulations, states must retain their 
traditional legal authority to maintain public safety.
    Compared to the complex systems that will be used in driverless 
cars, an airbag inflator is a relatively simple technology. As the 
Committee focuses on the deadly consequences of the failure of just one 
vehicle component, we urge you to make significant changes to the AV 
START Act to protect public safety. This Committee has already held 
five hearings on vehicle defects in the past four years that have 
revealed critical information about numerous NHTSA mistakes, repeated 
industry wrongdoing and the unacceptable but frequent breach of public 
trust.
    We urge you to act to ensure that future tragedies like exploding 
Takata airbags are not repeated with the development and deployment of 
technology that is still in its infancy. Unfortunately the mistakes of 
recent history are all too fresh and should not be pushed aside in an 
inappropriate rush to limit NHTSA's authority to oversee the safety of 
autonomous vehicles.
            Sincerely,

Jeff Solheim, 2018 President
Emergency Nurses Association

Bill Newton, Deputy Director
Florida Consumer Action Network

Melissa Wandall, President
National Coalition for Safer Roads
Founder, The Mark Wandall Foundation

Ralf Hotchkiss, Co-Founder
Whirlwind Wheelchair International

Leah Shahum, Founder and Director
Vision Zero Network

Paul Schrader, Treasurer
Massachusetts Consumers Council

Paul Steely White, Executive Director
Transportation Alternatives

Brent Hugh, Executive Director
Missouri Bicycle & Pedestrian Federation

Catherine Chase, President
Advocates for Highway and Auto Safety
  
  

Joan Claybrook, President Emeritus
Public Citizen, and Former NHTSA Administrator

Jack Gillis, Director of Public Affairs
Consumer Federation of America

Robert Weissman, President
Public Citizen

Rosemary Shahan, President
Consumers for Auto Reliability and Safety

Andrew McGuire, Executive Director
Trauma Foundation

Stephen W. Hargarten, M.D., MPH
Society for the Advancement of Violence and Injury Research

Jason Levine, Executive Director
Center for Auto Safety

John M. Simpson, Privacy and Technology
Project Director, Consumer Watchdog

Dawn King, President
Truck Safety Coalition

cc: Members of the U.S. Senate Committee on Commerce, Science, and 
Transportation

    Senator Blumenthal. Thank you.
    Thanks very much.
    Ms. King. Thank you.
    Senator Moran. Thank you.
    We will call our second panel. We welcome them to the 
table.
    This panel includes Mr. John Buretta, who is the 
Independent Monitor for Takata and the Coordinated Remedy 
Program; Mr. David Kelly, the Project Director for Independent 
Testing Coalition; Mr. Joe Perkins, Senior Vice President and 
Chief Financial Officer of Key Safety Systems; Mr. Rick 
Schostek, Executive Vice President of Honda North America; and 
Ms. Desi Ujkashevic, Global Director of Automotive Safety 
Office for Ford Motor Company.
    Gentlemen and ma'am, welcome. We will start with you, Mr. 
Buretta and have 5 minute opening statements.

                 STATEMENT OF JOHN D. BURETTA,

             INDEPENDENT MONITOR, TK HOLDINGS, INC.

               AND THE COORDINATED REMEDY PROGRAM

    Mr. Buretta. Thank you, Chairman Moran, Ranking Member 
Blumenthal and the other members of the Subcommittee.
    I really appreciate the opportunity to testify about this 
important issue.
    As has been noted, the Takata air bag inflator recall is 
the largest, most complex in U.S. history. Our current count is 
about 50 million inflators to be repaired; 37 million vehicles; 
200 makes and models across 19 automakers. Most of these 
vehicles are older vehicles; about 75 percent of the vehicles 
are more than 10 years old.
    And to date, tragically as has been noted, there are at 
least 15 confirmed deaths in the U.S., more than in any other 
country. Those confirmed fatalities have occurred in nine 
states. In many additional cases, including in many additional 
states, there have been numerous injuries and permanent 
disfigurement.
    In the past, many affected vehicle manufacturers were slow 
to innovate and think strategically about how to maximize these 
recall repairs.
    Further, many automakers relied on boilerplate, exclusively 
English language letters to consumers. Those letters did not, 
in the past, always clearly convey the problem or the steps 
that owners should take.
    As part of my mandate to monitor these recalls, I have 
pursued, together with NHTSA and with the auto-manufacturing 
community and other stakeholders, numerous activities to drive 
innovation and intensify focus on effective methods of driver 
engagement. These activities aim to improve outreach to 
consumers and get these vehicles repaired despite the numerous 
challenges.
    I have made multiple recommendations about successful 
means, messaging, and motivation to improve repair rates. Some 
of these recommendations include: clear, simple messaging for 
consumers emphasizing that the repair is free; improving the 
quality of owner contact information to make sure manufacturers 
are efficiently and cost effectively contacting the right 
people; frequent outreach to owners to convey urgency; 
minimizing the inconvenience to owners by offering free towing, 
loaner vehicles, and extended service hours; working with 
independent repair facilities to notify their customers; and 
intensifying and incentivizing dealer engagement.
    Working together with NHTSA and all affected automakers, we 
are also pursuing industry-wide and industry-driven solutions.
    These efforts include a new and innovative batch look-up 
tool, which will enable auction houses, used car dealers, 
salvage yards, and insurers to check in one fell swoop a large 
number of VINs so that they know which vehicles have open 
recalls.
    I am proud to report that as more and more automakers have 
adopted recommendations, dedicated more resources, and worked 
together as an industry with NHTSA and myself, there has been 
marked improvement.
    Recently launched priority group campaigns have achieved, 
in just two quarters, what had previously taken five; and some 
of the repair rates have doubled or even tripled over the last 
year.
    Our efforts have also focused even more intensively on the 
highest risk ``Do Not Drive'' vehicles.
    Last year, I launched an unprecedented door-to-door 
canvassing effort for the Honda Alpha ``Do Not Drive'' 
vehicles. Teams of canvassers literally went door to door to 
thousands of owners to advise them of the problem and to 
schedule a repair right at the owner's door.
    Following the success of that pilot, we were very happy to 
see Honda adopt canvassing nationwide for all unrepaired ``Do 
Not Drive'' alpha vehicles.
    In February of this year, 2018, we launched yet another 
pilot of door-to-door canvassing with three additional 
automakers: Ford, Fiat Chrysler, and Mazda. This pilot is new 
and in its infancy, but it is already seeing success with 
already several hundred repairs scheduled by that knock on the 
door.
    This new canvassing effort also involves innovative mobile 
repair with vehicle manufacturers doing the repairs right at 
the vehicle owner's doorstep.
    We have also worked with State DMVs, police departments, 
and local community groups to provide a clear and urgent 
message about these highly dangerous vehicles.
    But there is still plenty of room for improvement; uneven 
performance and much work to be done.
    I am grateful for the opportunity to work with this 
Subcommittee on further progress, hope you will not hesitate to 
call on me if I can be helpful and I look forward to answering 
any questions you may have.
    Thank you again for the opportunity to testify this 
afternoon.
    [The prepared statement of Mr. Buretta follows:]

       Prepared Statement John D. Buretta, Independent Monitor, 
          TK Holdings, Inc. and the Coordinated Remedy Program
    Good afternoon, Chairman Thune, Chairman Moran, Ranking Member 
Nelson, Ranking Member Blumenthal and members of the subcommittee. 
Thank you for the opportunity to testify before you today on this 
important issue.
    The Takata airbag inflator recalls are the largest and most complex 
vehicle recalls in United States history. There are currently 19 
affected vehicle manufacturers, with an estimated 50 million unrepaired 
defective airbag inflators under recall in approximately 37 million 
U.S. vehicles.
    The words ``grenade'' and ``ticking time bomb'' accurately convey 
the lethal potential of these defective inflators. To date, at least 15 
people in the United States have been killed by defective Takata airbag 
inflators--more confirmed fatalities than in any other country. In 
these fatalities, the Takata airbag inflator, instead of properly 
inflating to cushion the victim and prevent injury, detonated in an 
explosion that tore apart its steel inflator housing and sprayed metal 
shards at high velocity toward the victim. The victims have died from 
blunt head trauma, severance of the spine at the neck or extreme blood 
loss from lacerations to the chest, neck or face. The confirmed 
fatalities have occurred in nine states: California, Florida, 
Louisiana, Oklahoma, Pennsylvania, South Carolina, Texas, Virginia and 
West Virginia. In many additional cases, including in many additional 
states, surviving victims of Takata inflator explosions have been 
permanently disabled or disfigured.
    These are urgent safety recalls, and the combination of over a 
dozen affected vehicle manufacturers, tens of millions of affected 
vehicles and risk of potential death or serious injury is 
unprecedented. As the largest and most wide-reaching set of vehicle 
recalls in U.S. history, the Takata airbag inflator recalls require 
vehicle manufacturers to dedicate substantial resources, implement 
recall initiatives on a significant scale, and think strategically and 
innovatively to maximize repairs.
    One particular challenge is that most affected vehicles are older 
models. Over 97 percent of the vehicles presently under recall are over 
five years old and nearly 75 percent of the vehicles are more than ten 
years old. Older vehicles change hands more through private sales and 
auctions. Older vehicles' owners are less likely to have a relationship 
with a local dealer and more likely to use an independent repair 
facility for maintenance and repairs. Identifying the correct contact 
information for current owners of these older vehicles also takes 
greater effort.
    As part of my mandate to oversee, monitor, and assess compliance 
with the Coordinated Remedy Program, I have pursued a wide range of 
activities to drive innovation and intensity of focus to get these 
vehicles repaired despite the challenges posed. That work has included 
research to identify messaging that clearly communicates the defect's 
risk to consumers and motivates them to act, engaging the various 
stakeholders in these recalls, piloting initiatives to equip vehicle 
manufacturers with additional tools to execute the recalls with greater 
success, constantly monitoring progress, and making comprehensive 
recommendations to provide a recipe for success. The recommendations 
address in detail specific topics critical to the efficacy of the 
Takata recalls, including: (1) improving consumer outreach, (2) 
engaging dealerships, (3) engaging other third parties such as 
independent repair facilities and outreach vendors and (4) employing 
salvage recovery services to retrieve scrapped or salvaged inflators. 
Summaries of recommendations and observations for success are set out 
at Figures 29 and 55, respectively, of The State of the Takata Airbag 
Recalls report issued this past November, which treats this subject in 
greater detail.
    Data and experience in these recalls confirms that vehicle 
manufacturers have greater success when they send frequent outreach in 
a variety of mediums, including not only mail but also e-mail, 
telephone, text message and social media, and that repeated reminders 
are crucial to convey the urgency of the safety risk. The most 
effective outreach is personalized to the owner and vehicle type, and 
provides a clear, simple and actionable message, including emphasizing 
that the repair is free.
    For the very highest risk Do-Not-Drive vehicles, outreach efforts 
have been taken to new levels, including an unprecedented door-to-door 
canvassing effort, with teams of canvassers literally knocking on the 
front doors of vehicle owners' homes. The first canvassing pilot 
involved Honda's Do-Not-Drive ``Alpha'' vehicles and has been a great 
success. When a canvasser spoke with an individual at the door who was 
able to schedule an appointment for a repair, an appointment was 
scheduled more than 80 percent of the time. Knocking on doors has also 
provided invaluable information about the vehicle's current location, 
such as whether the vehicle has been sold and is no longer at that 
address. Honda has adopted canvassing nationwide for all unrepaired 
high-risk vehicles. Additional vehicle manufacturers, including Ford, 
Fiat Chrysler and Mazda, are now piloting door-to-door canvassing and 
already seeing success.
    Innovative ways for vehicle owners to more easily determine whether 
their vehicle is subject to any recall, including the Takata recalls, 
have also been developed, including the launch of the 
``AirbagRecall.com'' website, which provides easy-to-understand 
information about the Takata recalls, allows vehicle owners to check 
whether they have an open Takata recall by simply entering their 
license plate or VIN on the website and provides a phone number and a 
click-to-call option to a local dealer to immediately schedule a 
repair. AirbagRecall.com represents the first time license plates have 
been used to directly check on a vehicle's open recalls. A mobile app 
has also been launched, with the capability to scan a license plate for 
open recalls by simply pointing a smartphone camera at the plate.
    In partnership with NHTSA and all 19 affected vehicle 
manufacturers, four Takata Recalls summits have been hosted to provide 
a forum for affected vehicle manufacturers to share best practices in 
recall completion and develop industry-wide strategies. These summits 
include presentations by the affected vehicle manufacturers on key 
topics including coordinated communications, innovative outreach 
strategies and engaging key third parties in the recall process. 
Working groups comprised of numerous automakers facing similar 
challenges convene regularly to continue to refine strategies and 
improve coordination to increase recall repairs.
    In the past, many affected vehicle manufacturers were slow to 
engage meaningfully and think strategically about how to maximize 
recall repairs and to deploy the kind of innovative recall techniques 
needed for the Takata recalls. More recently, there has been marked 
improvement, and the recall completion percentages are beginning to 
reflect this effort. Affected vehicle manufacturers are more readily 
exploring multi-touch, layered communications, mobile repair, 
engagement with independent repair facilities and door-to-door 
canvassing in order to remove defective inflators from U.S. roadways. 
Recent campaigns have achieved in just two quarters what previously 
took more than five, doubling and even tripling the rate of repairs. 
Vehicle manufacturers using frequent, multi-channel outreach have seen 
completion percentages nearly twice as high as rates for vehicle 
manufacturers using traditional letter outreach, when targeting 
similarly situated vehicles over the same period of time. More 
intensive dealer engagement is also yielding real improvements in 
repair rates.
    But there is still plenty of room for improvement, much work to be 
done, greater coordination to achieve, further resources to be deployed 
and more scale to be brought to initiatives that data and experience 
demonstrate make a real difference. I look forward to continuing to 
work with this Committee to identify additional ways to accelerate 
progress in combating this deadly safety issue.
    Chairman Thune, Chairman Moran, Ranking Member Nelson, Ranking 
Member Blumenthal and members of the subcommittee, thank you again for 
the opportunity to testify today, and for your continued focus on this 
critical matter of consumer protection.

    Senator Moran. Thank you, very much, Mr. Buretta.
    Now, Mr. Kelly.

STATEMENT OF DAVID KELLY, PROJECT DIRECTOR, INDEPENDENT TESTING 
                           COALITION

    Mr. Kelly. Good afternoon, Mr. Chairman, Ranking Member 
Blumenthal, members of the Subcommittee.
    Thank you for the invitation to appear before the Committee 
to discuss the activities of the Independent Testing Coalition.
    The ITC is comprised of the ten automakers affected by the 
original NHTSA recall, and is committed to conducting an 
independent and comprehensive investigation of the technical 
issues associated with Takata air bag inflators.
    We look forward to the results of this process as we focus 
on ensuring the safety, security, and peace of mind of all 
affected motorists.
    ITC members support a scientific engineering analysis, and 
we will not prejudge this process or any of the outcomes.
    The Coalition began our work a little more than three years 
ago and the work was designed in two separate tasks.
    First, we set out to find the root cause of the problem. In 
March 2016, we delivered those results to NHTSA, Takata, 
Congress, and the media. The ITC was the first entity to 
deliver a definitive root cause, requiring all three of the 
following factors:
    First, the presence of pressed phase-stabilized ammonium 
nitrate propellant without moisture absorbing desiccant;
    Second, long term exposure to repeated high temperature 
cycling in the presence of moisture;
    And finally, an inflator assembly that does not adequately 
prevent moisture intrusion in high humidity.
    The second phase of the project has been dedicated to 
developing a predictive aging model for certain, desiccated 
inflators. This part of the project has been ongoing since 
2016, and we expect to be able to release our findings soon.
    We believe the testing that we are conducting is the most 
expansive, independent testing to date on desiccated inflators. 
When we are finished, we will have completed 10,000 tests on 
more than 1,500 inflators. Engineers at Orbital ATK, our 
engineering firm, will have completed more than 60,000 hours 
when this project is concluded.
    These inflators come from five different design types, with 
multiple variants within those inflator types. Our tests have 
included aging tests, dissection and disassembly, Computed 
Tomography scanning, and propellant testing.
    A couple of points; I think it is important to make several 
points about what folks should expect in our final report.
    First, we will not be making a definitive statement 
regarding the safety of desiccated inflators. That was never 
the goal or intent of this phase of the project or of the ITC. 
What we will do is provide all of our data to automakers, and 
OEMs, and regulators to allow them to make the proper policy 
decisions.
    Second, since we will be producing a predictive aging 
model, we are also not going to be making any additional 
statements about the safety of any particular inflator.
    Finally, I want to assure everyone here that we will be 
publishing all of our test results and data in a final report 
that will be released to the public. This has been a promise of 
the ITC from the beginning, and we will follow through on that 
promise.
    I look forward to answering any of your questions.
    [The prepared statement of Mr. Kelly follows:]

         Prepared Statement of David Kelly, Project Director, 
                     Independent Testing Coalition
    Thank you for the invitation to appear before the committee to 
discuss the activities of the Independent Testing Coalition (ITC). The 
ITC is comprised of the 10 automakers affected by the original NHTSA 
recall--BMW, FCA U.S. f/k/a Chrysler Group, Honda, Ford, General 
Motors, Mitsubishi, Mazda, Nissan, Subaru and Toyota. The ITC is 
committed to conducting an independent and comprehensive investigation 
of the technical issues associated with Takata airbag inflators. We 
look forward to the results of this process as we focus on ensuring the 
safety, security and peace of mind of all affected motorists. ITC 
members support a scientific, engineering analysis, and will not pre-
judge the process or its outcomes.
    This coalition began work a little more than three years ago. The 
work was designed in two separate tasks. First, we set out to find the 
root cause of the problem. In March 2016, we delivered those results to 
NHTSA, Takata, Congress and the media. The ITC was the first entity to 
deliver a definitive root cause, requiring all 3 of the following 
factors:

  <bullet> The presence of pressed phase stabilized ammonium nitrate 
        propellant without moisture-absorbing desiccant,

  <bullet> Long term exposure to repeated high temperature cycling in 
        the presence of moisture, and

  <bullet> An inflator assembly that does not adequately prevent 
        moisture intrusion in high humidity.

    The second phase of the project has been dedicated into developing 
a predictive aging model for certain, desiccated inflators. This part 
of the project has been ongoing since 2016 and we expect to be able to 
release those findings soon.
    We believe the testing we are conducting is the most expansive 
independent testing to date on desiccated inflators. We will have 
completed 10,000 tests on more than 1,500 inflators. Orbital ATK 
engineers will complete more than 60,000 hours when the project 
concludes. These inflators come from five different design types, with 
multiple variants within those inflator types. Our tests have included 
aging tests, dissection and disassembly, computed tomography (CT) 
scanning and propellant testing. We will continue to share relevant 
data with NHTSA and Takata as our testing progresses. During this phase 
of the project, we have already met with NHTSA, Takata and Congress as 
we had information to report. Because of the nature of the testing, we 
do not always have a steady stream of data to report.
    I think it is important to make several points about what to expect 
in our final report. First, we will not be making a definitive 
statement regarding the safety of desiccated inflators. That was never 
the goal or intent of the ITC. What we will do is provide all of our 
data to decision makers and allow them to make the proper policy 
decisions.
    Second, since we will be producing a predictive aging model, we 
will not be making any additional statements about the safety of any 
particular inflator.
    Finally, I want to assure everyone that we will be publishing our 
test results and data in a final report that will be released to the 
public. This has been a promise of the ITC from the beginning and we 
will follow through on that promise.
    Thank you.

    Senator Moran. Thank you very much.
    Now, Mr. Perkins.

 STATEMENT OF JOSEPH PERKINS, SENIOR VICE PRESIDENT AND CHIEF 
          FINANCIAL OFFICER, KEY SAFETY SYSTEMS, INC.

    Mr. Perkins. Mr. Chairman, Mr. Ranking Member, members of 
the Committee.
    Good afternoon. My name is Joe Perkins. I am Senior Vice 
President and Chief Financial Officer for Key Safety Systems, a 
100-year-old safety company headquartered in the great State of 
Michigan. Our company, Key Safety, as our name emphasizes, 
manufactures and sells safety-critical automotive components to 
vehicle manufacturers worldwide.
    It is an honor to be here today and I am very pleased to be 
a part of the solution to this crisis.
    Thank you for the opportunity to appear today to tell you 
about Key Safety's efforts to acquire most of the operating 
business of Takata. This transaction enables us to expand our 
investment in our core business and, importantly, contribute to 
the supply of critical safety components for new vehicle 
production, and recall, and replacement parts.
    I was born and raised in Michigan. I have worked in the 
U.S. auto industry my entire career, nearly 30 years. Two years 
ago, I was asked to lead an effort by Key Safety to purchase 
most of Takata's assets through a very complex series of 
transactions.
    Beyond being a good business decision, Key Safety pursued 
the deal in an effort to stabilize the industry by providing a 
reliable, ongoing supply of safety parts and recall kits. This 
transaction also facilitates providing recovery to victims, and 
very importantly, saving American jobs.
    In my role, I became one of Key Safety's lead negotiators 
in our effort to purchase Takata and to address the issues of 
all key stakeholders.
    At the beginning of the transaction process in July 2016, 
Key Safety competed with a number of bidders to purchase 
Takata's assets. After a lengthy and competitive process, Key 
Safety was ultimately selected as the best fit for the job, 
having earned the support of nearly all of the worldwide 
automotive manufacturers.
    After months of review, the OEMs, Takata, and a steering 
committee nominated by Takata selected Key Safety as the chosen 
purchaser.
    I am happy to report to this Committee that, last month, 
the U.S. Bankruptcy Court in Delaware entered a confirmation 
order granting approval of the transaction. The bankruptcy 
proceedings in Canada and Japan have also been addressed.
    Beyond the approval of these courts, the Key Safety-Takata 
transaction requires review from several other government 
bodies, and satisfaction of very important remaining key 
conditions to close that we continue to focus on diligently.
    First, the U.S. Department of Justice has a Plea Agreement, 
as you know, with Takata and we needed to work out go forward 
terms with the DOJ. We did so, and I am happy to report that 
the $850 million penalty owed by Takata to DOJ will be paid 
upon closing of this transaction.
    Second, NHTSA has a Consent Order, again, as you know, over 
Takata, and we needed to work with NHTSA on several issues 
related to the transaction. We have done so, thanks in large 
measure to NHTSA Deputy Administrator Heidi King and her team. 
And thanks again to Heidi.
    Third, because Key Safety is ultimately foreign-owned, the 
parties submitted a joint voluntary notice to the Committee on 
Foreign Investment in the United States, CFIUS. Clearance by 
that Committee is a condition to closing of this transaction. I 
can report that Takata and Key Safety are working closely with 
CFIUS, and we are hopeful that it will clear the transaction, 
which will enable us to close sometime in April of this year.
    The purchase of most of Takata by Key Safety goes toward 
addressing the Takata air bag crisis head on. As part of the 
transaction, certain parts of existing Takata and certain newly 
created entities, which we refer to as ``Reorganized Takata,'' 
will emerge from the Takata bankruptcy to continue to address 
any remaining PSAN air bag issues. We will not buy that piece 
of the business.
    Key Safety will produce critical air bag modules and recall 
kits. Some of these air bags will use PSAN inflators made by 
Reorganized Takata. Others will use other inflators. These 
outputs will enable the OEMs to fulfill the pending Takata air 
bag recalls and continue their global production.
    The deal is also anticipated to provide more than $130 
million to Takata victims, which is in addition to the $125 
million paid as part of the DOJ Plea Agreement. This was a key 
foundation of our deal. Absent this deal, these funds would not 
be available to the victims.
    For me, as a proud Michigander who has spent his entire 
life in the U.S. auto industry, my dad worked there as well, 
this transaction has become very personal.
    This is also reaching for a day when the air bag crisis is 
fully resolved and when this transaction provides full 
stability to the industry. This transaction will resolve a 
critical issue in the industry and facilitate the continuity of 
supply needed to maintain stability in our industry, which is 
critical to the backbone of this country.
    We at Key Safety are happy to play a role in this solution. 
We are a problem solver, and we are working to achieve this 
result.
    I want to thank the Committee for inviting me to speak 
today. It was an honor.
    And I am happy to answer any questions.
    Thank you.
    [The prepared statement of Mr. Perkins follows:]

      Prepared Statement of Joseph Perkins, Senior Vice President 
         and Chief Financial Officer, Key Safety Systems, Inc.
    Mr. Chairman, Mr. Ranking Member, members of the Committee, good 
afternoon. My name is Joe Perkins. I am Senior Vice President and Chief 
Financial Officer for Key Safety Systems, a 100 year-old safety company 
headquartered in Michigan. Our company, Key Safety, as our name 
emphasizes, manufactures and sells safety-critical automotive 
components to vehicle manufacturers worldwide.
    Thank you for the opportunity to appear today to tell you about Key 
Safety's efforts to acquire most of the operating business of Takata. 
This transaction enables us to expand our investment in our core 
business and contribute to the supply of critical safety components for 
new vehicle production and recall kits.
    I was born and raised in Michigan and have worked in the U.S. auto 
industry for nearly 30 years.
    Two years ago, I was asked to lead an effort by Key Safety to 
purchase most of Takata's assets through a complex series of 
transactions. Beyond being a good business decision, Key Safety pursued 
the deal in an effort to stabilize the industry by providing a reliable 
ongoing supply of safety products and recall kits. This transaction 
also facilitates providing recovery to victims and saving American 
jobs.
    In my role, I became one of Key Safety's lead negotiators in our 
effort to purchase Takata and to address the issues of key 
stakeholders.
    At the beginning of the transaction process in July 2016, Key 
Safety competed with a number of bidders to purchase Takata's assets. 
After a lengthy competitive process, Key Safety was ultimately selected 
as the best fit for the job, having earned the support of nearly all of 
the world's automobile manufacturers. After months of review, the OEMs, 
Takata, and a steering committee nominated by Takata selected Key 
Safety as the chosen purchaser.
    I am happy to report to this Committee that last month the U.S. 
Bankruptcy Court in Delaware entered a confirmation order granting 
approval of the transaction. The bankruptcy proceedings in Canada and 
Japan have also been addressed.
    Beyond the approval of these courts, the Key Safety-Takata 
transaction requires review from several other government bodies, and 
satisfaction of remaining key conditions to close.
    First, the U.S. Department of Justice has a Plea Agreement with 
Takata and we needed to work out go-forward terms with DOJ. We did so, 
and I am happy to report that the $850 million penalty owed by Takata 
to DOJ will be paid upon closing of the transaction.
    Second, NHTSA has a Consent Order over Takata, and we needed to 
work with NHTSA on several issues related to the transaction. We did 
so, thanks in large measure to NHTSA Deputy Administrator Heidi King 
and her team.
    Third, because Key Safety is ultimately foreign-owned, the parties 
submitted a joint voluntary notice to the Committee on Foreign 
Investment in the United States (CFIUS). Clearance by that Committee is 
a condition to closing the transaction. I can report that Takata and 
Key Safety are working closely with CFIUS and we are hopeful that it 
will clear the transaction which will enable us to close in April 2018.
    The purchase of most of Takata by Key Safety goes toward addressing 
the Takata airbag crisis head-on. As part of the transaction, certain 
parts of existing Takata and certain newly created entities--which we 
call RTK, or ``Reorganized Takata,'' will emerge from the Takata 
bankruptcy to continue to address any remain PSAN airbag inflator 
issues. Key Safety will produce critical airbag modules and recall 
kits. Some airbags will use the PSAN inflators made by RTK. Others will 
use other inflators. These outputs will enable OEMs to fulfill the 
pending Takata airbag recalls and continue their global production.
    The deal is also anticipated to provide more than $130 million to 
Takata victims, which is in addition to the $125 million paid as part 
of the DOJ Plea Agreement. Absent the deal, these funds would not be 
available.
    For me, as a proud Michigander who has spent his entire life in the 
U.S. auto industry, this transaction has become personal. This is also 
reaching for a day when the airbag crisis is fully resolved and when 
this transaction provides full stability to the industry. This 
transaction will resolve a critical issue in the industry and 
facilitate the continuity of supply needed to maintain stability in our 
industry. We at Key Safety are happy to play a role in the solution and 
in achieving this result.
    I want to thank the Committee for inviting me to speak today. I am 
happy to answer any questions. Thank you.

    Senator Moran. Mr. Perkins, thank you for the honor of your 
appearance.
    Let me now turn to Mr. Schostek.

STATEMENT RICK SCHOSTEK, EXECUTIVE VICE PRESIDENT, HONDA NORTH 
                         AMERICA, INC.

    Mr. Schostek. Thank you, Mr. Chairman, and Ranking Member 
Blumenthal, and members of the Subcommittee.
    My name is Rick Schostek, Executive Vice President of Honda 
North America, and I also thank you for this opportunity to 
update you on our progress with regard to the Takata recall.
    I want to begin by saying that we extend our sincere 
sympathies to the families and friends of the victims of this 
Takata recall who have been killed or injured in our vehicles. 
And I want to acknowledge and apologize to Mr. Brangman, and 
others, who have suffered from these tragic circumstances.
    Mr. Chairman, I want you to know that each and every Honda 
associate who works on this problem takes this very personally.
    The Takata recall, unprecedented in its size and scope, has 
been met by Honda with unprecedented action as well. Currently, 
as you have heard, 19 automakers have 50 million Takata 
inflators under recall. This includes about 18.5 million 
inflators in our vehicles.
    During the past 3 years, a passionate group of people at 
Honda have made an extraordinary effort to reach out to our 
customers, to have replacement parts available, and to work 
with our dealers to quickly repair vehicles.
    As a result, we have replaced, or accounted for, nearly 14 
million inflators. That is a completion rate of over 72 
percent.
    We have sent over 150 million communications through an 
array of methods, including some never used before in recall 
campaigns. We also have employed door to door canvassing teams, 
scoured salvage yards, and partnered with State DMV's.
    One unique initiative we have undertaken was based on a 
collaborative relationship that we established with Ms. 
Stephanie Erdman, who herself was the victim of a Takata 
inflator rupture in one of our vehicles, and who also testified 
before the Committee in 2014.
    Last fall, Honda and Ms. Erdman collaborated on a new 
Public Service Announcement. I would like to share that with 
you now.
    [Video presentation.]
    Mr. Schostek. There have been 13 deaths in our vehicles in 
the U.S. due to Takata inflator ruptures. The majority of these 
fatalities were due to the so-called ``alpha'' inflators that 
have an alarming rupture rate; as high as 50 percent.
    Last year, teams of some 550 Honda representatives began a 
nationwide, grassroots outreach that has led them to knock on 
the doors of alpha vehicle owners more than 600,000 times.
    So from a population of almost 1.1 million vehicles, and 
these are 16 to 18 year old vehicles, with the high risk of the 
alpha inflators, about 62,000 remain on the road. So for the 
alpha inflators, that is a completion rate of 94 percent.
    Still, we have learned a number of lessons along the way. 
Together with our dealers, we are good at repairing vehicles, 
but finding and convincing customers of older model vehicles to 
complete recalls, now that has proved a difficult challenge.
    We remain convinced that the single most effective measure 
to ensure recall completion would be to tie the annual State 
vehicle registration process to a requirement that safety 
recalls be addressed. This would be particularly important for 
older, used models.
    Had the requirement that defects be repaired prior to 
registration been in place, the vehicle that Mr. Brangman's 
daughter was driving would have been repaired.
    And by the way, I want to take another minute to publicly 
thank Mr. Brangman for his efforts to raise awareness on this 
critical issue. I know he traveled across the country to be 
with us today, and we appreciate the fact that he is here.
    So toward this end, later this week, as Mr. Buretta already 
mentioned, the auto industry will announce a new, high volume 
batch look-up tool that will make it easier and faster for 
DMVs, insurance companies, auction houses, repair shops, car 
dealers, and others to look up vehicles affected by a safety 
recall.
    This new tool will enable stakeholders who have touch 
points with vehicle owners to look up as many as 10,000 VINs at 
a time.
    This unprecedented public health challenge requires 
unprecedented action from every stakeholder in the effort to 
find and notify customers.
    Given this Committee's focused interest on motor vehicle 
safety, we ask that you encourage the broad array of 
stakeholders, including insurance companies, DMVs, and others 
to use the new batch look-up tool to help get customers to fix 
safety defects.
    For our part at Honda, we will continue to dedicate 
ourselves to honor the relationship we have with our customers.
    Thank you.
    [The prepared statement of Mr. Schostek follows:]

    Prepared Statement of Rick Schostek, Executive Vice President, 
                       Honda North America, Inc.
    Thank you, Mr. Chairman, Ranking Member Blumenthal and members of 
the subcommittee. My name is Rick Schostek, executive vice president of 
Honda North America, Inc. It has been more than two and a half years 
since I last appeared before the full Commerce Committee. I want to 
thank you for this opportunity to update you on Honda's progress in 
addressing this serious safety issue within our industry and to address 
the critical work that remains before us.
    I want to begin by saying that we extend our most sincere and 
heartfelt sympathies to those who have been injured or have lost loved 
ones due to the rupture of a Takata inflator in one of our vehicles.
    The Takata airbag inflator recall, now unprecedented in its size 
and scope, has been met by Honda with unprecedented action. Currently, 
the industry has 50 million Takata inflators under recall. This 
includes about 18.5 million Takata inflators in some 11.9 million Honda 
and Acura vehicles.
    During the past three years, a truly passionate group of people at 
Honda have attacked this issue relentlessly, with their best thinking 
and greatest energy, including contacting our customers more than 150 
million times to alert them to this recall. Our dealers have also 
responded to this challenge, working in a productive collaboration with 
us. As a result, we have replaced or accounted for nearly 14 million of 
the total inflators under recall, which represents a completion rate of 
over 72 percent.
    This is far ahead of the rest of the industry and reflects our 
extraordinary effort to reach out to customers, our commitment to have 
replacement parts available, and the work of our dealers to quickly 
repair vehicles. Due to our focus on taking care of our customers, we 
moved quickly to find and locate new sources of replacement inflators, 
and we have had no backorders on replacement inflators since October 
2016. We also are grateful to our customers who have already responded 
to the recall and had their vehicles repaired. While we are proud of 
our team's effort, we do not view it as an achievement to celebrate. It 
is our responsibility as a manufacturer.
    Since my last appearance before you, six people have lost their 
lives in the U.S. due to ruptured Takata inflators in our older model 
vehicles. One of these incidents involved the rupture of a Takata 
inflator that was not part of the original equipment installed in the 
factory and was not installed by one of our dealers. Instead, it was 
repaired independently, with the inflator sourced from a salvaged 
vehicle. These incidents bring to 13, the number of deaths that have 
occurred in our vehicles in the U.S. related to Takata inflator 
ruptures.
    In most recalls, companies tend to rely on one or more letters 
addressed to the last known address of the vehicle's owner to provide 
notice of the defect. However, given the risk and breadth of this 
recall, we have gone far beyond that. This includes:

  <bullet> A special website dedicated to the Takata inflator recalls 
        and make all materials available in English and Spanish.

  <bullet> More than 35 million phone calls to customers and sent more 
        than a million text messages targeting owners of affected 
        vehicles.

  <bullet> A multi-million dollar advertising campaign with full-page, 
        color advertisements in more than 120 newspapers, and 30-second 
        radio announcements in more than 110 markets, targeting 9 
        southern states that have been identified as representing the 
        greatest risk to affected owners.

  <bullet> Print, digital and radio advertising campaign in select 
        markets, including Florida's Miami-Dade and Broward counties, 
        one of the identified high risk areas.

  <bullet> Promoting the recall on scoreboards at Honda-sponsored music 
        concerts targeting young people and other events sponsored by 
        Honda.

  <bullet> Social media, including Twitter, and a customized Facebook 
        campaign that targeted specific individuals who own affected 
        vehicles.

  <bullet> A nationwide search of salvage yards to find and purchase 
        recalled inflators that has successfully removed over 119,000 
        inflators that can no longer be installed as replacement parts 
        in the vehicles of unknowing customers.

    We want to thank those companies that have supported these efforts 
because, despite our request for support from insurance companies and 
others who are in regular communication with affected customers, the 
challenge of reaching owners has been left largely to the automakers.
    Another unique and important initiative Honda took was based on a 
relationship that was formed during my first appearance before this 
committee on November 20, 2014. Just prior to the hearing, I had the 
humble honor to meet Stephanie Erdman, who was the victim of a Takata 
airbag inflator rupture in one of our vehicles and sustained serious 
injuries. What began with an awkward conversation evolved into a joint 
effort to help save the lives of others.
    First, we co-authored an op-ed commentary to encourage legislative 
action on an important opportunity to increase recall rates. Then, last 
fall, we collaborated on a new public service announcement in which Ms. 
Erdman courageously shared the story of her accident and injuries in 
order to prevent other drivers from having the same horrific 
experience. Honda used social media to target this PSA to almost seven 
million owners of unrepaired vehicles, and millions of people have seen 
it on YouTube. I would like to share one version of this PSA with all 
of you.
    We created several versions of this PSA, of varying lengths and 
content, as well as in Spanish and English. We also have made it 
available for use by NHTSA and automakers and other stakeholders free 
of charge. And a number of companies have already signed agreements 
allowing them to do so.
    This Committee put Ms. Erdman and me together. Since then our 
relationship has been a unique collaboration that we hope has saved 
lives. And we all owe her a debt of gratitude for her selfless effort 
to use a deeply personal tragedy to help others.
    It is critical to understand that the majority of the 13 fatalities 
in our vehicles were due to the so-called ``Alpha'' inflators, found in 
certain 2001 to 2003 Honda and Acura models. These Alpha inflators were 
found by NHTSA and Takata to have an alarming rupture rate of as high 
as 50 percent.
    Given the extreme risk posed by the ``Alpha'' inflators, last year 
we began a nationwide grassroots outreach effort to physically locate 
hard to reach owners of Alpha vehicles who have not responded to our 
prior recall outreach efforts. This initiative involves sending 
dedicated teams of Honda representatives nationwide, some 550 in total, 
who are physically knocking on the doors of customers, already more 
than 600,000 times, in the effort to assist them with scheduling and 
completing recall repairs. An effort like this is unique, and we will 
evaluate its effectiveness in meeting our goals and expectations.
    In total, we now have more than 400 people in our customer contact 
center working on the Takata recalls, and 135 of those agents are 
dedicated to tracking down vehicles with Alpha inflators. To be clear, 
that's all that these people do, day in and day out, in a dedicated 
effort to save lives and prevent injuries to our customers.
    Based on all of these efforts, from a population of almost 1.1 
million vehicles with the higher risk Alpha inflators, only about 
62,000 remain on the road to be tracked down and repaired. This 
represents a completion rate of 94 percent. Considering that research 
shows recall completion rates for vehicles in their 10th year of 
ownership hover at about 33 percent . . . and the Alpha vehicles in 
question are 15 to 17 years old . . . our efforts thus far represent an 
extraordinary accomplishment.
    But we aren't satisfied with this result. We are committed to 
continuing our effort until we replace or account for all of the 
defective Alpha inflators.
    This recall effort has really been uncharted territory for Honda 
and for our entire industry. As I have noted, we have tried a number of 
new ideas and methods in the effort to find customers, to notify them 
in a way that will get their attention, and then to convince them to 
complete the recall.
    Through the course of our efforts on this unprecedented Takata 
inflator recall there have been a number of lessons learned. Together 
with our dealers, I think we are good at repairing vehicles. But 
finding and convincing customers to complete recalls, especially for 
older model vehicles that are on their second, third or even fourth 
customer, is a difficult challenge.
    When it comes to ensuring that customers are aware of and complete 
a safety recall, we remain convinced that the single most effective 
measure is to tie the annual state vehicle registration process to a 
requirement that safety recalls be addressed before that registration 
can be completed. This would be particularly important for vehicles 
that were recalled prior to the purchase of a vehicle by a subsequent 
owner who may not even be aware of the presence of an unrepaired safety 
defect. We believe there are numerous accommodations that can be made 
so that this requirement would not be overly burdensome to vehicle 
owners. While I recognize that this is ultimately the function of state 
governments, I proposed this idea in each of my prior testimonies 
because we believe it is the best opportunity to save lives.
    Toward this end, I am excited to tell you that, later this week, 
the auto industry will announce the establishment of a new batch look-
up tool that will make it much easier and faster to look up affected 
vehicles to support efforts to reach hard-to-find vehicle owners about 
an outstanding safety recall. Currently, anyone checking vehicles for a 
safety recall must look up one VIN at a time, which is inefficient and 
cumbersome. This new tool can look up large batches of up to 10,000 
VINS at a time.
    This new batch tool responds quickly, will be offered completely 
free of charge to DMVs, insurance companies, salvage yards, repair 
shops, new and used car dealers, and others who have touch points with 
vehicle owners. With this new batch lookup system, we are hopeful these 
stakeholders will become more active in helping to locate the owners of 
recalled vehicles requiring a repair.
    Getting cars fixed is our responsibility. But this recall is an 
unprecedented public health challenge that requires unprecedented 
action from other stakeholders in the effort to find and notify 
customers. The insurance industry. The salvage industry. Used car 
dealers. DMV and state inspection authorities. And, given this 
Committee's focused interest on motor vehicle safety, we ask that you 
encourage these industry and government sectors to use the new batch 
look-up tool to urge or require their customers to get safety defects 
fixed as soon as possible.
    This is not business as usual for Honda. In my first appearance 
before this committee, I said we would do our very best to repair every 
car affected by the Takata inflator recall. This remains our 
commitment. And we will continue to dedicate ourselves to honor the 
relationship we have with our customers.
    Thank you.

    Senator Moran. Thank you very much.
    Ms. Ujkashevic.

   STATEMENT OF DESI UJKASHEVIC, GLOBAL DIRECTOR, AUTOMOTIVE 
               SAFETY OFFICE, FORD MOTOR COMPANY

    Ms. Ujkashevic. Good afternoon, Chairman Moran, and Ranking 
Member Blumenthal, and Senate Committee members.
    My name is Desi Ujkashevic. I am the Global Director of the 
Automotive Safety Office at Ford Motor Company.
    Ford has more than 85,000 employees in the U.S., and we are 
proud to have more hourly employees and produce more vehicles 
in the U.S. than any other automaker. The safety of our 
customer is our top priority, and I appreciate the opportunity 
to be here with you today to discuss this Takata air bag 
inflator recall.
    The Takata air bag inflator recall is truly unprecedented, 
as you heard here today. According to NHTSA's data, the Takata 
recall involves about 50 million inflators in approximately 37 
million vehicles. NHTSA is currently tracking Ford's 
replacement of 1.57 million inflators.
    Throughout this process, Ford has fully cooperated with the 
NHTSA, the Independent Takata Monitor, and the rest of 
industry. Ford is absolutely committed to taking care of our 
customers and ensuring the remedy order we deliver.
    Ford's strategy is to offer our owners non-Takata, non-
ammonium nitrate based inflators. For the vehicles NHTSA has 
designated as the highest priority--the Mustang, the Ranger, 
and the GT--we now have replacement parts available for these 
vehicles. We will also have final replacement parts for Ford 
vehicles lower on NHTSA's priority in the coming months.
    Working with the Monitor and NHTSA, Ford has learned many 
new and innovative ways to communicate with our customers. 
Traditional approaches, such as first class mail, are effective 
with certain populations while others are more responsive to 
new methods including social media, innovative calling 
strategies, and unique experiential marketing. We are using 
data analytics to help tailor responses to unique customer 
groups.
    Moving forward, we will continue to explore new approaches, 
share our experiences with the others, and enhance our outreach 
programs.
    Now, I would like to address our recent ``Do Not Drive'' 
warning. First and foremost, we are aware of the two fatalities 
caused by the Takata air bag inflators that ruptured in our 
2006 Rangers. On behalf of everyone at Ford Motor Company, I 
would like to extend our sincere condolences to those families.
    I would like to also assure this Committee that we moved 
quickly to issue the ``Do Not Drive'' warning as soon as we 
understood there was a population of these 2006 Rangers with 
inflators that posed a much higher risk than other Takata 
inflators.
    When the first fatal accident occurred, all of the data, 
the testing, and analyses were shared between NHTSA, Takata, 
and our engineering team. The collective judgment was that this 
event was consistent with the overall risk that Takata 
inflators posed.
    Then later, on December 22, 2017, we learned of a second 
fatal accident involving a 2006 Ranger. We immediately took 
action to inspect the vehicle within days on December 27. We 
found that it was built with a Takata inflator that was 
produced on the same inflator lot.
    We worked with Takata to understand their production 
records for these inflators, and then we issued a ``Do Not 
Drive'' warning to owners of any Rangers with inflators that 
were built on that same lot from Takata.
    We were not satisfied with our level of understanding to 
this problem. We worked diligently with NHTSA and Takata 
running thousands of tests and evaluating this data. The test 
data clearly showed a production period of higher risk 
inflators causing Ford to immediately expand the ``Do Not 
Drive'' population to vehicles that may have received one of 
these suspect parts. I am very proud of how quickly our entire 
team worked and responded to help protect our customers.
    We now have non-Takata, non-ammonium nitrate parts for all 
of these vehicles, and Ford is persistently contacting owners 
to urge them to not drive these vehicles and to make 
appointments with their dealers to have these vehicles 
remedied.
    We will continue to use innovative approaches, as was 
mentioned today, to ensure that we reach every one of these 
owners.
    In summary, this is indeed the largest, most complex 
automotive recall in history affecting our customers, 
manufacturers, and suppliers. It has brought NHTSA, the 
Monitor, and the entire industry together to help resolve this 
problem.
    As you also learned today, there has been much progress 
made on this topic, but we all recognize there is more work to 
be done.
    Ford remains committed to taking care of our customers and 
I can assure you that this Takata recall has the full 
commitment of the entire Ford Motor Company and our leadership.
    I want to thank you very much for your time and attention 
today, and I look forward to addressing your questions.
    [The prepared statement of Ms. Ujkashevic follows:]

        Prepared Statement of Desi Ujkashevic, Global Director, 
              Automotive Safety Office, Ford Motor Company
    Good afternoon. My name is Desi Ujkashevic. I am the Global 
Director of the Automotive Safety Office at Ford Motor Company.
    Ford has more than 85,000 employees in the U.S., and we are proud 
to have more hourly employees and produce more vehicles in the U.S. 
than any other automaker. The safety of our customers is a top 
priority, and I appreciate the opportunity to discuss the Takata airbag 
inflator recall with you today.
    As the members of the subcommittee know, the Takata airbag inflator 
recall is truly unprecedented. According to NHTSA's data, the Takata 
recall involves about 50 million inflators in 37 million vehicles. 
NHTSA is currently tracking Ford's replacement of 1.57 million 
inflators. Throughout this process, Ford has fully cooperated with the 
NHTSA, the Independent Takata Monitor, third party experts, and the 
rest of industry, and Ford is absolutely committed to taking care of 
our customers and remedying the recalled vehicles.
    Ford's strategy is to offer our owners non-Takata, non-ammonium 
nitrate based replacement parts. For the vehicles NHTSA has designated 
as the highest priority; the Mustang, Ranger, and GT, we now have non-
Takata, non-ammonium nitrate replacement parts available. We will have 
final replacement parts for Ford vehicles lower on NHTSA's priority 
list in the coming months.
    We are working closely with NHTSA and the Monitor to understand and 
implement the best practices for effectively encouraging owners to 
complete this recall on their vehicles. The Takata inflator recall 
demands an unprecedented level of outreach to owners and coordination 
with the Agency, the Monitor, our dealers, suppliers, and other 
automakers. This is a critical and collaborative effort that requires 
all of us across the industry to learn from each other and work 
together. Today NHTSA tracks Ford's recall completion rate at 46 
percent. We are not satisfied and we are committed to contacting every 
owner.
    I am pleased to share with you some of our actions that have helped 
us to achieve the current completion rate and we are confident will 
lead to steady progress. Working with the Monitor and NHTSA, Ford has 
learned new and innovative ways to approach communicating with 
customers. Many of the traditional approaches such as first class mail 
are effective with certain populations while others are more responsive 
to new methods including social media, innovative calling strategies, 
and unique experiential marketing. In concert with the Monitor and 
other automakers, we are using data analytics to study the 
effectiveness of these new approaches and develop tailored responses to 
unique customer groups. Moving forward, we will continue to explore new 
approaches, share experiences and work collaboratively with NHTSA and 
the entire industry to enhance our outreach.
    Next, I would like to address our recent ``Do Not Driver'' warning. 
First and foremost, we are aware of two fatalities caused by Takata air 
bag inflators that ruptured when they deployed in 2006 Rangers. On 
behalf of everyone at Ford, I want to extend our deepest sympathies to 
those two families.
    Second, I would like to assure the members of this Committee that 
we moved quickly to issue the ``Do Not Drive'' warning as soon as we 
understood there was a population of the 2006 Rangers with inflators 
that posed a much higher risk than other Takata inflators. When the 
first fatal accident occurred, all of the data, testing, and analyses 
were shared between NHTSA, Takata, and Ford. The collective judgment 
was that this event was consistent with the overall risk that Takata 
inflators posed.
    Then, on December 22, 2017, the Friday before Christmas, we learned 
of second fatal accident involving a 2006 Ranger. We inspected the 
vehicle on December 27, determined that it was built on the same day as 
the inflator in the other fatal rupture, worked with Takata to 
understand their production records for these inflators, and then 
issued a ``Do Not Drive'' warning to owners of any Rangers with 
inflators built on that date.
    We were not satisfied with our understanding of this problem. We 
worked daily with NHTSA and Takata running thousands of tests and 
evaluating the data. The test data clearly showed a production period 
of high-risker inflators causing Ford to immediately expand the ``Do 
Not Drive'' population to vehicles that may have received one of these 
higher-risk inflators. I am proud of how quickly our team responded and 
worked cooperatively with Takata and NHTSA to help protect these 
owners.
    Final replacement non-Takata, non-ammonium nitrate inflators for 
these vehicles are available, and Ford is persistently contacting 
owners, leveraging all the outreach learnings we have acquired 
throughout the Takata recall process, to urge them to stop driving 
their vehicle and contact their dealer to get it repaired. We will use 
the innovative approaches I mentioned earlier to reach every affected 
owner.
    In summary, this is the largest, most complex automotive recall in 
history affecting many of the global auto manufacturers and suppliers. 
It has brought NHTSA, the Monitor, and the entire industry together to 
help solve this problem. As you have learned today, there has been much 
progress made and we recognize there is still more work to be done.
    Ford remains committed to taking care of our customers and I can 
assure you that this Takata recall has the full commitment of our 
Company and the Company's leadership.
    Thank you for attention to this topic and I look forward to 
addressing your questions.

    Senator Moran. Thank you all for your testimony. We have 
approximately 15 to 20 minutes remaining before a vote, and we 
will conclude the hearing when the vote is called.
    Let me ask a series of questions and hopefully in a timely 
fashion. I am not exactly sure who all these questions should 
be addressed to, but let me start with the two names that are 
most difficult to pronounce, Mr. Schostek and Ms. Ujkashevic.
    Assure me that Ford, and Honda, and other automobile 
manufacturers, that there is no brand loyalty, no financial 
incentive to not see the recall quickly completed, 
notifications given, recall completely completed, and the 
defect repaired and replaced.
    What would be any incentive that you would have not to see 
that occur quickly?
    Mr. Schostek. Well, Mr. Chairman, speaking for Honda, 
absolutely.
    We, in the auto industry, are all in this together. We have 
been thankful for Mr. Buretta's guidance with quarterly 
meetings.
    There is no competition or brand loyalty among automakers. 
We need to get these inflators replaced and fix these vehicles.
    One example I can think of for Honda is we prohibit our 
dealers from selling used cars that have a defect. That applies 
to the Honda used cars they have on their lot as well as the 
used cars of other makers. So we certainly do not see this as a 
competition or as brand loyalty.
    We see this as an industry problem created by Takata's 
deception that needs to be remedied as quickly as possible.
    Ms. Ujkashevic. I can only make a similar commitment on 
behalf of Ford Motor Company. We are absolutely committed to 
not only sharing the information and the test data that we 
garnered through Takata and NHTSA, but also in sharing our best 
practices around the outreach programs.
    Because as you recognized today, the next part of our 
journey is to successfully reach these customers and encourage 
them to make appointments with their dealers and to have these 
parts remedied.
    Senator Moran. Let me ask, then, about prioritization. So 
we are making a determination what vehicle needs to be repaired 
the soonest.
    Is that prioritization related to the notification or to 
the work done? Everyone gets a notice and then the 
prioritization occurs to the work. Again, I do not know who to 
look to for this answer.
    Mr. Schostek. So Mr. Chairman, when NHTSA issued their 
Consent Order and scheduled the recalls, they did that by 
priority order as was discussed with Deputy Administrator King 
just a while ago.
    So it has called for phases of recalls. The third phase was 
just completed in January of this year. So each automaker added 
more inflators to the number to be recalled. There will be 
another phase, phase four, in January of 2019. As she 
explained, those are based on age of the vehicle, and also 
heat, and humidity factors.
    Senator Moran. The prioritization occurs in the 
notification. It comes a bit in the question or the comment 
that the Senator indicated earlier. So someone only gets a 
notice only to arrive at the dealership to discover it is not 
their turn to have the defect repaired. But that is not the 
case. They would not get a notice until their priority is 
reached?
    Mr. Schostek. That is correct. That is not the case. And 
Mr. Chairman, we have not had a backorder of a replacement 
inflator for a Takata inflator since October of 2016. We have 
had adequate parts for all the recalls that have been announced 
since October 2016, speaking for Honda.
    Senator Moran. And that gets to my question about 
prioritization. Why is it necessary to prioritize? Why are we 
incapable of notifying every purchaser of a vehicle that is 
affected? Why is a prioritization necessary? Is it the part?
    Mr. Schostek. Very good question, Mr. Chairman. And 
speaking for Honda, this is a global recall. This is a global 
problem, not just a U.S. problem.
    We have 18.5 million inflators recalled in the United 
States. We have 51 million inflators recalled globally. So 
while we do have adequate parts for all that have been recalled 
to date here in the U.S., there are other areas of the world 
where we need to have capacity for parts supply for the recalls 
that have been recalled in Japan, or Malaysia, or in other 
places, Brazil.
    So for us, it is a global parts resources issue, but 
thankfully, here in the U.S., we have not had a replacement-
backorder since October 2016.
    Senator Moran. Is that true also for Ford?
    Ms. Ujkashevic. Let me just back up and answer your 
question in the context of final remedy.
    First of all, we have final remedies available and parts 
available for all of the priority program as defined by NHTSA. 
The next batch of priority programs will have parts in the 
coming months. So I am confident that we are well supporting 
the priorities as outlined.
    But what is also important is that we have final remedy 
solutions that take us away from both Takata and ammonium 
nitrate-based Takata systems, which is a significant 
development.
    Senator Moran. Mr. Kelly's testimony was about testing that 
has been done to determine the cause of the defect. Is that a 
good summary of what your mission is?
    Mr. Kelly. Correct.
    Senator Moran. And then what is the testing that 
demonstrates that the defect repair is effective and safe?
    Mr. Kelly. So as part of the second phase of the process, 
what we are doing with our testing is that we are looking at 
desiccated inflators. We are looking at trying to determine a 
predictive aging model where manufacturers, and others, can put 
a lot of inputs into the model to sort of get an idea of how 
the inflator is going to react and how it will perform in the 
real world.
    When we get done with that model, we are expecting that 
model to probably take more than a day, possibly up to two days 
to run all of the different factors. So that is sort of the 
second phase of what we are going to be releasing here in the 
next few months.
    Senator Moran. My time has expired and to live up to my 
admonition about a 4:15 p.m. conclusion, let me ask this 
question for the record and we would welcome a conversation as 
well as a response in writing.
    The testing that occurred to determine the cause of the 
defect, I would appreciate it being explained to me why the 
testing does not occur?
    What is the process by which one of the automobile 
manufacturers makes a determination to purchase a Takata air 
bag for their vehicle?
    What testing would have occurred by Takata, or by the 
automobile manufacturer, in making a decision that this was an 
acceptable safety component of a vehicle that we ultimately 
will manufacture and sell to consumers around the world?
    Your testimony strikes me as this is something that should 
have happened in the manufacturing and supply aspect of the 
automobile manufacturing process at a time much earlier than 
after the fact of the defect discovered, and the death and 
injuries occurred.
    I know that is a longer answer than I have time for today 
for the moment, but I would welcome that description of the 
process of how it takes place.
    Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    We know, Mr. Schostek, that Honda provides loaner vehicles 
to anyone who has a defective air bag.
    Is that correct, as a matter of policy?
    Mr. Schostek. That is correct, Senator. We do have a policy 
that our dealers are to provide a loaner vehicle to customers.
    Senator Blumenthal. Ms. Ujkashevic, why does Ford not do 
the same?
    Ms. Ujkashevic. That is a great question, and our policy 
has evolved. We currently are offering loaner vehicles for our 
higher risk Ranger programs. We also are offering loaner 
vehicles to those customers who come in and we do not have a 
remedy solution for them.
    Senator Blumenthal. Will you commit to evolve your policy 
further and adopt Honda's policy? I do not mean to make it 
Honda's policy, but provide loaner vehicles to everyone who has 
a defective and potentially lethal part in their car?
    Ms. Ujkashevic. I can promise you we assess our customer 
safety needs and ensure that we offer adequate solutions. I do 
not have the specifics behind Honda's overall policy, but very 
specifically to this Takata issue that we are discussing here 
today, we have loaner policies in place for our customers, and 
I would encourage our customers to contact their dealers.
    Senator Blumenthal. Well, I know you have loaner policies 
in place. I just want to make sure that Ford--and all of the 
other automobile makers that have still millions of cars out 
there with potentially deadly, defective parts--provides these 
loaners as a matter of policy, as do six, including Honda, 
already.
    I am just asking whether you can commit or go back to your 
company and answer the question? I am not holding you 
personally responsible. I know it is a matter of corporate 
policy. Whether you can commit that you will follow that 
approach and you can respond in writing later, if you would 
like.
    Let me ask you, I am told that the allegation has been 
made--and by the way, I understand that Ford is a member of the 
United States Council for Automotive Research [USCAR], which 
has a specification for air bag inflators called USCAR-24 or 
USCAR-24 Inflator Technical Requirements and Evaluation 
Specification. The first version appears to have been issued in 
2004; the second in 2013.
    I know that the allegation has been made that Ford, as a 
member of that organization, requested to modify the 
specifications supposedly because they could not be met. And 
then, according to a complaint in a recent class action 
lawsuit, Ford in October 2003 sent a fax to Takata asking 
whether they could avoid meeting those specification for 
certain air bag inflators. And said, quote, ``We found a 
loophole where we do not need to meet the USCAR since the 
specification was not released when we signed the Statement of 
Work.''
    Is that true?
    Ms. Ujkashevic. Senator, without seeing the context of the 
data that you are referencing, I can give you a summary of what 
I know is in place.
    We are, indeed, participants in the USCAR specification and 
we have worked with developing a specification that is very 
stringent around air bags and inflator systems.
    Senator Blumenthal. Did the Takata inflators used by Ford 
deviate from USCAR-24 specifications?
    Ms. Ujkashevic. The Takata air bag inflators that are being 
discussed did not deviate to the USCAR spec that would be 
relevant in the context of the deployment disruptions.
    Senator Blumenthal. The latest version of those 
specifications, I understand, was issued in 2013. I would hope 
that Ford is planning to update its inflator standards.
    Is it?
    Ms. Ujkashevic. We are working to specifically update the 
inflator spec and what I was saying earlier is if you look 
across the inflator providers--Autoliv, TRW, and Takata--they 
have deviations to part of that USCAR spec.
    But I can assure you that none of the deviations were very 
specific to what we saw here in the explosives.
    Senator Blumenthal. Thank you. My time has expired, but I 
will have additional questions for the record.
    Thank you very much to all the folks who are appearing 
today.
    Senator Moran. Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Thank you all as well for coming today.
    Mr. Schostek, let me start with you because you talked 
about a new system that is being implemented. Just so you can 
verify, is it true that it is legal for air bag assemblies, or 
other parts subject to a recall, to be pulled out of wrecked 
cars and sold by junkyards to repair shops that may not even 
know the danger of the recall?
    Mr. Schostek. Senator, thanks for the question.
    I believe that it is illegal for them to sell them, but it 
is happening. We have had eight ruptures that had to do with 
recycled or harvested air bags, including the one that you 
mentioned with Ms. Dorado in your state.
    Senator Cortez Masto. So it is illegal for them to do that 
if they know it is subject to recall?
    Mr. Schostek. If it is a defective part, they should not be 
selling it.
    Senator Cortez Masto. OK.
    Mr. Schostek. Or they should not be using it.
    Senator Cortez Masto. And so, can you talk about the system 
you talked about? Would this address it? Would it allow these 
types of entities to have access to up to 10,000 VINs at a time 
to check for recalls? Is that the intent here?
    Mr. Schostek. Exactly, Senator. Exactly.
    I am glad you are inquiring about this because in the last 
couple of years, since I appeared before the Committee last, 
especially with these alpha vehicles which, as I said in my 
testimony, are 16 to 18 years old. These are older vehicles 
that have changed hands two, three, four times. And frankly, 
the data that is available is difficult on some of these 
vehicles.
    We have been trying to work with other organizations, to 
name two, insurance companies and recyclers, to get some more 
cooperation from them to avoid the kind of thing that happened 
to Ms. Dorado.
    On the side of the insurance companies, we figured out that 
at any one time, insurance companies may own at least 10,000 
vehicles that have recalled inflators in them; 10,000. Of 
course, these are cars that have been in an accident, and then 
totaled. In this case, the air bag did not deploy. So there is 
a recalled inflator that the insurance company owns in that 
wrecked vehicle.
    We tried by requesting this information from insurance 
companies, they did not cooperate with us and provide it to us.
    Finally, we had to resort to issuing subpoenas to them. We 
were able to use the power of the MDL Administrator in the 
Florida case and issued subpoenas to 13 insurance companies.
    All we wanted to know is: tell us the vehicles that you 
have that may have these defective inflators in them.
    We figured out eventually that these vehicles are in 
different salvage yards or different auction houses. And we 
finally have got the permission. It took 6 months for one 
insurance company to answer our subpoena. Some were good, do 
not get me wrong. Some insurance companies were very, very 
responsive.
    But finally, as of last month, we got the agreement from 
every insurance company that they are going to notify us if one 
of those recalled inflators comes into their possession and 
authorize us to fix the car. We then can seek permission to 
enter onto that recycler's or junkyard property and repair or 
remove that inflator. It is a big problem.
    So the point, Senator, is that this new batch system that 
we have will allow insurance companies, State DMVs, auction 
houses, to check a bunch of VINs at a time. And this is not 
just for Honda vehicles. It is any defect in any OEM's vehicle 
that is out there. This is a breakthrough moment for having 
this batch system available.
    We would really like to encourage the Committee to 
encourage those other stakeholders, again, insurance companies, 
auction houses, recyclers, and so forth, to use this batch 
system because it is going to enable us to do things that we 
could not do before.
    Senator Cortez Masto. And this system is to be up and 
running or online. Do you have a time-frame for it?
    Mr. Schostek. Yes, Senator. It will be publicly announced 
on Friday of this week at the National Automotive Dealers 
Association meeting.
    There is a process to sign up for use of this new system. 
Of course, we are very respectful of the privacy of 
information. So there has to be certain conditions agreed to, 
to access this system.
    But the system will be operational by the middle of April.
    Senator Cortez Masto. And so, because I appreciate your 
lessons learned, and one of the things you had talked about was 
possibly mandating vehicles be repaired prior to registration 
or renewal of registration. And so, with this system up and 
running, it would be much easier for a DMV to also check when 
somebody comes in to renew a registration or to register a 
vehicle whether there is a recall that is associated with the 
VIN.
    Mr. Schostek. Absolutely, Senator. With this system, we 
think it is possible for a State DMV to check a number of VINs. 
We would hope that a state would take the strong position that 
tying recall completion to vehicle registration is the best way 
to ensure completion, especially for older vehicles.
    So we stand ready to work with any state which wants to put 
that into effect.
    Senator Cortez Masto. Thank you. I know my time is running 
out. Does anybody else have any comments with respect to that 
discussion, concerns, or disagrees with it?
    [No response.]
    Senator Cortez Masto. All right. Thank you. Thank you very 
much.
    Senator Moran. Thank you.
    My usual practice, once again, is to allow any of our 
witnesses to make clear, or to correct, or to say something 
that they did not have an opportunity to say.
    Mr. Perkins, you and Mr. Buretta had fewer opportunities to 
respond to questions than others.
    But does anybody on the panel have something they want to 
make sure is entered into the record and that we are made aware 
of?
    Mr. Perkins.
    Mr. Perkins. Mr. Chairman, I would just like to add the 
Government, across a broad range of work streams, has been 
incredibly collaborative through a very, very complex process. 
So I thank you for that.
    Senator Moran. Thank you for that comment.
    Anyone else?
    The hearing record will remain open for 2 weeks. During 
that time, Senators are asked to submit any questions for the 
record. Upon receipt, the witnesses are requested to submit 
their written answers to the Committee as soon as possible.
    Let me conclude this hearing by, once again, thanking the 
witnesses for being here.
    Expressing our condolences to those who have lost family or 
friends, as well as those who have been injured.
    I thank the witnesses for appearing.
    This hearing is now adjourned.
    [Whereupon, at 4:17 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. Todd Young to 
                               Heidi King
    Question 1. In your testimony, you mention that under the Consent 
Order, NHTSA and the Independent Monitor are encouraging best practices 
(i.e., texting, social media, and door-to-door canvassing) to notify 
consumers of owning a car that needs to be fixed. What lessons have you 
learned in the process of developing your best practices? What has 
worked? What has not?
    Answer. The required first-class mailing is an important part of 
official notification, but it is just one step in informing consumers 
of the risk they face. There are many challenges to successful recall 
completion. These challenges include obtaining accurate contact 
information for affected consumers, communicating effectively with 
those consumers, and ensuring dealer networks are well-informed and 
actively assisting in the recall process.
    Effective outreach by vehicle manufacturers includes communicating 
in an attention-grabbing, direct manner that the consumer understands; 
this means frequent and urgent messages delivered with simple, 
straight-forward language. Personalizing the message, making clear that 
recall repairs are free, and explaining the steps the vehicle 
manufacturer is taking to overcome the inconvenience of recall repairs 
(i.e., free loaner cars or towing) also grab consumers' attention. 
Unsurprisingly, conducting outreach in a language spoken by the 
consumer improves awareness and understanding of the problem. It is 
incumbent upon vehicle manufacturers to work creatively and effectively 
across their internal teams to develop strategies that accurately 
locate affected vehicle owners and then effectively communicate the 
urgent nature of the defect and the free repair.
    NHTSA and the Independent Monitor have provided recommendations and 
best practices, and will continue to provide information to vehicle 
manufacturers to assist them in achieving the remedy completion targets 
and 100 percent accounting in the Takata recalls.

    Question 2. In the development of those best practices, have you 
consulted with behavioral economists to help identify the most 
effective methods? If not, do you believe this is the type of problem a 
behavioral economist might play a constructive role in developing best 
practices?
    Answer. Behavioral economics is a method of economic analysis that 
applies psychological insights into human behavior to explain economic 
decision-making. The methods studied by behavioral economists to 
influence choices have been employed in many consumer-facing 
initiatives and industries in recent decades to improve awareness and 
influence individual decision-making. Those methods inform consumer-
facing efforts in the Takata air bag recall campaign, including the 
methods, frequency, and messages employed. The Independent Monitor has 
attempted to utilize this specialized knowledge, including qualitative 
and quantitative research on effective outreach. NHTSA is confident 
that the real-world lessons, data, and research developed have provided 
robust best practices directly applicable to the Takata air bag 
recalls. The Agency encourages each vehicle manufacturer affected by 
the Takata recalls to adopt and implement the existing best practices. 
Nevertheless, NHTSA continuously seeks input from relevant fields of 
research and incorporates all lessons learned, to ensure operating 
guidance best reflects the circumstances and unique nature of each 
recall campaign.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                               Heidi King
    Question 1. While some automakers have shown recent improvement in 
their recall completion rates, other automakers' completion rates 
remain dismal. In his report, the Independent Monitor named a number of 
new ways that automakers could improve their recall completion rates. 
Has NHTSA issued any new orders or guidance within the last year to 
require automakers to improve recall completion rates?
    Answer. NHTSA has provided guidance through regular meetings with 
the vehicle manufacturers to discuss ways to improve overall recall 
completion rates, and meets quarterly with the manufacturers and the 
Independent Monitor to discuss industry best practices and lessons 
learned for improving recall completion rates. Additionally, NHTSA 
published the Independent Monitor's State of the Takata Recalls Report 
in November 2017, which outlines the research, innovative approaches, 
and coordination efforts across the vehicle manufacturing industry that 
NHTSA and the Independent Monitor have engaged in with various 
stakeholders throughout the last year.

    Question 2. Has NHTSA ordered any automakers to take specific 
actions recommended by the Independent Monitor? If so, please describe 
the specific actions NHTSA has ordered.
    Answer. Yes. NHTSA's Coordinated Remedy Order incorporates 
recommendations of the Independent Monitor. The Coordinated Remedy 
Order requires vehicle manufacturers to take actions to increase remedy 
completion rates through supplemental owner notifications. The vehicle 
manufacturers have the option of either using the Independent Monitor's 
Coordinated Communications Recommendations, or proposing alternative 
communications messaging or strategies to NHTSA and the Independent 
Monitor. The Coordinated Communications Recommendations are available 
on NHTSA's website at https://www.nhtsa.gov/document/coordinated-
communications-recommendations.

    Question 3. Has NHTSA encouraged automakers to offer rental or 
loaner cars, or some other form of alternate transportation, to 
consumers during the time their vehicles' air bags are pending repair? 
If so, please detail NHTSA's specific request to automakers. If not, 
please explain why such a request has not been made.
    Answer. Yes. NHTSA has encouraged vehicle manufacturers to take 
actions to minimize the inconvenience of the Takata recalls to vehicle 
owners, including providing transportation for consumers during their 
vehicles' repair. One of the specific strategies the Independent 
Monitor recommended to vehicle manufacturers was to have a dealer 
loaner policy, enabling dealers to make loaner vehicles available or 
provide taxi or car service to customers while a recall repair is being 
performed. The Monitor also recommended clear customer communications 
regarding the availability of loaner or rental cars and other policies 
that address the inconvenience of the recall (such as extended dealer 
service hours). The Monitor's recommendations are supported by research 
indicating that free loaner vehicles help overcome the inconvenience of 
the recalls and motivate owners to have the repair performed. NHTSA has 
had ongoing and robust dialogue with each of the vehicle manufacturers 
where the Agency emphasizes the need to reduce inconvenience to vehicle 
owners. Overcoming owner inconvenience was also one of the key topics 
of discussion between the vehicle manufacturers, NHTSA, and the Monitor 
at the October 2017 Takata Recalls Summit hosted by the Monitor.

    Question 4. Has NHTSA issued any fines or civil penalties in 
response to the failure of automakers to meet the recall completion 
requirements in the Takata Orders? If not, please explain why such 
action has not been taken.
    Answer. NHTSA has not issued penalties to manufacturers regarding 
the completion rate targets outlined in the Coordinated Remedy Order 
for Priority Groups 1-3. Although manufacturers have yet to meet the 
ambitious targets, they have made progress in completion rates, parts 
availability, and consumer outreach. NHTSA maintains robust authority 
and oversight of recall completion rates and will take additional 
action as appropriate.

    Question 5. Will NHTSA issue fines or take enforcement actions if 
recall completion rates continue to lag?
    Answer. NHTSA will take all appropriate action, which may include 
penalties or other enforcement action. NHTSA evaluates the facts and 
circumstances to determine whether they indicate that such action would 
be an effective mechanism to improve recall completion rates and get 
unsafe air bags out of every affected vehicle, or such action is 
otherwise warranted.

    Question 6. The amended Coordinated Remedy Order requires 
automakers to recall specific categories of impacted vehicles by 
priority groups based on the risk of rupture. The priority groups are 
set by vehicle age and location and require that recalls be initiated 
by set deadlines. Several automakers have sought extensions of these 
deadlines. How many automakers have sought extensions? Please list each 
automaker and date of request.
    Answer. Eight vehicle manufacturers have sought extension requests 
across certain vehicles and priority groups. All of these requests are 
currently available on NHTSA's website at https://www.nhtsa.gov/
equipment/takata-recall-spotlight#nht
sa-action-related-documents. The manufacturers and dates of requests 
are listed below:

  <bullet> BMW: August 28, 2015; March 17, 2017 (supplemented April 13, 
        2017); July 31, 2017 (request withdrawn); August 24, 2017 
        (supplemented September 8, 2017)

  <bullet> DVUS: September 22, 2016; September 26, 2017 (supplemented 
        December 14, 2017); February 14, 2018

  <bullet> Ford: September 27, 2016; February 14, 2017 (supplemented 
        April 5, 2017); November 30, 2017 (supplemented February 9, 
        2018); December 18, 2017; April 11, 2018

  <bullet> GM: September 16, 2016; August 25, 2017

  <bullet> Mazda: May 15, 2017; August 15, 2017; December 15, 2018; 
        February 9, 2018

  <bullet> MBUSA: February 14, 2017 (supplemented April 5, 2017); March 
        1, 2018

  <bullet> Nissan: December 21, 2016

  <bullet> VW: February 15, 2018

    Question 7. Has NHTSA denied any extension requests? If not, why?
    Answer. No. Thus far, NHTSA has not denied any extension requests 
in the Takata recalls based on the merits of the request and the goal 
of expeditious replacement of defective inflators. There are, however, 
extension requests that are currently pending NHTSA review. The 
research and development involved in redesigning inflators as 
replacement parts can take time to ensure that the replacement parts 
themselves are safe. NHTSA assesses the merits of each extension 
request, including the validity of the engineering and/or supply chain 
challenges underlying the request and the requesting manufacturer's 
efforts to timely obtain safe remedy parts, before issuing a decision.

    Question 8. The two deaths caused by rupturing Takata air bags in 
Ford Ranger trucks reveal that just one day of bad production can be 
fatal. What steps has NHTSA taken following the Ford Ranger incidents 
to ensure these production problems are identified before--not after--a 
deadly incident?
    Answer. NHTSA continues to engage with Takata in review and 
analysis of test data from inflators returned from the field in the 
ongoing effort to identify any production periods with inflators that 
present enhanced risk of rupture. More broadly, NHTSA reviews each 
vehicle complaint submitted to the agency for potential public safety 
risk. More than 6,000 complaints are submitted to NHTSA each month, and 
through this process many defects are identified and resolved prior to 
any injury.

    Question 9. Is NHTSA confident that no other Takata propellant 
lots--including lots produced for other automakers--may contain the 
same defect that led to the Ford Ranger ruptures?
    Answer. One of the greatest frustrations of the Takata phase-
stabilized ammonium nitrate (PSAN) inflator recalls is the difficulty 
in identifying which inflators are affected by various secondary 
defects that further increase the risk the inflators can rupture. NHTSA 
continues to engage with Takata in review and analysis of test data 
from inflators returned from the field in the ongoing effort to 
identify any production periods with inflators that present enhanced 
risk of rupture. NHTSA will continue to be vigilant in the ongoing 
assessment of this matter as well as in the investigation of other 
defects.

    Question 10. What is the status of efforts to study the safety of 
Takata's desiccated ammonium nitrate-based inflators?
    Answer. Several expert groups are studying the safety and possible 
service-life of Takata's desiccated PSAN inflators. NHTSA anticipates 
receiving briefings and reports from those groups as their research 
concludes prior to the end of 2019. NHTSA has reserved the right to 
demand the recall of desiccated PSAN inflators at any time if the test 
data, or real-world experience, demonstrates that the inflators pose an 
unreasonable safety risk to consumers.

    Question 11. The Motor Vehicle Safety Whistleblower Act was passed 
in December 2015 to protect the public by providing an incentive for 
employees in the automotive industry to voluntarily provide information 
relating to violations of vehicle-safety laws to NHTSA and other 
government agencies. The statute required the Secretary to issue 
regulations on the requirements of the program within 18 months, or by 
June 2017 (49 U.S.C. Sec. 30172(i)). To date, NHTSA has not issued 
these rules or even started the public rulemaking process. What is the 
status of the rulemaking and when does NHTSA plan to issue final rules?
    Answer. NHTSA is actively working on this rulemaking. NHTSA has not 
currently estimated a time-frame for issuance of a final rule, since 
that will depend in part on the nature and extent of public comments 
the agency receives in response to its notice of proposed rulemaking. 
While NHTSA acknowledges the statutory deadline for this rule has 
passed, that does not impact the incentives available to whistleblowers 
under the law. The FAST Act specifically enabled whistleblowers to 
qualify for awards for information they provided after the enactment of 
the FAST Act but prior to the effective date of the regulations issued 
by the agency. The FAST Act also specified that a whistleblower may 
receive an award prior to the agency promulgating the regulation.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                               Heidi King
    Question 1. Please provide per manufacturer information regarding 
what percent of vehicles with unrepaired defective Takata airbags have 
not been repaired because parts are not available.
    Answer. In general, recall completion rates reflect launched recall 
campaigns (i.e., parts are available for repair). In some 
circumstances, the completion rates include recall campaigns that are 
launched only in part. The vast majority of the 16.9 million currently 
unrepaired air bags have parts available for a repair, however, vehicle 
manufacturers do not report to NHTSA specific information regarding why 
certain vehicles have not been repaired. NHTSA encourages consumers who 
have been told that parts are unavailable for their Takata air bag 
repair, after having received a notice from their vehicle manufacturer 
notifying them to schedule a repair, to visit www.nhtsa.gov and click 
``Report a Problem'' to file a Vehicle Owner Questionnaire with NHTSA 
for appropriate follow-up.

    Question 2. What else can NHTSA do to ensure that parts are 
available when recalls are issued?
    Answer. Vehicle manufacturers are responsible for manufacturing 
safe vehicles with properly working componentry. In the Takata recalls 
specifically, NHTSA has phased the recalls in the May 2016 Consent 
Order with Takata to recall inflators before they present a risk to 
vehicle occupants, while also enabling vehicle manufacturers to develop 
and produce sufficient remedy parts shortly after the recalls are 
issued.

    Question 3. When consumers must wait for replacement parts, do you 
agree that automakers should provide consumers with loaner cars at no 
cost?
    Answer. NHTSA has encouraged vehicle manufacturers to take actions 
to minimize the inconvenience of the Takata recalls to vehicle owners, 
including providing alternate transportation for affected consumers.

    Question 4. Please see this staff report I issued with Senator 
Markey examining the loaner car policies of automakers affected by the 
Takata airbag crisis: https://www.blumenthal.senate.gov/imo/media/doc/
Blumenthal%20Markey%20Loaner%20
Car%20Report.pdf. This report concluded with a number of 
recommendations for NHTSA, including calling on the agency to:

  <bullet> Require information regarding loaner car policies be 
        included in recall notices.

  <bullet> Create a repository of automakers' loaner car policies on 
        NHTSA's website to increase transparency and reduce confusion 
        for consumers.

    Would you be able to commit to implementing these two report 
recommendations?
    Answer. NHTSA encourages all manufacturers to work with consumers 
who are seeking alternate means of transportation while their vehicle 
is under recall. The Independent Monitor has long recommended to 
vehicle manufacturers that their consumer outreach prominently feature 
the details of all services the manufacturer or its dealers provide 
that address owner inconvenience associated with the repair, including 
the availability of loaner or rental cars. NHTSA is committed to 
working with all stakeholders to continue working to overcome owner 
inconvenience as a means of improving overall recall completion rates, 
and to taking actions that further improve the safety of consumers.

    Question 5. I am troubled that it took over two years after the 
first fatality involving a Ford Ranger, and half a year following the 
second fatality involving a Ford Ranger, for NHTSA to issue a ``Do Not 
Drive'' instruction on 2006 Ford Rangers. It seems as though a lot of 
attention is placed on the fatalities. But it is just as important to 
track injuries that have occurred in order to evaluate risks and 
identify particularly risky vehicles. How many injuries have there been 
that involved Ford Rangers?
    Answer. There have been two confirmed rupture incidents involving 
Ford Rangers, neither of which involved non-fatal injuries. Both of the 
confirmed rupture incidents were fatal incidents involving model year 
2006 Ford Rangers. Vehicle manufacturers and inflator manufacturers are 
required to report all allegations of a ruptured inflator to NHTSA 
within five business days. The manufacturers provide updated 
information to NHTSA, including when they confirm that a rupture 
occurred or did not occur. NHTSA tracks all confirmed rupture 
incidents, including those involving fatalities or non-fatal injuries. 
NHTSA also notes that rupture allegations are not always immediately 
reported. Therefore, there may be a time lag between an incident and 
when the vehicle manufacturer and NHTSA learn of it. In this instance, 
at NHTSA's urging, Ford initiated a recall for the model year 2004-2006 
Ford Rangers in January 2016, following the December 2015 fatal crash. 
Ford received notice of the second July 2017 fatal crash in late 
December 2017. Ford's review of information determined that the 
inflators involved in both fatal incidents, as well as a field return 
part that produced a test anomaly, were produced by Takata on the same 
date. Based on this information, and in consultation with NHTSA, Ford 
decided to issue the ``do not drive'' warning to address the enhanced 
risk to certain model year 2006 Ford Rangers.

    Question 6. What information does NHTSA need to collect to be able 
to assess whether autonomous vehicles are at least as safe as human-
driven vehicles? Does NHTSA currently have the required authority to 
collect such information?
    Answer. NHTSA does have broad authority to collect information. 
However, NHTSA's collection of information is subject to the Paperwork 
Reduction Act, a process which typically takes many months because of 
public notice and comment requirements. In the meantime, NHTSA is 
collecting information from tools such as our fatality and crash 
databases, special crash investigations, investigations by other 
government agencies, research field operational trials, requests from 
companies for regulatory relief, discussions with manufacturers and 
technology companies, and quarterly reporting from those companies 
required to do so. NHTSA is also exploring the possibility of third-
party anonymous data sharing and increasing our interaction with States 
who have active deployments to determine their potential usefulness to 
evaluate automated vehicle (AV) performance, but such collections of 
information would be also subject to the Paperwork Reduction Act.

    Question 7. Takata is currently undergoing bankruptcy and about to 
cease operation. What is NHTSA doing to ensure the 2015 NHTSA 
preservation order continues, all documents are preserved, and testing 
continues to protect the public in the future for vehicles not yet 
recalled?
    Answer. While the Preservation Order contained provisions that 
continued its applicability in the event of a change in corporate 
structure, as is happening through bankruptcy and acquisition, NHTSA 
issued an Amendment to the Preservation Order on April 12, 2018. Among 
other things, that Amendment specifies that the preservation 
obligations imposed on Takata continue in full force and effect on the 
subsequent Takata entity.

    Question 8. The amended coordinated remedy order recalls inflators 
through a phased approach factoring in the location (``zone'') and age 
of vehicle. As you noted in your testimony, cars that move from one 
state to another state must be re-categorized. How long does it take 
NHTSA to re-categorize a vehicle once it is re-registered in a new 
state? To what extent is the amount of time a vehicle is in a new or 
former geographic location factored into the new prioritization 
designation of a vehicle?
    Answer. Vehicles were originally prioritized according to a ``sold 
or ever registered'' criteria, so if a vehicle was originally sold or 
ever registered in an High Absolute Humidity (HAH) or Zone A State it 
will forever stay prioritized according to that higher-risk factor. If 
the vehicle leaves the HAH or Zone A it does not move to a lower 
priority group. However, vehicles that move from a lower risk Zone (B 
or C) into a higher risk Zone (A or B) or from Non-HAH to HAH/Zone A, 
the vehicles are reprioritized into the corresponding higher-risk 
priority group. Each vehicle manufacturer obtains updated vehicle 
registration information on a recurring basis throughout the year to 
determine the address of record for mailing recall notifications. In 
the Takata recalls, each vehicle manufacturer is updating this 
information at a minimum of twice per year and, accordingly, this 
process should only take a few months.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                               Heidi King
    Question. It is my understanding that the recall prioritizes 
vehicles in warmer and more humid states as ``high priority,'' while 
vehicles located in colder states are lower priority. The problem with 
this approach, is that cars move. They change location. As they change 
location, they change temperatures. And this may put drivers at risk. 
Many people in my state of New Hampshire, for example, spend their 
winters down in Florida or other warmer climates. What is being done to 
raise awareness to consumers that their vehicle may need attention a 
lot sooner then they initially thought? Does NHTSA maintain a database 
of how many recalls are needed in each state? If not, why?
    Answer. The data collected and examined by NHTSA shows that long-
term exposure to combined high heat and humidity creates the risk that 
a Takata air bag will explode. A vehicle that ``winters'' in a hot and 
humid location does not experience the same continuous periods of heat 
and humidity as a vehicle that has been driven in these conditions 
year-round for many years. NHTSA prioritized Takata air bag repairs to 
ensure that vehicles with air bags that pose the highest threat to 
safety are able to be fixed first, while also working to ensure that 
parts are available to repair every affected vehicle as quickly as 
possible. Recall priority groups are based on the make, model, and 
model year of a vehicle; inflator position (driver or passenger); and 
the vehicle's recall zone based on temperature and humidity. There are 
three recall zones: Zone A, hot and humid; Zone B, less hot and humid; 
and Zone C, least hot and humid. A vehicle is placed into the highest 
zone of a State or territory in which it has ever been registered. 
Vehicle manufacturers inform affected vehicle owners, via first class 
mail, as soon as the recall for each priority group launches. A vehicle 
owner who receives a recall notice indicating parts are available 
should schedule an appointment as soon as possible to get the free 
repair. Vehicle manufacturers maintain the data on recalls that have 
been completed and are still needed and report that data to NHTSA and 
the Independent Monitor. The vehicle manufacturers report information 
for the Takata recalls at the zip code level, which enables the Monitor 
and NHTSA to evaluate recall completion rates by state. Detailed 
completion rate data by priority group is available on NHTSA's website 
at https://www.nhtsa.gov/equipment/takata-recall-spotlight.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Todd Young to 
                            John D. Burretta
    Question 1. In your testimony, you mention the challenge of not 
only identifying who owns the vehicles that need to be fixed, but also 
how to ``identify messaging that clearly communicates the defect's risk 
to consumers and motivates them to act.'' What lessons have you learned 
in the process of developing communications to consumers that motivates 
them to act?
    Answer. Through focus groups, in-depth interviews, online surveys 
and a ``mystery shopper'' program conducted in 2016, as well as 
additional focus groups and a national quantitative survey conducted in 
2017, I learned that awareness among affected vehicle owners as of that 
time as to the existence of the recall, the scope of the Takata 
recalls, the severity of the Takata defect and the urgency of the 
recall was incomplete. Many affected vehicle owners did not understand 
that many different vehicle makes and models are affected, did not 
believe the defect is serious and did not know the repair is free and 
requires little time to be conducted. The research established various 
points regarding effective recall communications, including:
    Outreach materials should unambiguously convey the urgency of the 
situation and provide a clear and persuasive call to action, using 
disruptive imagery that captures the attention of affected vehicle 
owners and ensures outreach materials are not discarded or forgotten.
    Communications using bright, attention-grabbing colors, employing 
words like ``kill'' and ``explode'' are likely to effectively drive 
action.
    Sharing concrete facts regarding the Takata recalls, such as the 
number of vehicles affected or the number of deaths and injuries that 
have occurred, helps affected vehicle owners understand the urgent 
safety risk defective Takata inflators pose and the importance of 
having one's vehicle repaired immediately.
    Sending traditional mailers on one or two occasions does not 
adequately convey the urgency of the Takata recalls. Repeated reminders 
are important.
    Recall outreach should clearly convey that the repair is free of 
charge.
    Communications should use personalized messages with the vehicle 
owner's name and showing pictures of the make, model and model year of 
the owner's vehicle.
    Communications should convey clearly the availability of services 
that would minimize inconvenience, such as free towing, free loaner 
vehicles, extended dealership hours or the availability of mobile 
repair service.
    Communications should clearly convey the availability of 
replacement parts.
    Communications should identify a clear, simple and actionable 
process through which recipients can take steps to remedy the problem, 
such as a URL or phone number through which vehicle owners can schedule 
a repair appointment.
    Providing outreach materials in a language affected vehicle owners 
can understand is key to ensuring they understand the content of the 
message. Content should be in multiple languages.
    Further details regarding this research and resulting findings are 
set out in my November 2017 report entitled The State of the Takata 
Recalls, which may be accessed at https://www.nhtsa.gov/sites/
nhtsa.dot.gov/files/documents/the_state_
of_the_takata_airbag_recalls-
report_of_the_independent_monitor_112217_v3_tag.pdf.

    Question 2. In the development of those messages, have you 
consulted with behavioral economists to help identify the most 
effective methods? If not, do you believe this is the type of problem a 
behavioral economist might play a constructive role in developing best 
practices?
    Answer. In the development of my communications recommendations and 
related pilot initiatives, I consulted with professional communication 
strategists and research analysts who specialize in consumer 
perceptions, communications strategy, message refinement and tactical 
program development. Consistent with behavioral economic theory, our 
consultants focused on the strategic use of language, imagery and 
incentives to help vehicle owners overcome the perceived costs, 
barriers and biases that might inhibit their getting their defective 
airbags repaired. I believe these approaches effectively address the 
issues surrounding Takata-related recall outreach.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            John D. Buretta
    Question 1. What additional steps can automakers take to improve 
recall completion rates?
    Answer. To improve recall completion rates, automakers should:

  <bullet> Send frequent, multichannel outreach that clearly describes 
        the dangers of defective Takata airbag inflators and conveys a 
        clear path to action;

  <bullet> Offer services that will minimize owner inconvenience, such 
        as free loaner vehicles and mobile repair service, and clearly 
        communicate the availability of such services in outreach;

  <bullet> Segment their unrepaired vehicle owner populations and 
        employ different strategies based on the needs of each 
        respective segment;

  <bullet> Continuously measure the success of the different recall 
        initiatives and tactics employed, so as to avoid expending time 
        and resources on ineffective methods and instead dedicate 
        resources to proven, efficient recall tactics, and 
        strategically forecast anticipated completion rates;

  <bullet> Engage and motivate dealers, including taking measures to 
        ensure dealer recognition and accountability, expand dealer 
        reimbursement policies, evaluate technician training 
        requirements and host dealer best practices roundtables;

  <bullet> Engage independent repair facilities to notify affected 
        vehicle owners of open Takata recalls, assist affected vehicle 
        owners with completing repairs and provide affected vehicle 
        owner contact information;

  <bullet> Transition from local to national strategies once a 
        particular initiative is observed to be effective, making sure 
        to plan strategically and dedicate significant forethought, 
        logistical planning and resources to ensure the national 
        initiative is effective and efficient;

  <bullet> Use teams with cross-functional expertise and personnel with 
        diverse skill sets, experience and expertise, to allow for 
        development of more sophisticated solutions and strategies to 
        accelerate recall completion;

  <bullet> Undertake door-to-door canvassing initiatives for higher-
        risk vehicles and long-term non-compliant vehicle owners later 
        in recall campaigns, to proactively encourage vehicle owners to 
        schedule repairs, verify their contact information and 
        understand in greater detail the barriers vehicle owners face 
        in completing repairs;

  <bullet> Address the heightened risk posed by certain inflator types 
        with enhanced outreach strategies, including canvassing and 
        multi-touch, multi-node communications that are tailored to 
        affected vehicle owners; and

  <bullet> Implement my formal recommendations, which provide greater 
        detail on effectively conducting the aforementioned activities.

    These initiatives are outlined in greater detail in my November 
2017 report The State of the Takata Airbag Recalls, which may be 
accessed at https://www.nhtsa
.gov/sites/nhtsa.dot.gov/files/documents/
the_state_of_the_takata_airbag_recalls-
report_of_the_independent_monitor_112217_v3_tag.pdf. Automakers that 
have adopted these methods have made substantial progress in improving 
their completion rates.

    Question 2. Do you think NHTSA has done enough to push automakers 
to ensure recall repairs are completed?
    Answer. NHTSA is making substantial progress in pushing automakers 
to ensure recall repairs are completed. I have worked closely with 
NHTSA to assist automakers in improving their recall completion rates, 
and NHTSA frequently participates in meetings with automakers and in 
summits encouraging automakers to undertake enhanced recall techniques. 
NHTSA also provides feedback directly to automakers and aims to ensure 
those automakers are seeking to maximize recall repairs. NHTSA 
implemented the Third Amendment to the Coordinated Remedy Order, dated 
December 9, 2016, which, through its stepped series of recall repair 
deadlines, incentivizes automakers to seek to ensure repairs are 
completed on a timely basis.

    Question 3. What additional steps can NHTSA take to improve recall 
completion rates? Have you recommended that NHTSA take enforcement 
action or other remedial steps against specific automakers whose recall 
completion rates substantially lag behind the metrics established in 
the Takata Orders?
    Answer. NHTSA has been very supportive in encouraging automakers to 
improve completion rates and has substantially contributed to and 
driven success realized in transforming automakers' approaches to 
automotive recalls. NHTSA can help to further improve recall completion 
rates by continuing its support of the many ongoing recall initiatives, 
and by continuing to foster the cross-industry collaboration that has 
resulted. Where I observe an automaker with recall completion rates 
substantially behind the metrics established in the Takata Orders, I 
communicate to NHTSA the need for enhanced scrutiny and engagement and 
NHTSA has supported and pursued heightened levels of engagement. I do 
not make recommendations to NHTSA regarding enforcement actions.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                            John D. Buretta
    Question. As the Independent Monitor, what are you doing to ensure 
the 2015 NHTSA preservation order continues, all documents are 
preserved, and testing continues to protect the public in the future 
for vehicles not yet recalled?
    Answer. Takata and the Independent Testing Coalition continue to 
test Takata inflators and I receive regular updates on the ongoing 
testing. Any relevant observations with respect to the protection of 
the public are communicated to NHTSA for further action. While the 2015 
NHTSA preservation order is not within the scope of my authority as 
Monitor, I have received information in that regard in the ordinary 
course.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                            John D. Buretta
    Question. This recall represents one of the largest and most 
complicated in U.S. history. It is my understanding that this is the 
Committee's third hearing on this topic since 2014. I am heart broken 
when I think of the individuals who have lost their lives, and the 
families that have been torn apart because of the short-sightedness 
that put business and profits before human lives. What progress has 
been made since the Committee's first hearings in 2014 with regard to 
providing financial relief to those impacted by this tragedy and with 
regard to getting this recall completed as swiftly as possible?
    Answer. Automakers have evolved in their approaches to recall 
engagement since 2014, when the primary recall strategy was sending 
boilerplate, highly technical English language-only letters to affected 
vehicle owners approximately every three months and automakers 
generally relied on state Department of Motor Vehicles' registration 
data for vehicle owner contact information. Today many automakers are 
using a wide range of enhanced outreach strategies to improve 
completion rates, such as: frequent, multi-channel outreach, 
communications tailored to unique demographic attributes of unrepaired 
vehicle owners, using additional sources for vehicle owner contact 
information, refreshing those sources every few months, offering 
services to minimize owner inconvenience such as free loaner vehicles 
and mobile repair, engaging third parties to conduct recall outreach 
and canvassing vehicle owners' homes, in-person, to notify them of the 
issue and schedule repair appointments. Though automakers employ these 
techniques to varying degrees and there remains much room for 
improvement, automakers are increasingly embracing these techniques, 
signaling a positive shift in the industry's approach to automotive 
recalls. As detailed further in my November 2017 report, The State of 
the Takata Airbag Recalls, even at the initial stages of 
implementation, these strategies have doubled or tripled repair rates 
for automakers that employ them.
    Automakers are increasingly collaborating with one another to come 
up with additional innovative recall techniques. Through the Summits 
that I have hosted in coordination with NHTSA, automakers have 
effectively cross-pollinated ideas for recall techniques and execution 
methods.
    With regard to providing financial relief to those impacted by this 
tragedy, funds have been set aside in many Takata-related civil 
settlements and in Takata's reorganization plan to ensure that those 
impacted by this tragedy receive financial relief. Civil litigations 
brought by those who have been injured or whose loved ones have been 
killed by defective Takata inflators have resulted in the provision of 
settlement funds to compensate these individuals. In the TK Holdings 
bankruptcy proceedings, the Bankruptcy Court for the District of 
Delaware has appointed Roger Frankel as legal representative for future 
claimant creditors--individuals who may sustain personal injuries after 
the bankruptcy filing arising from PSAN inflators manufactured by 
Takata before its emergence from bankruptcy--to ensure the 
reorganization plan provides adequate financial relief to such 
individuals. The court also appointed Pachulski Stang Ziehl & Jones LLP 
to represent a committee of unsecured tort claimant creditors, to 
ensure the reorganization plan provides adequate financial relief to 
individuals who currently hold personal injury claims against Takata. 
The confirmed plan of reorganization sets aside funds to provide 
financial relief for current, alleged and future personal injury and 
wrongful death claims, through the PSAN PI/WD Trust. In addition, the 
criminal settlement agreement between Takata and the U.S. Department of 
Justice provides for the payment of $125,000,000 to individuals who 
have suffered or will suffer personal injury caused by defective Takata 
inflators.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                             Joseph Perkins
    Question. It has been reported that Key Safety Systems will acquire 
almost all of Takata post-bankruptcy, except for certain assets that 
deal with Takata's ammonium nitrate-based air bags. Those air bag 
assets will be left in an entity that will be wound down in the near 
future. Will that entity have sufficient funding to assist with the 
production of replacement air bag inflators and maintain records and 
expertise that may assist NHTSA and other interested parties as the 
recall process moves forward?
    Answer. There are no concerns with respect to the questions noted 
above. First, given the transaction closure extended into April, all 
inflator production in RTK (reorganized Takata) had been completed by 
the April 10 close date. All replacement kits going forward will be 
coordinated by JSS (Joyson Safety--Newco). The inflators fora these 
kits will come from internal non PSAN production or from an outside 
source (Autoliv, etc). Per the NHTSA consent order, testing and 
engineering expertise remains in RTK and they will continue its regular 
interactions with NHTSA. All records are maintained and available.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                             Joseph Perkins
    Question. Does Key Safety Systems agree to cooperate with all 
requests with respect to document preservation?
    Answer. Yes, JSS will maintain all relevant documents in our 
possession.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                             Joseph Perkins
    Question. This recall represents one of the largest and most 
complicated in U.S. history. It is my understanding that this is the 
Committee's third hearing on this topic since 2014. I am heart broken 
when I think of the individuals who have lost their lives, and the 
families that have been torn apart because of the short-sightedness 
that put business and profits before human lives. What progress has 
been made since the Committee's first hearings in 2014 with regard to 
providing financial relief to those impacted by this tragedy and with 
regard to getting this recall completed as swiftly as possible?
    Answer. The JSS purchase of the non-PSAN assets of Takata was done 
to protect the industry, preserve public safety with continued 
production of replacement kits, and to save jobs that would have 
otherwise been lost had Takata liquidated. We bring a strong compliance 
approach and focus on quality. The DOJ plea agreement by Takata and 
certain mechanisms in the closing of the transaction provide certain 
funds for current and future victims. JSS is focused prospectively on 
producing high quality products to meet the needs of the consumer.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Todd Young to 
                             Rick Schostek
    Question 1. In your testimony, you highlight that Honda has been 
relentless in contacting consumers to alert them to the roll call, and 
note that you have a 72 percent completion rate that exceeds the 
industry average. To what do you attribute this success? Have you 
developed a message that you have found is particularly effective?
    Answer. Honda has refined its outreach approach to focus not only 
on the substance of its messaging to the consumer, but also on the 
methodology used to find and communicate with the consumer.
    Data integrity is a key foundation of any successful outreach 
strategy. Honda works very closely with our data provider, IHS Markit, 
to ensure that the customer data we are using is accurate.
    This includes employing various data enhancement techniques as well 
as refreshing the data on a frequent basis.
    Honda works with NHTSA, the Takata Monitor and the industry in 
continuously refining our recall messaging, and sharing outreach 
strategies and best practices for effective messaging. This includes 
the use of simple, easy-to-understand language that reinforces the fact 
that the recall will be performed for free. The great bulk of Honda's 
outreach also features bi-or multi-lingual messaging on consumer-facing 
printed communications.
    Honda's success comes from employing a combination of complementary 
strategies rather than a single message or outreach tactic. This 
includes, but is not limited to, the use of e-mail, text messaging, 
online advertising and social media posts. This messaging is delivered 
in a cadenced manner with varying messages and themes; for example, by 
occasionally including imagery of injuries sustained as a result of a 
ruptured inflator. Honda is constantly looking for creative ways to 
reinforce its outreach at a local level through use of respected 
sources to echo the importance of our recall message.
    We have seen increased customer response, for example, when we 
augment existing outreach with a message from the customer's state DMV 
office. However, even that will not motivate many customers to seek 
this important repair. That is why Honda is a strong proponent of 
encouraging states to tie safety recall repair completion to vehicle 
registration renewal. DMV tie-in could assure 100 percent of registered 
vehicles are repaired within a single registration cycle--1 year in 
most states; and more importantly, it would save lives.

    Question 2. What lessons have you learned in the process of 
developing communications to consumers that motivates them to act?
    Answer. Honda has learned a significant amount during its outreach 
activities for the Takata recall. Customers will respond to different 
types of outreach in different ways, and there is no single outreach 
method that will motivate all consumers to bring their vehicles in for 
a repair. As outlined above, using accurate data, Honda continues to 
reach out to consumers using simple and concise messaging that is 
delivered across a wide variety of outreach tools.
    Even employing this outreach together with other industry best 
practices, Honda has seen diminishing returns. This led to Honda's 
decision to conduct door-to-door canvassing for its highest risk 
vehicle population, often referred to as Alpha VINs. In the last year, 
Honda representatives have been knocking on the doors of every valid 
address associated with an on-the-road Alpha VINs. That outreach 
continues today.
    Through Honda's combined outreach efforts to date, we have either 
repaired or otherwise accounted for 1.03 million Alpha VINs, leaving 
approximately 55,000, or 5.1 percent of the original population, 
subject to ongoing outreach efforts. This has proven to be a 
particularly challenging population, as even intense canvassing 
throughout the last year, often involving multiple visits to each Alpha 
VIN owner, has not yet motivates them to accept the repair. Frequently, 
these customers feel they are too busy, or simply believe the problem 
will not happen to them. In other cases, Honda has found that these 
customers have avoided taking part in the recall as a result of a 
perceived desire to avoid detection, often driven by personal or legal 
concerns. These customers in particular have proven to be suspicious of 
uninvited visitors offering free repair work on their vehicles. In a 
number of cases, canvassers have even been threatened with violence, 
which in some cases has required the involvement of local law 
enforcement.
    Within reasonable limits, considering the safety of our canvassers 
first, Honda will continue to encourage these customers to avail 
themselves of the recall remedy. It remains important to understand 
that, despite the 100 percent completion target that NHTSA has 
promoted, the auto industry possesses no enforcement capacity to compel 
a customer to complete a repair.

    Question 3. You also mention the importance of engaging other 
stakeholders in helping the industry identify and notify customers with 
outstanding airbag recalls. Can you tell me what successes you have had 
in engaging with other ancillary industries that ultimately have a 
touchpoint with consumers?
    Answer. Honda has seen localized lift in repair rates when our 
outreach efforts were supplemented by DMV outreach. For example, both 
the District of Columbia and the State of Vermont advised vehicle 
owners if their vehicle contained an unrepaired safety defect at the 
time of a required vehicle inspection. In a separate pilot, the 
District of Columbia's DMV actively supported a program to perform 
Takata Recall repairs to coincide with those required inspections. 
Honda is eager to broaden these efforts with additional state DMVs.
    Honda also has had noteworthy success working with the insurance 
industry. Over time, Honda has developed a relationship where most 
insurance companies will permit repairs of salvage vehicles before 
those vehicles are re-sold at auction. This avoids recalled airbags 
from entering the secondary use market.
    At the same time, Honda has so far been unsuccessful at encouraging 
these same insurance companies to engage their policyholders by 
reminding them to get this life-saving repair. To overcome insurance 
company objections about data availability, the auto industry worked 
together in the last year to create a bulk VIN recall lookup tool. This 
tool provides a free single source for looking up open safety recalls 
on large numbers of VINs from all OEMs. Honda will continue to engage 
the insurance industry to look for creative ways we might work together 
to improve completions in the future.
    Honda also has worked with CCC, the industry leading supplier of 
body shop estimating software, to raise awareness of this recall. When 
an affected customer's VIN is entered into the collision estimating 
system at a body shop that uses this software, body shop personnel will 
be shown a pop up message that alerts them that the particular VIN has 
one or more open safety recalls, including the Takata recall. A 
printout of this message can then be provided to the customer 
containing information on appropriate next steps to repair their 
vehicle.
    Honda believes that the most effective means of assuring the repair 
of vehicles with safety defects is by tying vehicle repair to vehicle 
registration. This is particularly important for the second, third or 
fourth owners of vehicles who may not even be aware at the time they 
purchase the vehicle that it contains an unremedied defect.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                             Rick Schostek
    Question. About sixty thousand vehicles nationwide--and over three 
thousand in Florida--contain ``alpha'' inflators, which pose a fifty 
percent risk of serious death or injury when they deploy. Have you 
considered case bounties or just offering to buy these old vehicles, 
which may not be worth much, to get them off the road?
    Answer. With respect to vehicles believed still to be on the road, 
Honda has employed a variety of strategies to encourage the completion 
of open Takata inflator recall repairs. Since June 2016, Honda focused 
over 9 million direct communications to its highest risk VIN 
population, often referred to as ``Alpha'' vehicles, with the average 
unrepaired on-the-road VIN receiving over 45 communications with 
varying cadence and messaging. Further, in the past year, Honda took 
the additional unprecedented step of performing door-to-door canvassing 
of every Alpha consumer, with the goal of engaging them, understanding 
their specific needs, and addressing those needs to accomplish the 
recall.
    When engaged with consumers regarding vehicles they still have, but 
which no longer are on the road, Honda endeavors to do what is 
necessary to repair the airbag inflator taking into account that 
customer's needs. Depending on the particular circumstances, this has 
included repairing vehicles expected to return to active service in the 
future, purchasing the undeployed airbag inflator from vehicles not 
expected to return to service, and in some cases offering to purchase 
the whole vehicle. Where the vehicle is still on the road, we have 
found it very often serves as an important means of transportation for 
the customer's family, making vehicle disposal an unattractive option 
compared to repair. For these consumers, Honda offers incentives to 
meet their specific needs--most often towing, loaner vehicles, local 
transportation (other than loaner cars) and on-site repairs.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                             Rick Schostek
    Question 1. Last year, Takata signed a plea agreement with the 
Department of Justice, which included the payment of a $25 million 
criminal penalty, $125 million restitution for victims of defective 
Takata airbags, and $850 million compensation fund for auto 
manufacturers. Did Honda actively negotiate with DOJ to set the 
restitution fund for OEMs at $850 million? Please provide copies of all 
documents and submissions you provided to DOJ which may have been 
considered in determining this allocation of restitution funds.
    Answer. Honda fully cooperated with the Department of Justice in 
its investigation of Takata, but did NOT negotiate or otherwise discuss 
with DOJ the amount of the personal injury victim restitution fund or 
the OEM victim restitution fund. As no negotiations with DOJ occurred, 
there are no documents to share on this matter.
    In addition to the $125 million Victim Restitution Fund, an 
additional fund has been created through negotiations in the Takata 
bankruptcy. That fund will provide at least an additional $130 million 
to compensate individuals injured by Takata PSAN inflator and will be 
administered by Takata Special Master Eric Green. In addition, and also 
in conjunction with the Takata bankruptcy, Honda has committed to 
ensuring that all Honda customers who have been injured due to a Takata 
PSAN inflator are fairly compensated through an expedited process, also 
administered by Special Master Green. Honda is presently the only OEM 
that has made this commitment. Additional information about these funds 
and claim processes is available at www.takataspecialmaster.com

    Question 2. It is my understanding that the first incident 
involving defective Takata airbags took place in May 2004 with a 2002 
Honda Accord. The victim experienced severe lacerations on both her 
chin and right side cheek as a result of the inflator rupture. When 
Honda issued its first recall in 2008, Honda did not include 
information about this event to NHTSA. It was not until September 2009 
that Honda disclosed this first incident with NHTSA. Why wasn't this 
inflator provided to Takata and NHTSA for inspection soon after the 
incident? Why did it take until September 2009 for Honda to report this 
event to NHTSA?
    Answer. Honda did not wait until September 2009 to disclose this 
incident to NHTSA. Honda promptly reported the 2004 incident under the 
requirements of the TREAD Act in its Early Warning Report to NHTSA in 
the 2nd quarter of 2004.
    The reason the 2004 incident was not also included in the initial 
2008 recall disclosure is because Takata had previously advised Honda 
that the inflator rupture in 2004 was an ``anomaly.'' When Honda 
learned of the 2004 rupture, it had little or no experience with 
ruptures. In May 2005, Honda contacted Takata about the potential 
causes of the rupture and provided photos of the ruptured inflator. 
From these photos, Takata engineers concluded that deep and localized 
rust inside the inflator had been present before the rupture, and they 
believed this rust was probably caused by excessive moisture during 
manufacturing or a leak in the inflator due to a compromised seal. The 
inflator itself was not provided to Takata. To our knowledge, it has 
not been preserved. However, Takata never advised Honda that it was 
unable to evaluate the inflator from the 2004 event based on the photos 
of the inflator alone. Takata searched its manufacturing records and 
verified that the data showed no deviations from Takata's manufacturing 
specifications. In addition, Takata had seen no other ruptures in the 
field, and it would be another three years before another took place.
    After the 2007 and 2008 ruptures, Takata believed it had pinpointed 
the problem--it identified a five-week period when its propellant may 
have been manufactured improperly. The inflator from the 2004 incident, 
however, used propellant that had been manufactured ten months after 
the time period in question. Additionally, as discussed above, Takata 
told Honda in 2007 that the 2004 event inflator ruptured due to 
``anomalies'' that had nothing to do with the issues that led to the 
2008 recall. Honda had no engineering basis to include the 2004 event 
in its reporting of the 2008 recall to NHTSA.
    In July 2007, after three additional ruptures in the field had been 
reported, Honda initiated a thorough review of the issue. These 
ruptures occurred in vehicles that were at least six and a half years 
old at the time of the incident, and all involved inflators that were 
manufactured within three weeks of each other. In August 2007, Takata 
presented a tentative conclusion to Honda that ``we likely have a 
cluster of events (the 2007 ruptures) from a common cause and an 
isolated incident (the 2004 event).''
    Takata based its recommendations about the initial November 2008 
recall on its conclusion that the ruptures were caused by manufacturing 
defects in a brief period of propellant manufacture (October through 
December 2000). The propellant used in the inflator that ruptured in 
2004 was made in October of 2001. The logical conclusion, based on the 
information available at the time, was that the 2004 event was not 
related to the recall defect, but instead occurred due to a compromise 
of the seal. As such, the 2004 event was not relevant to the recall and 
should not have been referenced as a related field event.
    In June 2009, after additional ruptures in the field, Honda 
expanded its Takata airbag recalls, following Takata's disclosure that 
PSAN propellant manufactured from the start of production through 
February 2001 was incorrectly manufactured to below-specification 
density (low-density propellant). This recall covered inflators 
containing propellant manufactured up until February 2001. It therefore 
did not include inflators with propellant manufactured in October 2001 
(the 2004 event inflator). Because the cause of the 2004 event was not 
viewed as related to the low-density propellant defect, neither the 
event nor the manufacturing period was relevant to the recall.
    After the June 2009 event, Honda and Takata continued their root 
cause investigation. In August 2009, Takata again concluded that the 
event in 2004 was caused by a different problem than later events. 
Takata provided Honda with four reasons for this conclusion: (1) The 
inflator at issue in the 2004 rupture was only two and a half years 
old, while the other ruptures involved much older inflators; (2) Unlike 
other inflators, the inflator in the 2004 rupture had deep localized 
interior rust, which suggested a compromised seal; (3) The propellant 
manufactured at the same time as the 2004 event propellant was 
manufactured according to specifications and performed properly in 
recovered inflators when deployed; and (4) Takata was able to replicate 
the 2004 event inflator rust and corrosion by testing an inflator with 
an intentionally compromised inflator seal.
    You are correct to point out that in September 2009, as part of a 
response to a NHTSA Recall Query, Honda again referenced the 2004 
event. NHTSA initiated the Recall Query to determine whether the scope 
and timing of the 2008 and 2009 recalls were appropriate. This was the 
second time NHTSA was told of the 2004 event. Before the Recall Query 
was completed, Honda expanded the recall again because Takata could not 
ensure that additional ranges of propellant were manufactured to the 
correct density. This expanded recall in February 2010 included the 
manufacturing range of the propellant in the 2004 event inflator, but 
was not conducted because of concerns that the 2004 incident, by 
itself, signaled a problem in those inflators. NHTSA, aware of the 
three recalls and the 2004 event, concluded that the timing and the 
scope of the recalls were appropriate.
    Finally, in evaluating Honda's decisions about Takata's airbag 
inflators equipped with Phase Stabilized Ammonium Nitrate, it is 
important to remember that Takata concealed critical test data from 
Honda during the development of these inflators and during the 
investigation into ruptures. As Takata has admitted in a criminal 
guilty plea, Honda would not have installed these inflators in its 
customers' cars if Takata had disclosed this information. If this 
information had been disclosed to Honda in May 2005 or in 2007 when the 
investigation began, the recall history above would have been vastly 
different.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                             Rick Schostek
    Question. 1This recall represents one of the largest and most 
complicated in U.S. history. It is my understanding that this is the 
Committee's third hearing on this topic since 2014. I am heart broken 
when I think of the individuals who have lost their lives, and the 
families that have been torn apart because of the short-sightedness 
that put business and profits before human lives. What progress has 
been made since the Committee's first hearings in 2014 with regard to 
providing financial relief to those impacted by this tragedy and with 
regard to getting this recall completed as swiftly as possible?
    Answer. Significant progress has been made in both of the areas--
providing financial relief and recall completion--that are the subject 
of this question.
    As to the former, Honda can point to several important developments 
that have made financial relief more available to consumers impacted by 
the Takata airbag recall, including those that have suffered injuries 
resulting from Takata airbag ruptures. First, on February 27, 2017, 
Takata Corporation entered into a plea agreement with the United States 
in connection with charges relating to certain of its airbags. The plea 
agreement created a $125 million restitution fund for persons who have 
suffered or will suffer wrongful death or personal injury caused by the 
malfunction of a Takata airbag inflator. The Takata Victim Restitution 
Fund is administered by Takata Special Master Eric Green.
    An additional fund also has been created through negotiations in 
the Takata bankruptcy. That fund will provide at least an additional 
$130 million to compensate individuals injured by Takata products and 
also will be administered by Special Master Green. In addition, and 
also in conjunction with the Takata bankruptcy, Honda has committed to 
ensuring that all Honda customers who have been injured due to a Takata 
PSAN inflator are fairly compensated through an expedited process, also 
administered by Special Master Green. Honda is presently the only OEM 
that has made this commitment. Additional information about these funds 
and claim processes is available at www.takataspecialmaster.com.
    Finally, on or about February 28, 2018, Honda entered into 
settlement of the economic loss class action claims in the 
multidistrict litigation captioned In Re: Takata Airbag Products 
Liability Litigation, No. 15-MD-2599-FAM (the ``MDL Settlement''). The 
MDL Settlement was valued at $605 million and includes a number of 
different components, including an Outreach Program, a Rental Car/
Loaner Program, and a claims process that allows customers to submit 
claims for cash payment for out-of-pocket losses.
    Turning to the second topic of the question, recall completion, 
Honda again is able to report significant progress. Specifically, Honda 
has the highest Takata recall completion percentage in the industry 
and, perhaps even more significantly, that completion percentage has 
been achieved on industry-leading volumes of airbag inflator repairs.
    These repair statistics have come as a result of hard work and 
ingenuity by Honda and its associates. The foundation of Honda's 
strategy is a multi-channel outreach program that thus far has produced 
over 160 million Takata recall-related communications to affected 
customers. Honda has learned that its customers sometimes respond 
differently to distinct modes of communication, so its outreach is 
comprised of a varied mixture of mail, telephone, e-mail, SMS message 
and social media communications. The messaging, normally provided in 
multiple languages, emphasizes both the urgency of the recall and the 
availability of a free repair.
    Honda has instituted a number of programs designed to maximize 
customer participation in the recall remedy. To that end, Honda has 
instituted a loaner car program for customers needing alternative 
transportation while their vehicle is being repaired. Vehicle towing 
also is an option in many cases. Perhaps most noteworthy, Honda has 
instituted a nationwide canvassing initiative targeted to its highest-
risk vehicle populations. To date, Honda canvassers have made over 
600,000 in-person visits to owners associated with its Alpha vehicle 
population. The scope of the canvassing program has just been expanded, 
and Honda anticipates that this will have an additional positive impact 
on its completion percentage. Honda also has begun supplementing some 
of its canvassing teams with trained technicians that, where feasible, 
offer the possibility of completing an on-the-spot repair at the 
customer's home or place of business.
    Honda has employed a number of other innovative tactics in support 
of its Takata recall program. By partnering with certain auction 
services, Honda has devised new ways to repair recalled vehicles 
registered to insurance companies. Honda likewise has made efforts to 
increase awareness among independent repair businesses and collision/
body shops so that, where appropriate, personnel from these aftermarket 
sources can promote the recall to their customers. Honda also has 
worked with several state DMVs to leverage their stature in 
underscoring to Honda customers in those states the importance of 
having the recall completed. These activities are emblematic of Honda's 
commitment to the Takata recall and, more fundamentally, to the safety 
of its customers.

    Question 2. I have heard from the auto industry that one major 
issue with implementing a recall of this magnitude, is waiting for 
replacement parts. Is this actually the case, and if so, what more can 
be done to ensure manufacturing and shipment of replacement parts is 
occurring as quickly as possible?
    Answer. Honda has worked very closely with suppliers of airbag 
inflators in the industry to ensure there is a sufficient supply of 
inflators available within its parts supply chain. The result of these 
efforts is that Honda has not experienced a back order on a driver's or 
passenger's side inflator since October of 2016. Honda's ``decision to 
act quickly and comprehensively to find a solution'' to the Takata 
airbag crisis was recognized in a recent article published in 
Automotive News: ``Once it was clear the Takata episode was going to 
affect numerous brands across the industry--thus putting a strain on 
supplies of inflators--Smith pushed Honda to pursue buying additional 
inflators from new suppliers and helped get those companies online with 
Honda's supply chain.'' Bruce Smith Named Automotive News All-Star, at 
http://www.autonews.com/article/20171126/OEM02/171129908/bruce-smith-
all-star-service-and-parts-honda (Nov. 26, 2017). The Automotive News 
article is enclosed herewith for reference.
    Honda does not anticipate any issues with inflator parts supplies 
that would inhibit its customers from receiving the appropriate repair 
for any vehicle involved in the Takata recall.

    Question 3. Another, more pressing issue with the recall it seems, 
is the difficulty people in my state and across the country have in 
getting an appointment at a dealer or repair center that works with 
their schedule. While getting car parts is a problem for the 
manufacturer, dealer recall appointment schedules seem to be a problem 
for everyone. What specific steps are you taking to make this process 
easier for all recalls?
    Answer. Honda has taken a number of steps to facilitate prompt 
Takata recall repairs for consumers. First and foremost, Honda acted 
early to secure a robust supply of replacement parts, as detailed in 
Honda's response to the previous response. Honda also focused its 
attention on assuring the robustness of our foundational business 
processes, for example, by lowering the minimum age for loaner car 
eligibility and assuring our scheduling system prominently presents 
open safety recall information to the consumer, thus encouraging the 
repair. Honda also educated its dealer body to prepare them for added 
workload; in response, many dealers of their own initiative took 
additional steps based on their local needs, including adding personnel 
as needed and offering extended business hours and--in some cases--
special weekend repair days.
    Honda monitors a number of feedback channels, including our 
Customer Relations department, Dealer feedback, daily repair volume, 
parts supply and mystery shopper calls, among others. While appointment 
availability might be a challenge for some manufacturers, our customer 
feedback demonstrates that Honda is able to meet customer recall 
appointment scheduling expectations--and has been for some time.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
     Response to Written Questions Submitted by Hon. Todd Young to 
                            Desi Ujkashevic
    Question 1. In your testimony, you highlight that you are working 
closely with NHTSA and the Monitor to implement best practices to 
encourage consumers to replace their airbags. You also note that you 
are using data analytics to study the effectiveness of various 
approaches to accomplish that task. What lessons have you learned as a 
result of your data analytics?
    Answer. The use of data analytics is ongoing and new information is 
identified by the monitor, other OEMs and Ford as the recalls progress. 
Some of the key learnings from the use of data analytics include:
    Segmentation of recall populations (older vehicles, customer 
demographics, geographic influences (e.g., urban and rural customer 
locations) require different owner contact approaches to be effective
    Identification of vehicles that are currently owned by a subsequent 
owner (sometimes the third or fourth owner) and vehicles that are no 
longer in service
    Analysis of different types of notification (i.e., e-mail, phone 
calls, first class mail, FedEx packaging, post cards, etc.) and the 
frequency of notification for optimal methods to cause different owner 
populations to respond to the recalls

    Question 2. Has Ford consulted behavioral economists to help 
understand that data and more effectively tailor a message? If not, do 
you believe a behavioral economist might play a constructive role in 
developing a more effective message?
    Answer. The Takata Independent Monitor has employed a number of 
resources to consult with the OEMs including experts on integrated 
marketing communications programs and all aspects of digital, social 
and mobile media strategy, development and execution. Feedback from 
those experts has been provided to all of the OEMs and their guidance 
is being implemented in customer outreach messaging, including owner 
letters, social media outreach, and targeted experiential events as 
examples. Ford is also using its sales marketing partner to identify 
and coordinate messaging in customer outreach for the recall 
notifications.

    Question 3. Has Ford had success engaging with other ancillary 
industries that have a touchpoint with consumers?
    Answer. Ford, along with all of the affected OEMs, are using 
unprecedented outreach methods for the Takata related recalls. Some 
examples of those include mobile repair services, salvage yards and 
auto auctions, automotive insurance companies, automotive finance 
companies (e.g., Ford Motor Credit), enthusiast groups (e.g., Mustang 
Clubs of America) and private repair facilities such as body shops to 
make sure customers are aware of the recalls and the importance of 
having the recall repairs completed. Also, some state motor vehicle 
authorities are allowing OEMs to coordinate messaging in their 
facilities (e.g., video messaging in waiting areas, and letters to 
customers with government agency letterhead).
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Desi Ujkashevic
    Question 1. The two deaths caused by rupturing Takata inflators in 
Ford Rangers reveal that just one day of production at Takata can be 
fatal. How can Ford be sure that other vehicles will not need a ``do 
not drive'' warning?
    Answer. Ford and Takata, in coordination with NHTSA, continue to 
test parts returned from the field. To date all of the inflators that 
have demonstrated an elevated risk of rupture for special causes 
outside the commonly accepted causes associated with exposure to 
moisture, high temperature cycling, and time in service have been 
addressed. As we have shared with your staff, if additional data is 
identified that suggests additional action should be taken, we will.

    Question 2. Ford has identified three injuries caused by rupturing 
Takata airbags in 2005-2007 Ford Mustangs--two of which occurred in 
Florida. Can you describe these injuries, and should drivers of these 
vehicles stop driving them until they are fixed?
    Answer. The injuries reported to Ford were non-life threatening. 
Based on data available to Ford, we believe the cause of rupture in 
these three Mustangs is the same condition affecting the broader 
population of recalled Takata inflators; namely exposure to moisture, 
high temperature cycling, and time in service. While no special causes 
have been identified in this population of inflators, we will continue 
to monitor all field and test data and make adjustments as necessary.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                            Desi Ujkashevic
    Question 1. Please document all injuries that have occurred due to 
defective Takata airbags in Ford Rangers.
    Answer. As you are aware, there are two fatalities attributed to 
the single stage driver inflators in two 2006 model year Ford Rangers. 
On April 28, 2018, NHTSA informed Ford of an event that occurred in 
March 2017 involving a 2006 Ford Ranger where the driver reported an 
injury to their chest from an inflator rupture.

    Question 2. I understand that Ford is a member of USCAR--the United 
States Council for Automotive Research. USCAR has a specification for 
airbag inflators called USCAR-24, Inflator Technical Requirements and 
Validation Specifications. When did USCAR first begin developing these 
specifications?
    Answer. Ford believes that development of the USCAR specifications 
began in 1999.

    Question 3. Did Takata inflators used by Ford deviate from USCAR-24 
specifications?
    Answer. As Ms. Ujkashevic testified, ``The Takata air bag inflators 
that are being discussed did not deviate to the USCAR spec that would 
be relevant in the context of the deployment disruptions.''

    Question 4. When does USCAR anticipate it will have updated 
inflator specifications and do you expect updated standards would allow 
for the use of ammonium nitrate?
    Answer. There is not an established completion target for the USCAR 
updates. The specification is a performance based specification, not a 
design directive; however, Ford is not currently utilizing ammonium 
nitrate as a primary gas generate in current production vehicle airbag 
inflators and has no plans to do so in the future.

    Question 5. We know that Honda vehicles with so-called ``Alpha'' 
inflators, found in certain 2001-2003 Honda and Acura models, have an 
alarming rupture rate of as high as 50 percent, according to NHTSA and 
Takata. Mr. John Buretta, the Independent Monitor of Takata, has 
documented in his 2017 report that such statistics can be helpful in 
conveying to consumers the importance of repairing open recalls. Do you 
have similar failure rate statistics that you can share with consumers 
regarding the Ford Rangers, and, if you do not, when do plan to have 
such statistics?
    Answer. Ford is continuing to analyze and compare the potential 
rupture rate in the Honda ``Alpha'' population and our ``Do Not Drive'' 
population. If we identify a similar failure rate projection, we would 
certainly use that to help motivate owners to have their vehicles 
repaired. We are concerned that if the projected rupture rate of the 
``Do Not Drive'' population is lower than the ``Alpha'' population, 
owners might take that to mean the risk is lower and somehow 
acceptable. Whatever the projected rupture rate is in the ``Do Not 
Drive'' population, it is unacceptably high and we want all owners to 
stop driving their vehicles and have the Takata air bag inflators 
replaced now.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                            Desi Ujkashevic
    Question 1. This recall represents one of the largest and most 
complicated in U.S. history. It is my understanding that this is the 
Committee's third hearing on this topic since 2014. I am heart broken 
when I think of the individuals who have lost their lives, and the 
families that have been torn apart because of the short-sightedness 
that put business and profits before human lives. What progress has 
been made since the Committee's first hearings in 2014 with regard to 
providing financial relief to those impacted by this tragedy and with 
regard to getting this recall completed as swiftly as possible?
    Answer. Our sympathies go out to those individuals who have been 
injured and the family of those who lost loved ones as a result of 
Takata air bag inflator ruptures.
    Ford is taking extraordinary efforts to encourage all owners with 
defective Takata air bag inflator to have their vehicles repaired. 
While the normal recall letter mailings continue to be effective in 
driving increased completion rates, we are reaching owners in a number 
of creative ways including:

  <bullet> Outbound live phone calls--we are adding Call Center Agents 
        to enable 1 million outbound calls per year

  <bullet> Certified letter with surveys to help us assess what type of 
        outreach is most effective

  <bullet> Facebook targeted campaign

  <bullet> Pandora targeted campaign

  <bullet> Owner letters including additional languages in targeted zip 
        codes

  <bullet> Engaging the nationwide network of Mustang Owner Clubs

    We are also offering rental vehicle assistance for those owners who 
need alternative transportation to have their vehicles repaired or 
those who are waiting for replacement parts.
    For the 2006 Ranger population affected by the ``Do Not Drive'' 
order, we have made eight contacts per vehicle on average including:

  <bullet> US Mail--110,000

  <bullet> E-mail--44,000

  <bullet> Robo Calls--43,000

  <bullet> Live Phone Calls--41,000

  <bullet> Text Messages--11,000

    We continue to use new sources of customer contact data to help us 
identify current owners. We are providing additional incentives to 
dealers to expand their efforts to complete the recall including 
financial incentives that help dealers reach into their local 
communities to find these inflators, competitive assessments to 
motivate dealers to understand opportunities to complete recalls, and 
providing a dealer dashboard to help them track their successful 
efforts to complete the recall. Ford is also using advanced data 
analytics tools to help target specific populations that need 
additional help to complete the recall.
    We are investigating other outreach actions including canvassing, 
mobile repairs, using independent service repair providers in more 
remote locations, and salvage yard recovery of recalled inflators.

    Question 2. I have heard from the auto industry that one major 
issue with implementing a recall of this magnitude, is waiting for 
replacement parts. Is this actually the case, and if so, what more can 
be done to ensure manufacturing and shipment of replacement parts is 
occurring as quickly as possible?
    Answer. While Ford cannot speak for other manufacturers, Ford's 
approach to the remedy parts for these recalls is to develop solutions 
that do not use ammonium nitrate. This approach requires identifying 
non-ammonium nitrate based inflators that provide adequate protection 
to vehicle occupants. In some instances alternate inflators have been 
identified that can be modified slightly to perform with the existing 
airbag cushion and vehicle system. In other instances, an inflator-only 
solution could not be identified, and a new inflator and airbag module 
system were developed. Ford's approach to developing the recall remedy 
parts is to work with existing suppliers to identify potential 
solutions that are then completely tested and validated through Ford's 
processes to ensure the remedy parts perform as required and provide 
adequate occupant protection. Ford worked with (and continues to work 
with) the existing inflator supply base to identify remedies that also 
have adequate production capacity available. In some instances, Ford 
pre-purchased production capacity at suppliers before a remedy part was 
finalized to ensure that parts could be expeditiously produced when a 
solution was identified. Ford continues to work closely with the 
suppliers to expedite parts to customers within the limits allowed by 
regulation of shipping hazardous material.

    Question 3. Another, more pressing issue with the recall it seems, 
is the difficulty people in my state and across the country have in 
getting an appointment at a dealer or repair center that works with 
their schedule. While getting car parts is a problem for the 
manufacturer, dealer recall appointment schedules seem to be a problem 
for everyone. What specific steps are you taking to make this process 
easier for all recalls?
    Answer. Ford is working closely with its dealer network to identify 
and implement processes to reduce the inconvenience to customers. 
Examples of actions to date include providing shuttle services for 
owners, and providing loaner or rental vehicles to owners while their 
vehicle is being serviced. Ford is asking dealers to consider 
conducting weekend airbag replacement events to improve owner 
convenience. Finally, Ford is exploring the use of mobile repair 
service and Independent Body Shop support to complete repairs where 
driving distance or drive time makes it difficult for owners to get to 
a dealership to have airbags replaced. If someone is struggling with 
setting an appointment, we encourage them to contact our Customer 
Relationship Center.

                                  [all]
</pre></body></html>
